<html>
<title> - NOMINATIONS OF: RONALD SIMS, FRED P. HOCHBERG, HELEN R. KANOVSKY, DAVID H. STEVENS, PETER KOVAR, JOHN D. TRASVINA, AND DAVID S. COHEN</title>
<body><pre>[Senate Hearing 111-173]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-173


                      NOMINATIONS OF: RONALD SIMS,
                  FRED P. HOCHBERG, HELEN R. KANOVSKY,
                     DAVID H. STEVENS, PETER KOVAR,
                  JOHN D. TRASVINA, AND DAVID S. COHEN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                            nominations of:

          Ronald Sims, of Washington, to be Deputy Secretary,
              Department of Housing and Urban Development

                               __________

      Fred P. Hochberg, of New York, to be President and Chairman,
                           Export-Import Bank

                               __________

         Helen R. Kanovsky, of Maryland, to be General Counsel,
              Department of Housing and Urban Development

                               __________

      David H. Stevens, of Virginia, to be Assistant Secretary for
                 Housing-Federal Housing Commissioner,
              Department of Housing and Urban Development

                               __________

 Peter Kovar, of Maryland, to be Assistant Secretary for Congressional 
                     and Intergovernmental Affairs,
              Department of Housing and Urban Development

                               __________

     John D. Trasvina, of California, to be Assistant Secretary for
                  Fair Housing and Equal Opportunity,
              Department of Housing and Urban Development

                               __________

       David S. Cohen, of Maryland, to be Assistant Secretary for
                          Terrorist Financing,
                       Department of the Treasury

                               __________

                             APRIL 23, 2009

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs

      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html




                  U.S. GOVERNMENT PRINTING OFFICE
53-677 PDF               WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          MEL MARTINEZ, Florida
DANIEL K. AKAKA, Hawaii              BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  JIM DeMINT, South Carolina
JON TESTER, Montana                  DAVID VITTER, Louisiana
HERB KOHL, Wisconsin                 MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             KAY BAILEY HUTCHISON, Texas
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                 Colin McGinnis, Acting Staff Director
              William D. Duhnke, Republican Staff Director
                       Amy Friend, Chief Counsel
                  Joe Hepp, Professional Staff Member
                Neal Orringer, Professional Staff Member
               Mark F. Oesterle, Republican Chief Counsel
                       Dawn Ratliff, Chief Clerk
                      Devin Hartley, Hearing Clerk
                      Shelvin Simmons, IT Director
                          Jim Crowell, Editor

                                  (ii)








                            C O N T E N T S

                              ----------                              

                        THURSDAY, APRIL 23, 2009

                                                                   Page

Opening statement of Chairman Dodd...............................     1

Opening statements, comments, or prepared statements of:
    Senator Shelby...............................................    13
    Senator Schumer
        Introduction of Nominee Fred P. Hochberg.................     9
    Senator Johanns..............................................    14
    Senator Merkley..............................................    14
    Senator Reed.................................................    19
    Senator Warner
        Introduction of Nominee David H. Stevens.................    12

                               WITNESSES

Patty Murray, a U.S. Senator from the State of Washington........     5
Maria Cantwell, a U.S. Senator from the State of Washington......     7
Barney Frank, a U.S. Representative from the State of 
  Massachusetts..................................................     8
Adam B. Schiff, a U.S. Representative from the State of 
  California.....................................................    11

                                NOMINEES

Ronald Sims, of Washington, to be Deputy Secretary, Department of 
  Housing and Urban Development..................................    16
    Prepared statement...........................................    28
    Biographical sketch of nominee...............................    29
    Response to written questions of:
        Senator Dodd.............................................   111
        Senator Shelby...........................................   113
        Senator Menendez.........................................   115
        Senator Bennett..........................................   117
        Senator Crapo............................................   118
        Senator Vitter...........................................   119
Fred P. Hochberg, of New York, to be President and Chairman, 
  Export-Import Bank.............................................    18
    Prepared statement...........................................    44
    Biographical sketch of nominee...............................    45
    Response to written questions of:
        Senator Dodd.............................................   121
        Senator Shelby...........................................   122
        Senator Bunning..........................................   123
Helen R. Kanovsky, of Maryland, to be General Counsel, Department 
  of Housing and Urban Development...............................    20
    Prepared statement...........................................    60
    Biographical sketch of nominee...............................    62
    Response to written questions of:
        Senator Shelby...........................................   124
        Senator Crapo............................................   125

                                 (iii)

David H. Stevens, of Virginia, to be Assistant Secretary for 
  Housing-Federal Housing Commissioner, Department of Housing and 
  Urban Development..............................................    22
    Prepared statement...........................................    69
    Biographical sketch of nominee...............................    71
    Response to written questions of:
        Senator Dodd.............................................   126
        Senator Shelby...........................................   128
        Senator Bayh.............................................   129
        Senator Crapo............................................   130
        Senator Corker...........................................   132
        Senator Vitter...........................................   132
Peter Kovar, of Maryland, to be Assistant Secretary for 
  Congressional and Intergovernmental Affairs, Department of 
  Housing and Urban
  Development....................................................    23
    Prepared statement...........................................    80
    Biographical sketch of nominee...............................    82
    Response to written questions of:
        Senator Dodd.............................................   134
        Senator Shelby...........................................   135
John D. Trasvina, of California, to be Assistant Secretary for 
  Fair Housing and Equal Opportunity, Department of Housing and 
  Urban Development..............................................    25
    Prepared statement...........................................    92
    Biographical sketch of nominee...............................    94
    Response to written questions of:
        Senator Dodd.............................................   135
        Senator Menendez.........................................   138
        Senator Vitter...........................................   144
David S. Cohen, of Maryland, to be Assistant Secretary for 
  Terrorist
  Financing, Department of the Treasury..........................    26
    Prepared statement...........................................   103
    Biographical sketch of nominee...............................   104
    Response to written questions of:
        Senator Dodd.............................................   145
        Senator Shelby...........................................   147
        Senator Menendez.........................................   150
        Senator Bunning..........................................   151
        Senator Vitter...........................................   152

              Additional Material Supplied for the Record

Statement of Edward M. Kennedy, a U.S. Senator from the State of
  Massachusetts..................................................   155
Statement of John F. Kerry, a U.S. Senator from the State of 
  Massachusetts..................................................   155

Letter submitted by the King County Housing Authority............   156
Letter submitted by the National Association of Housing and 
  Redevelopment Officials, Pacific Northwest Regional Council....   158
Letter submitted by the Seattle Housing Authority................   159
Letter submitted by Transportation for America...................   160
Letter submitted by the National Association of Counties.........   161
Letter submitted by the Coalition for Employment Through Exports, 
  Inc............................................................   162
Letter submitted by the Real Estate Services Providers Council, 
  Inc............................................................   163
Letter submitted by the Manufactured Housing Institute...........   164
Letter submitted by the Asian Real Estate Association of America.   165
Letter submitted by the National Association of Realtors.........   166
Letter submitted by Self-Help and the Center for Responsible 
  Lending........................................................   166
Letter submitted by Bernard K. Melekian, Chief of Police, 
  Pasadena Police Department.....................................   167
Letter submitted by the National Fair Housing Alliance...........   168
Letter submitted by SER-Jobs for Progress National, Inc..........   169
Letter submitted by Gavin Newsom, Mayor, City and County of
  San Francisco..................................................   170
Letter submitted by the National Association of Judiciary 
  Interpreters and Translators...................................   171
Letter submitted by the Hispanic National Bar Association........   172
Letter submitted by MANA, A National Latina Organization.........   174

 
                            NOMINATIONS OF:

                      RONALD SIMS, OF WASHINGTON,

                        TO BE DEPUTY SECRETARY,

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT;

                     FRED P. HOCHBERG, OF NEW YORK,

                     TO BE PRESIDENT AND CHAIRMAN,

                          EXPORT-IMPORT BANK;

                    HELEN R. KANOVSKY, OF MARYLAND,

                         TO BE GENERAL COUNSEL,

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT;

                     DAVID H. STEVENS, OF VIRGINIA,

  TO BE ASSISTANT SECRETARY FOR HOUSING-FEDERAL HOUSING COMMISSIONER,

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT;

                       PETER KOVAR, OF MARYLAND,

   TO BE ASSISTANT SECRETARY FOR CONGRESSIONAL AND INTERGOVERNMENTAL 
                                AFFAIRS,

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT;

                    JOHN D. TRASVINA, OF CALIFORNIA,

   TO BE ASSISTANT SECRETARY FOR FAIR HOUSING AND EQUAL OPPORTUNITY,

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT;

                      DAVID S. COHEN, OF MARYLAND,

           TO BE ASSISTANT SECRETARY FOR TERRORIST FINANCING,

                       DEPARTMENT OF THE TREASURY

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:43 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Christopher J. Dodd (Chairman 
of the Committee) presiding.

       OPENING STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD

    Chairman Dodd. The Committee will come to order, and let me 
apologize to our witnesses and colleagues for the slight delay. 
We have a bill on the floor of the Senate that is out of the 
Judiciary Committee, but given the number of amendments that 
have been offered, you would almost think it was a Banking 
Committee bill. And so Senator Leahy was asking for me to stay 
on the floor to consider some of the amendments being offered, 
and we are going to try and work something out so that we can 
maybe have a Member here complete the nomination process if I 
am unable to complete it in order to get to the floor to 
participate in the debates on the Judiciary Committee bill. So 
I apologize. We are trying to work this all out, and we added 
some confusion this morning, and I now how busy people are in 
terms of schedules.
    What I am going to do is make some brief opening comments, 
and then I am going to recognize, with the permission of my 
colleagues on the Committee, our members who have joined us 
here, including the distinguished Chairman of the House 
Financial Services Committee, Congressman Frank, to make some 
introduction of witnesses. And then I will go to my colleagues 
on the Committee for any comments they may have and then, of 
course, to our witnesses.
    We have quite a panel here this morning, and we are 
grateful to all of you for your willingness to serve. I want to 
congratulate you on being nominated, and thank you, as I said, 
for your willingness to be a part of the change that we all 
seek in our country. So I would like to welcome all of you here 
this morning.
    As you know, this Committee has been working closely with 
the administration to implement the various programs that will 
provide critically important issues to our Nation's economic 
recovery. An integral part of this process is the selection of 
strong and very talented leaders to oversee and manage the 
operations of these programs and departments.
    The American people are looking for leaders who will help 
bring us out of our crisis that we are in economically by 
fixing our housing problem, promoting economic growth, and 
stabilizing our financial system. It will be those of you 
sitting before this Committee this morning who, if confirmed, 
will be charged with carrying out these very important 
responsibilities.
    Today we consider seven nominations: Mr. Ronald Sims, of 
Washington, the State of Washington, to be the Deputy Secretary 
of the U.S. Department of Housing and Urban Development, or 
HUD; Mr. Fred Hochberg, of New York, to be Chairman and 
President of the U.S. Export-Import Bank; Ms. Helen Kanovsky, 
of Maryland, to be the General Counsel of HUD; Mr. David 
Stevens, of Virginia, to be the Assistant Secretary for Housing 
and Federal Housing Commissioner; Mr. Peter Kovar, also of 
Maryland, to be Assistant Secretary for Congressional and 
Intergovernmental Affairs of HUD; Mr. John Trasvina, of 
California, to be Assistant Secretary for Fair Housing and 
Equal Opportunity for HUD; and Mr. David Cohen, of Maryland, to 
be Assistant Secretary for Terrorist Financing at the U.S. 
Department of the Treasury.
    As my colleagues know, we will have more nomination 
hearings to go, so I will be consulting with my colleagues on 
this Committee in an effort to develop a schedule for another 
hearing in the very near future.
    It has always been this Committee's view, particularly 
given the urgency of our economic situation, that we ought to 
help get the President's Cabinet in place as quickly as 
possible. We have five HUD nominees before us today, and if the 
housing crisis is at the root of the economic crisis, as I 
believe it is, then I believe you in many ways will be the 
authors at least of a good portion of the economic recovery we 
all seek.
    For the past 3 or 4 years, the country has been facing a 
very serious housing problem that has its origins in the 
scourge of predatory lending resulting in record-high 
foreclosure rates. Across our Nation, between 9,000 and 10,000 
homeowners face foreclosure every single day. I am pleased to 
note that the new administration has taken a much more 
aggressive approach to dealing with the housing problem than 
did its predecessor, working to halt the spread of foreclosures 
and to provide opportunities for homeowners to refinance their 
mortgages and receive housing counseling.
    The importance of succeeding in these programs cannot be 
stressed enough. Like never before, we need an engaged, 
aggressive, and well-run Department of Housing and Urban 
Development with leadership that is confident in its mission 
and unafraid to act. As President Obama has himself said, HUD's 
role--and I quote him--``has never been more important.'' And 
while HUD has been mismanaged and riddled with scandal in 
recent years, there is an important time for new, bold 
leadership and a clear direction, and I believe that Secretary 
Donovan is already providing just that kind of leadership.
    So I would like to welcome Mr. Sims, Ron Sims, whom I have 
known for a long time, who is a former local official in the 
State of Washington, who is the nominee to be Deputy Secretary. 
He will be working closely with Secretary Donovan particularly 
on the day-to-day management of the agency. Currently the 
County Executive in King County, Washington, he comes with 
years of experience in public service and in working with urban 
policy and city planning. He also brings with him a passion for 
breaking down the barriers between housing, transportation, and 
environmental policies, and, more importantly, the results to 
show for it. I share his enthusiasm and I look forward to 
discussing how we can spur the kind of transit-oriented 
development that gets our economy moving again, reduces 
congestion, cuts transportation costs for working families, and 
creates the kind of safe and affordable shelter needed in our 
country.
    We also welcome the nominee for Chairman and President of 
the U.S. Export-Import Bank, Mr. Hochberg, whom I have known as 
well for many, many years. The Export-Import Bank is 
celebrating its 75th anniversary as the lead government agency 
financing U.S. exports. It was founded in 1934--in fact, at a 
time not unlike the one we are in today--and designed very 
specifically to create jobs here at home. And I have some very 
important questions for you, Mr. Hochberg, but the agency, in 
my view, has been failing in that responsibility at this time. 
It is not creating the kind of jobs. You have lending 
authority, you have insurance authority and guaranty authority, 
and neither of those areas are being fully complemented, in my 
view, at a time like this. So I have some very important 
issues, and you come at an important moment. Since this time, 
this agency has supported over $400 billion in U.S. exports and 
hundreds of thousands of good American jobs. In these tough 
economic times, we need a strong Export-Import Bank to increase 
our ability to make products that foreigners want, buy, and to 
develop and help our exporters secure the financing they need 
to sell those products. And with Mr. Hochberg's unique blend of 
leadership skills honed over 30 years in the private sector, 
government, philanthropy, and academia, I think the Export-
Import Bank will have a leader who understands the impact that 
the financial crisis is having on financing of U.S. exports. So 
I know welcome our additional HUD nominees as well.
    Ms. Kanovsky will also have a critically important role in 
strengthening the agency's operations and programs as the 
nominee for General Counsel. Currently, she is the chief 
operating officer of the AFL-CIO Housing Investment Trust, 
where she has worked for the past 13 years. I have known her as 
well in her capacity in that job, and I congratulate you on 
being before us today.
    Mr. Stevens, who will serve as the Assistant Secretary of 
HUD for Housing and Federal Housing Commissioner, is President 
and COO of the Long & Foster Companies and comes with a deep 
understanding of the mortgage industry and is highly regarded 
and highly supported, I might say, in my own State of 
Connecticut. People involved in the housing area, in fact, 
specifically brought it up to Secretary Donovan when he was in 
my State 2 weeks ago for a day visiting people, and out of the 
audience people stood up and highly commended him for choosing 
you to do this job--not something you normally hear about 
nominees in the process, but there is a lot of excitement about 
you taking this job. I want you to know that as well.
    Mr. Kovar, who will serve as the Assistant Secretary of HUD 
for Congressional Affairs, has executive experience on Capitol 
Hill which includes as chief of staff to Congressman Barney 
Frank, the Chairman of the Financial Services Committee. So you 
bring a lot of experience and knowledge, and we welcome you as 
well.
    Mr. Trasvina, who will serve as Assistant Secretary of HUD 
overseeing fair housing and equal opportunity programs, has 
deep experience working on Capitol Hill and in immigration and 
civil rights policy. As we celebrate National Fair Housing 
Month, I am very pleased to welcome you here before the 
Committee.
    And, last, I would like to welcome the nominee for the 
Assistant Secretary of the Treasury for Terrorist Financing, 
Mr. Cohen. If confirmed, your work would impact our Nation's 
major security challenges, including nuclear proliferation, 
international terrorism, drugs and arms trafficking, and piracy 
on the high seas--a matter that we are all more than familiar 
with as a result of events of the last few weeks.
    Since its creation just 5 years ago, the Office of 
Terrorism and Financial Intelligence has played an invaluable 
role in protecting our national security. In fact, the 9/11 
Commission gave the U.S. Government its only A-minus in the 
category of combating terrorism financing. Yet much work still 
remains to be done using the tools this Committee has afforded 
Treasury in recent years, including legislation that I and 
Members of this Committee authored in 2007 to increase 
penalties against sanctions violators and the USA PATRIOT Act 
of 2001. TFI will continue to play an important part in denying 
funds that promote Iran's nuclear program, tracking activities 
of global terrorism and halting money laundering, and 
international domestic organized crime. Mr. Cohen will provide 
invaluable assistance to Under Secretary Levey and Secretary 
Geithner in managing this critical operation, bringing with him 
years of experience at both the Treasury and working with the 
law firm of Wilmer, Hale.
    Again, I welcome all of our nominees. It is an awful lot of 
you. Frankly, I would prefer to be dealing with you 
individually. That would be the way to do this. But, obviously, 
given the sense of urgency in getting people in place, it is 
something I think all of us can appreciate and support.
    I mentioned earlier supporting this President's nominees. I 
have been a member of the U.S. Senate for some 28 years. I can 
count on one hand the number of nominees that I have opposed 
over that time of Republican and Democratic administrations. I 
do not believe it is a time for people to inject the 
opposition, their ideological framework. Presidents' elections 
have meaning, and if a President gets elected, he or she 
deserves to have the teams in place to help them execute their 
policies and their promises to the American people. I do think 
we have an obligation to examine nominees on other matters 
affecting their capacity to serve. But my general view has been 
to support nominees when that occurs, and, again, I would 
prefer to have done this in a more deliberate fashion with each 
of you in front of us rather than having a panel of this size. 
But, again, given the exigencies of getting people in place, 
given the economic circumstances we are facing, it is what it 
is, and so I am conducting the hearing in this manner.
    What I would like to do--and, again, colleagues are here. 
Mr. Sims, you have both of our colleagues from the State of 
Washington here, and let me turn to them very quickly, and then 
the Chairman of the Financial Services Committee to make his 
introductions. And so I thank both of my colleagues, Senator 
Cantwell and Senator Murray, for being here.
    Yes, and Congressman Schiff. How are you, by the way? 
Welcome.
    Representative Schiff. Thank you.
    Chairman Dodd. Seeing all these Congressmen sitting at this 
Committee makes us nervous in the Senate, I want you to know 
that.
    [Laughter.]
    Chairman Dodd. I know the House members would like to have 
something akin to a term of office that did not coincide with 
Senate elections. I suspect that would pass overwhelmingly in 
the House and have a very difficult time in the Senate, I want 
you to know.
    Anyway, welcome. We are delighted to have you here.
    Representative Frank. Well, everything has a very difficult 
time in the Senate.
    Chairman Dodd. Everything has a very--I know. Having been a 
member of the other body, I can appreciate that point of view 
as well.
    To my colleague, Senator Murray, or whatever order you 
would like.

                   STATEMENT OF PATTY MURRAY
          A U.S. SENATOR FROM THE STATE OF WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman, and to 
all the Members of the Committee, and I am pleased to be here 
today with Senator Cantwell to introduce Ron Sims, who is our 
King County Executive, to this very important hearing. I know 
his wife, Cayan, could not be here, but he is accompanied by 
some family members--a brother-in-law and niece, I believe--and 
I know his family is very excited about this opportunity for 
him.
    I want to personally congratulate Ron on the honor of being 
President Obama's nominee to serve as the next Deputy Secretary 
of the Department of Housing and Urban Development. Ron and his 
family are no strangers to public service, and I want to thank 
them for once again answering the call at this pivotal time in 
our Nation's history.
    As Chairman of the Transportation, Housing, and Urban 
Development Appropriations Subcommittee, I know firsthand HUD's 
important mission--to support community development, increase 
access to affordable housing, and help house families in need. 
From those struggling families to our Nation's veterans, HUD's 
services often mean the difference between the despair on the 
streets and the safety and security of a home.
    But today HUD faces challenges as daunting as at any other 
time in the agency's nearly 45-year history as a Cabinet-level 
agency. Millions of Americans have lost their homes to 
foreclosure, and as unemployment continues to rise, millions 
more are at risk. I have been reassured by the dedication and 
leadership shown by Secretary Donovan over the past 3 months, 
but given the magnitude of this housing crisis, Secretary 
Donovan cannot do it alone. And that is why I am so pleased 
that the President has tapped Ron Sims to provide his 
leadership and experience as Deputy Secretary at HUD.
    Throughout his 12-year career as King County Executive, Ron 
Sims has been a strong leader for our State and the people of 
King County. He has always faced challenges head on and has 
always been open to consider new, innovative policies to 
improve the lives of the families in King County. He has been a 
true pioneer in housing policy, but I want to focus on three 
examples that illustrate his readiness to immediately step in 
and step up to tackle HUD's challenges.
    First of all, Ron knows that making progress requires 
partnerships. As King County Executive, Ron has worked to build 
strong, diverse community partnerships that address many of the 
housing needs in King County. These partnerships have helped 
leverage the resources of the county to create thousands of new 
affordable housing units and preserve and improve existing 
housing stock. Ron has helped to establish and currently serves 
as co-chair of the Committee to End Homelessness. That is a 
regional partnership that has helped add more than 3,000 
housing units for the homeless in King County.
    This experience is going to be critical at HUD, an agency 
that depends on partnerships with everyone, from the largest 
Cabinet agencies to the smallest community boards, to extend 
housing opportunities in communities across the Nation.
    Another central part of HUD's mission is the promise to 
provide housing to all those who need it, free from 
discrimination and prejudice. And as the people of King County 
well know, Ron Sims is an uncompromising champion of equal 
rights. In fact, he recently led an effort to establish the 
King County Equity and Social Justice Initiative that brings 
together community leaders to root out discrimination and 
improve access to education, health care, and affordable 
housing.
    And, finally, HUD will most certainly benefit from Ron's 
steadfast commitment to smart community development. When it 
comes to environmental protection, expanding transit, and 
managing growth, Ron has always been ahead of the curve. He has 
worked hard on initiatives to reduce the carbon footprint of 
King County, expand transit service, and has been a tireless 
advocate for smart growth management policies that have helped 
establish synergies across county programs and services.
    Mr. Chairman, Members of this Committee, this is a great 
time of challenges for HUD, but it is also a time of great 
opportunity. Today we have the chance to refocus the agency's 
efforts on meeting the needs of low-income families and to 
renew its commitment to be a lifeline for those in dire 
straits. Innovative ideas, strong leadership, and dedication to 
equality are what HUD needs to move in a new direction, and 
those are all skills that Ron Sims brings to the table.
    So I appreciate this opportunity to participate in this 
hearing, and I look forward to working with this Committee as 
it moves forward on this nomination.
    Chairman Dodd. Senator, thank you very much.
    Maria.

                  STATEMENT OF MARIA CANTWELL
          A U.S. SENATOR FROM THE STATE OF WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
and Members of the Committee for holding this important 
hearing. I am pleased to be here with my colleague Senator 
Murray to help introduce King County Executive Ron Sims. I urge 
my colleagues to swiftly confirm him as the next Deputy 
Secretary of Housing and Urban Development.
    Ron Sims is just the person we need to work on the full 
spectrum of housing issues, from promoting homeownership to 
making sure we have adequate supply of affordable rental 
housing, to addressing the special needs of homeless neighbors.
    I have known Ron Sims for more than 20 years, and I know he 
really knows affordable housing from a hands-on perspective. 
And, more importantly, he knows how to manage effectively when 
resources are tight.
    In his 13 years as King County Executive, Ron has worked to 
reform government, to move past the status quo, to provide for 
our communities, and this is just what HUD needs now. As HUD's 
point person on housing assistance and affordable housing 
programs, he will be responsible for making sure that families 
in most need are well served.
    In 2003, I worked personally with Ron to prevent the 
closure of Branch Villa Health Care Center. The Branch Villa 
Health Care Center, now known as the Leon Sullivan Health Care 
Center, is a nursing home that provides services to King County 
seniors, most of whom are African American. When the property 
faced foreclosure by HUD, we did all that we could at the 
Federal and State level to work with the resources to make sure 
that this transfer of ownership to a nonprofit group was done 
so that the center's doors could remain open.
    This success was more than just protecting a facility. It 
was about protecting our community's seniors and striving to 
provide the best for our communities. This is just the example 
of how Ron Sims operates. He cares about the community and 
works collaboratively to solve problems. He understands HUD, 
and he understands housing issues.
    Ron will also bring his smart business-oriented approach to 
the Department. He will ensure that the limited resources are 
used efficiently to meet the agency's critical mission. As King 
County Executive, he was instrumental in maintaining a balanced 
budget and earning the country's highest available credit 
rating. In 2006, Ron was recognized as the Public Official of 
the Year by Government Magazine, and in 2008, they named him 
one of America's Most Innovative Leaders.
    Now he brings all that energy to HUD at a time when we need 
it most, so I am glad that President Obama has recognized Ron 
Sims' innovative spirit. And I know it is that kind of 
visionary leadership that we need alongside Secretary Donovan 
at this critical agency at this critical point. So I encourage 
my colleagues to support quickly his nomination.
    Thank you.
    Chairman Dodd. Senator Cantwell, thank you very much. I 
thank both of our Senators from Washington.
    Let me turn, if I can, to our visiting colleagues here from 
the other body. The Chairman of the Financial Services 
Committee, Barney, we are delighted to have you here this 
morning, and Congressman Schiff as well. I want to welcome you 
as well.
    Is that on, Barney, your microphone there?
    Representative Frank. No. OK.

                   STATEMENT OF BARNEY FRANK

     A U.S. REPRESENTATIVE FROM THE STATE OF MASSACHUSETTS

    Representative Frank. I really have appreciated the chance 
to work with you, Senator, and I think we have done a lot, and 
we will be able to do a lot more in what has been a very good 
relationship between our two committees.
    I will say I had a very sad moment yesterday. As I was 
leaving my office, I walked past the desk of Peter Kovar, who 
has been my chief of staff, and it was blank. And I learned 
that I was going to have to--I realized I was going to have to 
learn to live without him.
    He is enormously talented. Actually, he comes to this job 
with both substantive knowledge, having worked as my chief of 
staff for over 20 years, having had some experience in the 
Senate. He is fully familiar with the substantive matter that 
comes before this Committee, because members will know your 
chief of staff inevitably becomes fully involved in the work of 
the Committee. And particularly these past few years when I 
became the Ranking Member in 2003, my sole Committee assignment 
has been this Committee. So he knows a great deal about it. We 
do little on the side.
    I will say, Mr. Chairman, that if a question involving 
fishing should come up at HUD, he is an expert on that, because 
I represent New Bedford.
    [Laughter.]
    Representative Frank. But in terms of both the Treasury and 
HUD areas, he is extremely well equipped substantively, and in 
terms of--I know one of the things you are going to have to do 
obviously in the job of being Assistant Secretary for 
Congressional Affairs is to deal with members of Congress with 
all of their quirks and eccentricities and personal 
difficulties. And I should think the fact that he has been my 
chief of staff for 28 years would satisfy any doubts on that 
score, that he would be able to deal with----
    [Laughter.]
    Chairman Dodd. And that is just the House side you are 
talking about.
    Representative Frank. Yes, that is true.
    So I am delighted to have the chance, and I really 
appreciate the President's appointing him. I am delighted also 
to see these other members.
    Let me say that I have also known and worked with Mr. 
Hochberg in a variety of capacities, and I agree with you, we 
could get more out of the Export-Import Bank than we have had, 
and I look forward to working with you to see that that is 
done.
    But I comment the President on a great group of nominees, 
and obviously, we look forward to working with them as they 
take their place. And as I said, in Peter Kovar, if you told 
someone that he had to train for 20 years to be the Assistant 
Secretary of HUD for Congressional Relations, he would have 
done very much what Peter Kovar has done.
    Chairman Dodd. Thank you very much. And, by the way, we 
have a statement from Senator Kennedy regarding, Peter, your 
nomination as well, and I know Senator Kerry, in fact, is going 
to try and get over as well and be heard on your nomination, 
and I know Ms. Kanovsky's as well. We will put those in the 
record as well.
    Thank you very, very much.
    Senator Schumer, we will jump to you because you have a 
hearing to go to. Do you mind waiting a few minutes, 
Congressman Schiff?
    Representative Schiff. No.
    Chairman Dodd. Thank you.

            INTRODUCTION OF NOMINEE FRED P. HOCHBERG
                 BY SENATOR CHARLES E. SCHUMER

    Senator Schumer. Thank you. And first I want to say, before 
I introduce Fred Hochberg, who I am proud to introduce to my 
colleagues, Peter, Barney said it would be OK if we voted you 
down.
    [Laughter.]
    Representative Frank. So much for telling a Senator 
anything in confidence.
    [Laughter.]
    Senator Schumer. I told Barney that he usually gets his way 
with this Committee, but not this time.
    Anyway, it is my honor to introduce Fred Hochberg, a good 
friend of mine and of many of the Committee. Fred is an 
accomplished businessman and public servant, and I am just so 
delighted to support his nomination to head the Export-Import 
Bank. I have known Freddie for many, many years, and he is 
capable, dedicated, has a great business career, but always 
wants to be in public service. He really cares about making 
this country a better place.
    He is a great fit for the position because it is about 
creating and supporting American jobs. That is what the Export-
Import Bank is all about. And he knows how to do it. He spent 
two decades of his career with the Lillian Vernon Corporation. 
This was founded by his mother. She was an immigrant who fled 
Nazi Germany. She founded it with $2,000 wedding gift money. 
Under Fred's leadership, the company was transformed from a 
small mail-order company to a wildly successful, publicly 
traded direct marketing corporation that employs more than 
1,000 people.
    From Lillian Vernon, Fred moved to found and serve as 
President of Heyday. That is an investment firm that manages 
real estate and venture capital. And then he came to Washington 
in 1994. He joined the Clinton administration as Deputy 
Administrator, and then Acting, of the SBA. As we all know, 
small businesses are the engines of growth here in our economy, 
and, again, his business experience, his small business 
governmental experience, as well as being dean of the Milano 
School at the New School gives him an academic background as 
well.
    He has always been involved in the community. He and his 
long-time partner, my friend Tom Healy, who I do not see here 
today--he is not here, Fred?
    Mr. Hochberg. He is in Africa--teaching.
    Senator Schumer. He is in Africa, OK, teaching. They are 
active in numerous philanthropic and civil rights groups, and I 
want to thank them for what they have done to improve the lives 
of so many New Yorkers.
    So it is clear to me that Fred possesses the 
entrepreneurial spirit, the sense of civic duty, and the 
chutzpah necessary----
    [Laughter.]
    Senator Schumer. You are not supposed to laugh. That is 
part of the English language these days.
    [Laughter.]
    Senator Schumer. ----to excel as head of the Export-Import 
Bank.
    So I want to thank you, Mr. Chairman, for the opportunity 
to speak, and I hope the Committee will approve Fred's 
nomination unanimously given his broad, wide, and deep 
credentials. And, Freddie, congratulations on the nomination.
    Chairman Dodd. Senator, thank you very much.
    Let me turn to Representative Schiff for Mr. Trasvina's 
nomination as well. Congressman, welcome.

                  STATEMENT OF ADAM B. SCHIFF
       A U.S. REPRESENTATIVE FROM THE STATE OF CALIFORNIA

    Representative Schiff. Thank you, Mr. Chairman. These are 
wonderful seats, but don't worry, I will not get too 
comfortable.
    Mr. Chairman, Ranking Member Shelby, and other Members of 
the Committee, I would like to introduce you to President 
Obama's nominee for Assistant Secretary of the Office of Fair 
Housing and Equal Opportunity, FHEO, a dedicated public 
servant, an accomplished lawyer, Mr. John Trasvina.
    A proud resident of Pasadena, California, John has spent 
his life fighting for justice, working passionately as an 
advocate for civil rights. He has intimate experience with the 
inner workings of the executive and legislative branches, which 
will serve him well in his new post.
    John worked on the Hill and made his mark in civil rights 
legislation as the General Counsel and Staff Director of the 
Senate Judiciary Subcommittee on the Constitution. His 
experience and expertise caught the eye of many around 
Washington, and in 1997, John was appointed by President 
Clinton and confirmed unanimously to head the Federal 
government's only office devoted solely to immigrant rights. 
There he worked to enforce antidiscrimination provisions of the 
Immigration Reform and Control Act. This experience will be 
particularly helpful at FHEO where he will oversee the 
implementation and enforcement of the Fair Housing Act and 
other civil rights laws.
    After his time in D.C., he made his way to the West Coast 
as President and General Counsel at the Mexican-American Legal 
Defense and Education Fund, or MALDEF. There John gained 
invaluable experience managing a large and diverse organization 
with five offices around the country, working closely with a 
diverse range of organizations, including corporations as well 
as nonprofits.
    I ask that you include a letter of support from the 
Pasadena Police Chief, Bernie Melekian, in the record.
    In Pasadena, John worked closely with the police department 
advising the police chief and the city council on education, 
issues involving the Hispanic community, city service. He is a 
leader in our region not only for the Latino community, but he 
has worked across all communities for the common good and was 
awarded the President's Award by the Pasadena NAACP in 2008.
    I strongly support John Trasvina's appointment as Assistant 
Secretary for the Office of Fair Housing and Equal Opportunity. 
He has the knowledge, experience, and expertise to succeed. He 
has a passion for protecting Americans from discrimination, 
preserving their civil rights, and I am convinced he will 
enforce the Fair Housing Act, the Civil Rights Act of 1964, and 
other measures under his jurisdiction justly, with great 
dedication and heart. His experience in the administration and 
here in Congress as well as his relationship with a diverse set 
of outside organizations prepares him well for the path ahead.
    John, we are tremendously proud of you, and we wish you 
every success, and I urge his favorable consideration.
    Thank you, Mr. Chairman.
    Chairman Dodd. Thank you, Congressman, very much. We 
appreciate your coming over and participating today as well. 
Very grateful to you for doing that.
    Senator Warner, you have got a nominee as well, and we want 
to see if you would like to spend a few minutes----

            INTRODUCTION OF NOMINEE DAVID H. STEVENS
                   BY SENATOR MARK R. WARNER

    Senator Warner. I appreciate that, Mr. Chairman, and let 
me, first of all, welcome the whole panel and say 
congratulations on your nominations and hopefully your speedy 
approvals.
    I am here to introduce a fellow Virginian, David Stevens, 
whom the President has nominated to be Assistant Secretary of 
Housing and FHA Commissioner. I know David is here with his 
wife, Mary, and I think he will present them as well.
    I was happy to hear that when you were up with Secretary 
Donovan in Connecticut that David's reputation has extended to 
the Nutmeg State in terms of people stepping forward. And I 
think that is because David brings a unique set of experiences 
to this new challenge. He has been President and Chief 
Operating Officer of the Long & Foster Companies, a 
multifaceted real estate firm located in Virginia, but it has 
holdings around the region and the country. He has served as 
Vice President at Wells Fargo Home Mortgage Division, where he 
has been obviously involved in issues intimately connected with 
the mortgage challenge. He has been Vice President of Single 
Family Housing at Freddie Mac and had a 16-year tenure at the 
World Savings Bank. He, in addition, brings, I think, as we 
particularly look at the challenges of restarting our housing 
industry at this point and making sure that we truly have a 
fair housing approach, he was a founding executive sponsor of 
the Women's Mortgage Industry Network, and during his tenure at 
Freddie Mac initiated some of the first outreach activities to 
the Latino community.
    So all of this broad background has clearly extended beyond 
the reaches of Virginia in terms of the interest in his 
nomination, and I am particularly anxious to have him come on 
board because, as I am sure you found with Secretary Donovan, 
we have a lot of new initiatives the President has outlined. 
But as homeowners try to get the next level of detail down so 
they can actually take advantage of some of these initiatives, 
we are still seeing some lag time from the Department to get 
these initiatives--the details out so that people can fully 
take advantage of them. And David--I know his speedy 
confirmation will help that process along.
    I would add a couple other quick individual notes. I have 
some trepidation seeing David again here today because, as he 
was considering this, David and Mary and I were having dinner 
one night at an event, and he shared the fact that he was 
considering this, and to leave the private sector where he was 
doing extraordinarily well to come back and take this 
challenge, again, in the public sector, he was weighing that. I 
am glad that you have weighed the decision and made the choice 
as a family to take on this challenge. Again, your services 
will be well needed and well regarded. So I welcome you. I 
welcome the rest of the panel.
    Two other quick items. One is let me add my voice to the 
introductions of at least two of the members who have been 
talked about, Fred Hochberg and Ron Sims. I know the whole 
panel is great, but I have had personal experience with both 
Fred and Ron, and I know they will be excellent additions to 
the President's team.
    And on a personal note--and I will get some grief for this 
later. I think when Adam came in, he brought his daughter. This 
is also ``Bring Your Daughter to Work Day.'' So I have my--she 
is going to cringe behind the chair back here.
    [Laughter.]
    Senator Warner. My youngest daughter, Eliza, who is a 
freshman in high school, attending today. I would only note 
that she was very excited about this opportunity to come 
because she thought she could miss school. She was really 
bummed out when she heard that I was starting with an 8 o'clock 
breakfast with Barney Frank and that we would have to leave 
even earlier than she normally goes to school. And I think you 
will see a lot of other kids and daughters particularly running 
around the Hill today.
    So thank you, Mr. Chairman. David, we welcome you and look 
forward to your confirmation.
    Chairman Dodd. Senator Warner, thank you very, very much.
    I mentioned earlier Senator Kerry wanted to be here. When 
he comes in, we will give him an opportunity, if he can, and 
the schedules are very tight, as I know you are aware on this, 
but certainly his comments on your behalf will be included in 
the record, at the very least. I thank my colleagues for doing 
this.
    I want to turn to my colleague, Senator Shelby, for any 
opening comments he may have, and then I am going to turn to my 
colleagues here for any comments they may have. I will swear in 
our witnesses.
    I want to thank in advance Senator Warner, who is going to 
take over the Chair for the nomination process so I can get to 
the floor. There is a debate going on on some matters that 
affect the jurisdiction of this Committee.
    Senator Warner. I had the opportunity to work with Senator 
Dodd as a young man and he promised great things. I didn't 
think after only 100 days here that I would get to sit in the 
chair, though, so I am----
    [Laughter.]
    Chairman Dodd. I am taking the gavel with me when I leave.
    [Laughter.]
    Chairman Dodd. Having known Mark for a long time, I might 
never get it back.
    [Laughter.]
    Chairman Dodd. Senator Shelby.

             STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. I will be very quick. I am just here to 
support all of you. I think we have got some outstanding 
nominees. The sooner we move these nominees, Mr. Chairman, the 
better. From the Republican side, I think we want to get 
everybody in place and have the administration going full 
blast.
    Chairman Dodd. I thank you very much.
    Jack, do you have any comments?
    Senator Johanns, any comments you would like to make? You 
know what it is like to sit at that table, as well, having been 
a nominee.
    Senator Johanns. I do know what it is like.
    Chairman Dodd. You bring a special appreciation of sitting 
on both sides of this dais.

               STATEMENT OF SENATOR MIKE JOHANNS

    Senator Johanns. I do. I will offer just a thought, because 
I don't think I can stay for the whole hearing, but I don't 
want to prolong this, Mr. Chairman.
    It was about 4 years ago that I sat where you sit. I was 
nominated to be the Secretary of Agriculture, kind of an 
intimidating experience. But I would say this. None of you have 
to be intimidated by this. You are enormously qualified to do 
this job. I can't imagine there will be any problems with your 
confirmation whatsoever, unless something were to pop up. But 
it looks great.
    [Laughter.]
    Chairman Dodd. There is always that ``if,'' that thought.
    Senator Johanns. I would offer a thought, though, because 
like I said, I probably do have to leave the hearing. I would 
just offer a word of advice in terms of taking on your new 
assignments, because I think you can look forward to that. I 
would urge you to work in a very bipartisan way. I quickly 
found out that it was not acceptable for me to go into a Senate 
office or a House office and explain to them that I inherited 
the problem. They wanted me to solve the problem. And if it was 
in their district, they really wanted me to solve the problem. 
They were not interested in excuses or explanations as to why I 
didn't cause the problem.
    The other thing I would say to you is no matter how good 
you are, and you are all enormously gifted and qualified, even 
in what you are doing now, you are going to leave problems 
behind for the next person. It is the nature of life. I am 
guessing, Mr. Sims, in King County, there are still homeless 
people. There is still inadequate housing. But you can't be 
blamed for that. What you can be held responsible for is good 
management and solid determination to get the job done. So I 
really encourage all of you to focus on that.
    Personally, I am anxious to work with all of you. These are 
important issues that you are working on, everything from 
terrorism to housing, my goodness, and everything in between. 
Look at us as a partner and my hope is that we can have a very, 
very solid good working relationship. Godspeed and good luck to 
all of you.
    Chairman Dodd. Thank you very much, Senator.
    Senator Johanns. Thank you, Mr. Chairman.
    Chairman Dodd. Senator Merkley, do you want to make a 
comment on this?

               STATEMENT OF SENATOR JEFF MERKLEY

    Senator Merkley. Thank you very much, Mr. Chair. I wanted 
to come and thank all of you for making this commitment to 
public service. Housing is something that has been very much a 
part of my background as Director of Habitat for Humanity in 
Portland, Oregon, later a developer of affordable housing, 
later an advocate in the legislature for both strong rental 
assistance programs, decent housing, and for home ownership.
    I think that housing is the foundation of the American 
dream. It is often, in terms of home ownership, the foundation 
of families' financial success. There is a lot of work to be 
done and we are under difficult circumstances with the budget 
we face. Far more families will be seeking assistance, needing 
assistance, and we will be in more challenged national fiscal 
circumstances in terms of providing that assistance.
    So certainly my team, my staff team looks forward to 
working with you. I look forward to working with you, and 
Godspeed.
    Chairman Dodd. Senator, thank you very, very much.
    I want to note, by the way, Diane Farrell is in the 
audience and works with the Export-Import Bank and from 
Connecticut and was confirmed by this Committee earlier, so we 
welcome you to the Committee.
    And I want to recognize--there are an awful lot of people 
in the room and I suspect an awful lot of the various staffs 
from HUD, from Ex-Im Bank, and from Treasury, and not all of 
them ever get to sit at this dais and be confirmed for a post 
and get to make a statement. But the people who just do 
everyday work do a remarkable job on behalf of the citizenry of 
this country and never get enough recognition, in my view, for 
the tremendous hours and efforts they make.
    I forget to mention that from time to time, but I thought 
today recognizing that I know a lot of people from the various 
agencies are here in support of these nominees and to offer 
whatever assistance they can, and I am confident I speak for 
every one of us up here, how much we appreciate the work that 
gets done by civil servants in this country throughout our 
government who work hard, long after the regular hours every 
day to make this country function. We need you more than ever, 
obviously, at a time like this. So I want to thank all of you 
who are in the room who don't get to sit at this table and to 
be a nominee and be confirmed, but in a sense, all of us want 
to confirm every day how much we appreciate what you do.
    With that, I am going to ask our witnesses to rise and to 
raise your right hands and to take an oath, if you would, 
please.
    Do you swear or affirm that the testimony that you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Sims. I do.
    Mr. Hochberg. I do.
    Ms. Kanovsky. I do.
    Mr. Stevens. I do.
    Mr. Kovar. I do.
    Mr. Trasvina. I do.
    Mr. Cohen. I do.
    Chairman Dodd. And do you agree to appear and testify 
before any duly constituted committee of the U.S. Senate?
    Mr. Sims. I do.
    Mr. Hochberg. I do.
    Ms. Kanovsky. I do.
    Mr. Stevens. I do.
    Mr. Kovar. I do.
    Mr. Trasvina. I do.
    Mr. Cohen. I do.
    Chairman Dodd. I thank you very much.
    With that, we will begin. Mr. Sims, Ron Sims, we will begin 
in the order that you are at the table here and I am going to 
ask all of you to try and keep your remarks relatively brief, 
if you can. Any supporting data and information you think would 
be helpful for this Committee to have in support of your 
nomination will be certainly--I will accept at this point so 
you don't have to just send it to us.
    There may be a period of a few days after your testimony 
here to respond to some questions from Members who, for 
whatever reason, couldn't be here but would like to raise some 
issues, and I would urge you to respond to those questions as 
quickly as you possibly can so we can move your nominations 
forward. We will leave the record open for that purpose.
    With that, Mr. Sims, we welcome you, and I welcome all of, 
again, the members of the panel.

     STATEMENT OF RONALD SIMS, OF WASHINGTON, TO BE DEPUTY 
     SECRETARY, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Sims. Thank you, Mr. Chairman, Senator Shelby, and 
distinguished Members of the Committee. I am honored and 
humbled on the occasion of President Obama and Secretary 
Donovan to nominate me as Deputy Secretary for Housing and 
Urban Development. I want to thank the Committee for making 
time in your busy schedules to provide this opportunity for us 
to share our thoughts and views regarding housing and urban 
development at this critical time in this country.
    For over 12 years, I have been proud to serve as the 
elected executive of the Nation's 14th largest county, managing 
an annual budget of $5 billion and a workforce of 14,000 
employees, delivering local and regional services to 1.8 
million people. Throughout my career, I have championed 
regional efforts to develop affordable and supporting housing, 
end homelessness, improve blighted neighborhoods, and create 
opportunities for home ownership. But I have also balanced 
those priorities with the need to reduce congestion, improve 
mobility, protect our environment, and address the inequities 
and injustices in our region.
    President Obama and Secretary Donovan and Congress have all 
voiced a clear expectation that HUD can and must now step up to 
the unprecedented levels of leadership in America's national 
recovery.
    Chairman Dodd. Is your microphone on?
    Mr. Sims. The roles facing HUD today include stabilizing 
the housing market, alleviating homelessness, creating healthy 
housing stock and vibrant and sustainable urban and rural 
communities. To do this, HUD must take a collaborative approach 
and work to leverage Federal action with other agencies, 
including Transportation, Treasury, Energy, Health and Human 
Services, as well as the Environmental Protection Agency. This 
interagency leadership will only be possible if HUD as an 
organization is fully functional and focused on meaningful and 
measurable outcomes.
    I am ready for the challenge put before me by President 
Obama and Secretary Donovan to bring transformational change to 
HUD. I believe my management experience in King County and our 
standing as a world class regional government can serve as a 
relevant model for HUD. It has not always been easy, but with 
many large organizations, dramatic reforms in areas like 
information technology and human resources is sorely needed. 
And by creating a cross-disciplinary team orientation and 
providing managers with effective tools and support, we have 
worked together to set King County on the right course.
    More recently, King County has institutionalized a system 
of data-driven management that brings evidence to 
decisionmakers when they need it most. We have published these 
results through an award-winning report that underscores our 
commitment to accountability and to transparency.
    And we have looked beyond the silos of our government 
organization to help us in achieving these results. At King 
County, we have built strategic partnerships similar to the 
national network of partners Secretary Donovan outlined in his 
confirmation testimony. I believe deeply in the power of this 
vision, working with a range of local governments, housing 
authorities, foundations, nonprofits, and private developers 
who would join HUD in implementing its priorities.
    Like our departments in King County, HUD's organization 
must work and it must serve not simply as a pass-fail 
bureaucracy. It must be a creative engine of ideas, actions, 
and tools in which employees, partners, and our customers are 
all empowered to implement a shared vision of the future.
    In sum, we must be ready with a smoothly running 
organization at all levels, from local to Federal leaders, to 
take on the challenges before us. HUD must be accountable, 
transparent, and effective as a major agent of oversight for 
TARP and a primary decisionmaker in how recovery funds will be 
spent. We must ease the foreclosure crisis and lay the 
foundation of home ownership, affordability, and stability. And 
we must chart a course for sustainable communities' visions, 
one in which our urban and rural areas are more vibrant, 
sustainable, and resilient.
    Mr. Chairman, Senator Shelby, and Members of this 
distinguished Committee, thank you again for the opportunity to 
speak to you today. I firmly believe that under Secretary 
Donovan's leadership and with ongoing input from Congress, we 
can transform HUD into a catalyst for economic opportunity and 
ensuring every American a decent, safe, and suitable living 
environment.
    I would also wish to acknowledge, if you will let me, the 
incredible work being done by Senator Murray and Senator 
Cantwell. They are extraordinary public officials. They do 
great work in our community and our State and they are icons. 
But they serve at a national level, as well. So we appreciate 
all they are as Senators.
    I would be remiss if I didn't thank my niece from 
Bellingham, Washington, for being here today, and my brother-
in-law from College Park, Maryland, for being here today. The 
rest of the family is back in Seattle.
    I look forward to being able to serve this Nation. Thank 
you, Mr. Chairman.
    Senator Warner [presiding]. Thank you, Mr. Sims. We look 
forward to your service. You have got quite a record at the 
local level and I know we can bring that to bear here at the 
national level.
    Mr. Hochberg.

STATEMENT OF FRED P. HOCHBERG, OF NEW YORK, TO BE PRESIDENT AND 
                  CHAIRMAN, EXPORT-IMPORT BANK

    Mr. Hochberg. Thank you. I would like to just introduce my 
brother, David Hochberg, a few rows back, and as Senator 
Schumer mentioned, my mother is out of the country, and my 
partner, Tom Healy, is teaching a course in Africa, so I wanted 
to acknowledge them.
    I want to also thank Senator Schumer for his very generous 
introduction and thank you, Senator Warner, and also Barney 
Frank for your comments.
    Chairman Dodd, Senator Shelby, Members of the Committee, I 
am honored to appear before you today to testify regarding my 
nomination to be President and Chairman of the Export-Import 
Bank of the United States. I am grateful to President Obama for 
the trust he has placed in me and I want to thank the Committee 
for the prompt scheduling of this hearing.
    I bring 30 years' experience in business, government, 
international affairs, and education. If confirmed, I will 
immediately begin working on the challenges facing Ex-Im Bank 
in particular, and most importantly the U.S. economy in 
general.
    In preparing for this hearing, I have been able to develop 
an initial understanding of Ex-Im Bank's policies and 
procedures. It is very clear that Ex-Im Bank's mandate is to 
protect and sustain U.S. jobs. The Bank does this by helping 
U.S. exporters meet foreign competition and stepping in when 
commercial financing is not available for otherwise viable 
transactions. The Bank keeps a watchful eye on taxpayer money 
by acting only when it can find a reasonable assurance of 
repayment.
    Mr. Chairman, I do not have to tell any Member of this 
Committee that these are not ordinary times, but Ex-Im Bank is 
at its best in times such as these. Why do I feel this way? Ex-
Im Bank, established 75 years ago by President Roosevelt during 
the Great Depression, has the capacity to step up now as it did 
then. The Bank played an integral role in the implementation of 
the Marshall Plan. It also helped our country meet the Latin 
American and Asian debt crises of the 1980s and 1990s.
    Past is prologue. I believe Ex-Im Bank needs to do more and 
can do more in the months and years ahead. First, total Bank 
business has already shown a significant increase, in the range 
of 20 percent over last year. As Secretary Geithner said 
yesterday, our country's economic recovery depends on reversing 
the steep decline in exports. Moreover, for the first time in 
its history, the Bank has authorized over $1 billion for the 
support of small businesses in the first 6 months of this year.
    Second, I had an opportunity to meet with a number of Ex-Im 
Bank career employees and I have come away impressed, impressed 
with their dedication, with their expertise, and impressed with 
their competence.
    Third, my time as Deputy and Acting Administrator of the 
Small Business Administration, Dean of Milano the New School 
for Management and Urban Policy, as well as my experience as a 
Commissioner on the Port Authority for New York and New Jersey 
has prepared me for this challenge.
    But I am also prepared because of my experience in the 
private sector and my personal life. I come to this position as 
a businessman. I have run a business founded by my mother, who 
came to this country at age ten as a refugee from Nazi Germany. 
That business, Lillian Vernon, grew from our kitchen table into 
a public company with thousands of employees doing business 
around the world. I know firsthand what it takes to make a 
small, family owned enterprise succeed and how difficult that 
can be. And I also know firsthand that our economy relies on 
entrepreneurs for innovation and growth, and I want to help 
them succeed in any way the Bank can.
    If confirmed, I fully commit to actively searching for new 
policy initiatives and solutions to problems in order to move 
the Bank forward, streamlining our services, eliminating 
bottlenecks, and providing top-notch customer service to all 
our constituents, be they American exporters or the banks that 
support them. I will do this by consulting with our 
stakeholders in labor, exporting, and banking, working closely 
with our colleagues in the administration, strengthening our 
support for small businesses and environmentally sound exports, 
and of course keeping in close contact with this Committee and 
the rest of Congress as we navigate through these difficult 
times.
    Ex-Im Bank is the right agency at the right place at the 
right time.
    In closing, I ask for your support for my nomination. Thank 
you. I would be happy to answer your questions.
    Senator Reed. Mr. Chairman?
    Senator Warner. Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Mr. Chairman, I think we have a vote 
impending shortly and I am going to have to depart. But I 
particularly want to welcome all the witnesses, but a special 
hello to Fred Hochberg for his great community service over 
many, many years. Peter Kovar and I had the occasion to work in 
the House. We both worked for Barney Frank, so we both have a 
wonderful wealth of experience to go forward. And I have had 
occasion to individually meet with some of the nominees. This 
is a very distinguished group of individuals and I wish you 
well. You are headed to difficult challenges which you will all 
face. Thank you, Mr. Chairman.
    Senator Warner. Thank you, Senator Reed, and thank you, 
Fred, for your comments. I know we all will have some questions 
for the record. I do think you are taking on a very important 
challenge with an institution that has got a number of 
challenges in front of it, some allegations in that have been 
lodged against it that you will need to address, as well as 
some abilities, particularly on the lending side, to do some 
things in support of small business that we hope you will 
explore.
    I know and I appreciate that this is all of your special 
day and many of you have brought family and others. We are 
going to have a vote about 11:45. That means that I can 
probably stay for about another 10 minutes after that, but 
about 5 minutes of 12, I turn into a pumpkin, as well. So I 
would request, if possible, at least in terms of getting all 
the opening statements out, that if you could try to reduce 
your statements to 2 to 3 minutes apiece, that would be very 
helpful.
    Ms. Kanovsky.

  STATEMENT OF HELEN R. KANOVSKY, OF MARYLAND, TO BE GENERAL 
      COUNSEL, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Ms. Kanovsky. OK, and I will also speak fast. Mr. Chairman 
and distinguished Members of the Committee, thank you for 
considering my nomination and for the opportunity to appear 
before you today.
    With me today is my daughter, Emily Dorfman, and my brother 
and sister-in-law, Martin Kanovsky and Ellen Teller, as well as 
their daughter, my niece, Allison Kanovsky. My daughter, 
Jennifer Dorfman, is an emergency room doctor in Pittsburgh and 
had to be there saving lives today.
    I am honored to have been nominated by President Obama to 
be the General Counsel of the Department of Housing and Urban 
Development. I also want to thank Secretary Donovan for asking 
me to serve as General Counsel to the Department. Secretary 
Donovan is an extraordinary public servant and an extraordinary 
man and I will be thrilled to have the opportunity to advise 
him and his team.
    I am particularly honored to appear before you here in the 
Senate Banking, Housing, and Urban Affairs Committee hearing 
room where my interest in housing began a little more than 35 
years ago. There were a number of interesting hearings 
occurring the summer of 1973. That was the beginning of the 
Watergate hearings. But there were also hearings before this 
Committee. There was no C-SPAN, no CNN, and for good or ill, 
there were no televisions in the Senate offices. If a Senator 
wanted to know what was going on on the floor or in a committee 
hearing and could not be there personally, the Senator sent a 
staffer. I was the most junior member for the Senator 100th in 
seniority and a member at that time of this Committee, Joseph 
Biden of Delaware.
    Chairman Proxmire held a hearing on manufactured housing, 
mobile homes, and I still remember the film the committee 
showed showing people's homes blowing away. I went back to 
Senator Biden's office, and as only a 21-year-old can, told him 
the government needed to do something. Now, 35 years later, 
there is a stronger storm, a financial tsunami that threatens 
not just our housing finance system, but our entire economy. 
Again, the government needs to act, and I hope to be part of 
that government.
    I went from Senator Biden's staff to the Harvard Law 
School, and after a short time in private practice I went to 
HUD as Special Assistant to Secretary Patricia Roberts Harris. 
I then went with her to the Department of Health, Education, 
and Welfare, which became the Department of Health and Human 
Services.
    After a stint in the private practice of law, I went to 
Skyline Financial Services, which was created by the United 
States Bankruptcy Court to do a $1.5 billion workout that was 
the precursor to the savings and loan collapse nationwide. We 
dealt with a $1.5 billion loss and we thought that that was 
significant, and we had only 20,000 properties to dispose of. 
We successfully wound down the inventory of houses and 
concluded the bankruptcy. We positioned ourselves to do 
business with the Resolution Trust Corporation, and at that 
point, GE Capital bought the business and that is exactly what 
we did.
    With that work completed, I left GE Capital and joined the 
AFL-CIO Housing Investment Trust in 1995 as General Counsel. I 
also began a long association with the National Housing 
Conference, of which I currently serve as Chair. In 1998 to 
1999, I was here as Senator John Kerry's Chief of Staff when he 
served on this Committee and as Ranking Minority Member of the 
Housing Subcommittee. I returned to the Housing Investment 
Trust in 1999, where I served in various capacities, where I am 
currently Chief Operating Officer and General Counsel.
    I am proud of my many years at the HIT. The Trust is a 
registered investment company and operates pursuant to the 
rules and regulations of the Securities and Exchange 
Commission. We deploy our $3.4 billion in investment in 
housing. We do not employ leverage and we have never invested 
in subprime single-family loans. Last year, our gross return 
was 5.68 percent, and we are a conservative fund pursuing 
competitive returns for our investors, good union jobs in the 
construction industry, housing and economic development in 
communities across the Nation. Only government service would 
entice me to leave.
    I am a lawyer, a manager, a policy wonk, and a believer 
that now, more than ever, housing is where policy, regulation, 
financial institutions, capital markets, profit and nonprofit 
developers, builders, and workers join to provide not 
necessarily a house, but a home for every American family.
    We celebrate this year the 60th anniversary of the Housing 
Act of 1949. That Act set a goal of, quote, ``a decent home and 
suitable living environment for every American.'' The Senators 
and Representatives who wrote that language meant it. The 
housing crisis, the foreclosure crisis are enormous challenges 
to that goal, but they bring us to a new focus on housing and 
public policy and provide a forum to once more enunciate the 
goal and commit to its achievement.
    It would be an honor and a privilege to serve as General 
Counsel of the Department of Housing and Urban Development. Mr. 
Chairman, I want to thank you and the Committee once again for 
this opportunity to appear before you and I am prepared to 
answer any questions you may have.
    Senator Warner. Thank you, Ms. Kanovsky.
    Mr. Stevens.

  STATEMENT OF DAVID H. STEVENS, OF VIRGINIA, TO BE ASSISTANT 
SECRETARY FOR HOUSING-FEDERAL HOUSING COMMISSIONER, DEPARTMENT 
                OF HOUSING AND URBAN DEVELOPMENT

    Mr. Stevens. Thank you, Senator Warner. Thank you for your 
kind introduction. I am honored to be here today and humbled by 
President Obama and Secretary Donovan's decision to nominate me 
as Assistant Secretary of Housing-FHA Commissioner for the 
Department of Housing and Urban Development, and I also 
appreciate you scheduling this hearing so quickly after the 
recess.
    Before I begin, I just want to quickly introduce my wife, 
Mary, my daughters, Sara, Alison, Maggie, and my son, Taylor, 
who have joined me here today. Take your child to work day.
    For the past 26 years, I have dedicated my career to the 
business of helping support and working in the housing finance 
industry. My career has taken me from working directly with 
home buyers for a savings and loan association in the early 
1980s to managing a nationwide loan operation. I have held an 
executive leadership role in the secondary market as Senior 
Vice President at Freddie Mac, working with virtually every 
financial institution in the mortgage industry, mortgage 
insurance firms, technology providers, Wall Street and industry 
trade organizations. I have managed the wholesale mortgage 
banking business as Executive Vice President for Wells Fargo. 
And I am currently the President of the Nation's largest 
privately held real estate company.
    FHA has become critical to the stabilization and recovery 
of the housing market. The recent surge in loan activity 
clearly highlights FHA's importance as a primary vehicle to 
strengthen housing. But the pressure of this growth has clearly 
stressed the system.
    If confirmed, I will work tirelessly to make sure that we 
protect FHA and enhance its risk management capabilities to 
proactively protect its future viability. Immediately, my top 
three priorities would be as follows. First, we must ensure the 
solvency of the fund and ensure that FHA does not require 
taxpayer assistance. This can be done by balancing FHA's public 
purpose with prudent credit risk management. This starts with a 
thorough review of credit parameters of the FHA program and to 
identify program features that are higher risk and could cause 
adverse impacts to the fund.
    Additionally, lender management must be enhanced to ensure 
accountability for performance. Focusing on lenders with poor 
performance and removing them from the system is job one to 
protect the fund. Finally, system investments must be made in 
order to improve both automated underwriting quality as well as 
data integrity.
    Second, we need to make sure that FHA does everything to 
support the President's programs and the administration's 
programs that have already been enacted.
    Third, we need to restore FHA to a much more respected 
position of leadership in the marketplace. The overall effort 
to modernize the core technology systems must be combined with 
enhancing FHA's best practices, possessing and utilizing fraud 
detection tools that work, finding more effective solutions to 
mitigate losses and market disruptions in the future when 
adverse conditions occur again, and focusing on long-term 
solutions to make FHA a positive force in protecting the future 
of the Nation's housing.
    As a real estate executive, I have witnessed firsthand the 
importance and value of the FHA program. After the private 
label mortgage market collapsed in 2007, I can assure you that 
the Nation's economic problems would be significantly more 
worse today if it had not been--if FHA had not been there to 
fill the void in the Nation's housing system. FHA has fulfilled 
its public purpose by helping hundreds of thousands of families 
finance their homes with lower rates and better terms. The 
challenge now is to balance actuarial soundness and effective 
risk management, and if confirmed, I will be committed to 
ensuring FHA's financial stability going forward.
    Thank you very much for your time.
    Senator Warner. Thank you, Mr. Stevens, and thank you for 
taking the plunge.
    [Laughter.]
    Mr. Kovar.

    STATEMENT OF PETER KOVAR, OF MARYLAND, TO BE ASSISTANT 
  SECRETARY FOR CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS, 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Kovar. Thank you. I appreciate that, and thank Senator 
Dodd and the other Senators on the Committee for giving me the 
chance to testify here. As a Congressional staffer for more 
than 25 years, I have often been in the back or back here and 
it is a different experience and one that I really appreciate 
having a chance to sit at the table instead.
    I do want to just introduce my wife, Paula, sitting behind 
me here, and my daughter, Sarah, and my son, Paul. It is great 
to have them here. And I want to thank Congressman Frank, who 
had to leave, for that nice introduction. I guess Senator Kerry 
and also Kennedy put in written statements. As a Massachusetts 
native, having their expressions of support really is something 
I will appreciate for a long time.
    I do want to say that I hope the Committee will confirm me, 
and if I am confirmed, I anticipate building strong 
relationships not only with Senators on the Committee here, but 
with all their colleagues throughout Congress to advance the 
important housing goals that have been articulated by President 
Obama and also Secretary Donovan.
    As someone who became involved in politics out of a desire 
to assist people who are less well-off or economically 
disadvantaged, it is really a great opportunity to be in line 
for a position at a department which focuses on that set of 
issues. In the short-term, there are three key initiatives that 
the Department is going to be working on, and on all of them, I 
think my role as the Assistant Secretary for Congressional 
Relations will be to ensure that we communicate fully with 
Congress and also that we interpret the information that you 
are providing back on how the administration is doing.
    The first thing, of course, is the response to the 
foreclosure crisis. I think the Members of the Committee are 
aware of the various components of that and in particular the 
efforts to both allow refinancing and also allow those who are 
having trouble paying their mortgages to modify them. But it is 
essential going forward that we provide on an ongoing basis 
information on how that is proceeding, so I will be doing that.
    The second one is the Recovery Act. With over $13 billion 
in key HUD initiatives, like promoting energy efficiency and 
creating green jobs, unlocking the credit markets, and also 
making funding available for shovel-ready projects, it is going 
to be essential for Congress to really be aware of how that is 
proceeding and to be informed when grants are issued, et 
cetera.
    Third, the details of the budget have not yet been 
released, but that is probably going to happen in about 2 
weeks. But the Secretary has announced that key components of 
the budget will include additional steps to help those who wish 
to purchase or refinance homes, promotion of affordable rental 
housing, curtailing mortgage fraud and predatory lending, 
expansion of green development, and increased funding for 
vouchers, and also programs like CDBG, that are so helpful to 
low-income people and low-income areas. HUD is going to on all 
of those have to undertake a major outreach effort to Congress, 
and again, I view that as a central element of my future job.
    The Secretary mentioned in his confirmation hearing that 
Congress often hasn't received the information and data it 
needs to properly evaluate HUD's work, and he indicated that he 
would place a high priority on developing systems in order to 
meet those needs. So this is something that I will be committed 
to, and this goes beyond the three issues that I just 
mentioned. We will be working on ensuring that the Gulf Coast 
States that are still suffering from the effects of the 
hurricane are helped. That will also be something on which we 
will have to provide metrics to ensure that we know how we are 
doing. And that is also true when we are looking at, for 
example, trying to preserve multi-family housing. And, there is 
the urban development component of HUD's mission, too, which 
sometimes isn't mentioned, that we want to make sure we do 
well.
    In Congressman Frank's office, our top priority is serving 
the 600,000 constituents that we represent, and responsiveness 
is what we strive for when we do that. I pledge to continue to 
do that if I am confirmed.
    I noticed that Senator Schumer mentioned that Congressman 
Frank said it would be OK if they didn't approve me, and as a 
loyal staffer, I am not accustomed to disagreeing with my boss 
in public, but maybe in this case I will make an exception.
    [Laughter.]
    Mr. Kovar. So I do hope that the Committee will confirm me 
and everybody else here. Thank you for the opportunity.
    Senator Warner. Thank you, Mr. Kovar.
    Mr. Trasvina.

 STATEMENT OF JOHN D. TRASVINA, OF CALIFORNIA, TO BE ASSISTANT 
              SECRETARY FOR FAIR HOUSING AND EQUAL
    OPPORTUNITY, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Trasvina. Thank you, Senator Warner. It is a high honor 
to be nominated by President Obama to be Assistant Secretary 
for Fair Housing and Equal Opportunity. I am gratified by the 
assistance of this Committee in considering my nomination today 
during Fair Housing Month and for your favorable consideration 
to the full Senate. I am particularly appreciative of 
Congressman Schiff's kind words from Pasadena.
    In America, civil rights begins at home. As Americans, we 
are proud of the progress we have made in civil rights, 
progress made possible by the energies and insights of Members 
of this Committee and your predecessors dating back 41 years to 
the Fair Housing Act of 1968, progress made possible by the 
brave appeals to our true core principles as a Nation of 
fairness, by countless individuals and institutions from the 
South, North, rural, metropolitan, and urban America, from 
coast to coast to coast.
    The vital importance of carrying out the principles of fair 
housing for our communities remains today, and I bring to the 
post of Assistant Secretary a career of civil rights 
leadership, Federal government and institutional management, 
and dedication to bringing communities together.
    The principles of fair housing probably have the greatest 
impact on our Nation's children. If left ignored, the pain and 
shame of a parent whose family is denied an apartment or home 
because of race, national origin, or disability is felt by a 
child for a lifetime. But when fair housing violations are 
effectively addressed, and better yet, discrimination is 
prevented, we can provide a lifetime of recognition and 
understanding of the protection of the Constitution and our 
laws and the responsiveness of civil servants. Moreover, where 
one lives shapes opportunities for an equal education, 
preparation for the workplace, access to transportation, 
culture, and myriad other elements of our daily life.
    So today, as the Obama administration and Congress work 
together to provide stability to home ownership, the Office of 
Fair Housing and Equal Opportunity must play a meaningful role. 
When I was Senator Simon's counsel on the Constitution 
Subcommittee, I was honored to play a staff role in the passage 
of the Fair Housing Act Amendments of 1988 and speak to 
disability organizations about the extension of protections of 
the law.
    As Special Counsel for Immigration-Related Unfair 
Employment Practices at the Department of Justice from 1997 to 
2001, I led the Federal government's only office devoted solely 
to immigrant workplace rights. There, we were successful in 
widespread education to employers and legally authorized 
workers about their rights and responsibilities under the 
immigration and employment laws. I am proud of the 
accomplishments of the career attorneys and legal staff in 
obtaining bank paper discrimination victims, fining employers 
to remedy violations, and ensuring that the office was 
responsive to all stakeholders.
    I would apply these same principles to the Office of Fair 
Housing and Equal Opportunity to ensure that our partners, 
whether they are the Department of Justice, outstanding local 
civil rights agencies, among public interest fair housing 
advocates, interest associations, or organizations in the 
housing and lending industries can carry out their work in 
furtherance of the Fair Housing Act.
    We have many weapons available to us to eradicate housing 
bias from our society. All must be used in a coordinated 
fashion to be effective.
    I am grateful to the President for nominating me, giving me 
the opportunity to serve the Nation in this capacity. 
Similarly, I am highly appreciative of your consideration and 
consent to my nomination. Thank you.
    Senator Warner. Thank you, Mr. Trasvina.
    Mr. Cohen.

   STATEMENT OF DAVID S. COHEN, OF MARYLAND, TO BE ASSISTANT 
 SECRETARY FOR TERRORIST FINANCING, DEPARTMENT OF THE TREASURY

    Mr. Cohen. Thank you, Senator Warner. I will be very brief.
    Chairman Dodd, Ranking Member Shelby, and distinguished 
Members of the Committee, thank you for the opportunity to 
testify here today. It is truly an honor to be the nominee to 
serve as Assistant Secretary of the Treasury for Terrorist 
Financing. I want to thank President Obama for the confidence 
he has shown in me by nominating me, and Secretary Geithner for 
recommending me, to serve in this position.
    I would like first to introduce my wonderful wife, Suzy, 
and our two outstanding sons, Sam and Zeke, who are here today. 
I am also very happy that my parents, Jordan and Carole Cohen, 
are here today. I know that this occasion fills them all with 
pride.
    As I sit before this Committee, I am keenly aware of the 
very significant responsibilities assigned to the Assistant 
Secretary for Terrorist Financing. As set out in the statute 
creating the position, the Assistant Secretary, working under 
the direction of the Under Secretary for Terrorism and 
Financial Intelligence, is, ``responsible for formulating and 
coordinating the counterterrorist financing and antimoney 
laundering efforts of the Department of the Treasury.'' These 
efforts are critically important in maintaining the integrity 
of our financial system, combatting illicit finance at home and 
abroad, and advancing the foreign policy and national security 
objectives of our great Nation.
    The variety and intensity of the challenges in this arena 
are, of course, ever-changing, and if confirmed, I very much 
look forward to working on these challenges with the 
outstanding professionals who make up the Office of Terrorist 
Financing and Financial Crimes at the Department of the 
Treasury. I also intend to work closely with you, Mr. Chairman, 
the other Members of this Committee, and your staff to pursue 
our shared objective of protecting our national security and 
the integrity of our financial system.
    Mr. Chairman, I would ask that my entire statement be 
entered into the record of this hearing. I would be happy to 
answer any questions that you may have.
    Senator Warner. Thank you, Mr. Cohen.
    Let me thank all of the witnesses here and make clear what 
Mr. Cohen said, that all of your full statements will be 
submitted for the record.
    Let me also add that a number of us have questions that we 
will submit, as well, and we will have to get those answers 
back before your confirmation process is completed.
    I would simply come back to Mr. Hochberg, and Chairman Dodd 
had asked me to raise this, and I share his concerns, that 
there have been recent concerns about an Inspector General 
report about Export-Import Bank having upwards of between $100 
and $300 million of fraud over the last few years. We will look 
very carefully at your comments on that subject.
    Let me also--and I apologize, the vote is now going--the 
fact that the other Members are not here is not a reflection of 
anything other than the scheduling constraints of the Senate.
    Let me thank you all in advance for your service, and let 
me also thank the family members who are here. I know this was 
your dad's or wife's or husband's big day, and we thank you for 
your service, as well. As somebody who has been in public 
service for some time, it is truly a family affair. Our country 
will be better served by your participation and we look forward 
to your speedy and rapid confirmation.
    With that, I say the Committee stands adjourned. Thank you.
    [Whereupon, at 11:53 a.m., the hearing was adjourned.]
    [Prepared statements, response to written questions, and 
additional material supplied for the record follow:]

                   PREPARED STATEMENT OF RONALD SIMS
                        To Be Deputy Secretary,
              Department of Housing and Urban Development
                             April 23, 2009
    Thank you Mr. Chairman, Senator Shelby, and distinguished Members 
of the Committee.
    I am honored and humbled by the decision of President Obama and 
Secretary Donovan to nominate me as Deputy Secretary of Housing and 
Urban Development. I want to thank the Committee for making time in 
your busy schedules to provide this opportunity for us to share our 
thoughts and views regarding housing and urban development at this 
critical time in our country.
    For over 12 years, I have been proud to serve as the elected 
Executive of the Nation's 14th largest county, managing an annual 
budget of $5 billion and a workforce of 14,000 employees, delivering 
local and regional services to 1.8 million people.
    Throughout my career, I have championed regional efforts to develop 
affordable and supportive housing, end homelessness, improve blighted 
neighborhoods and create opportunities for home ownership. But I've 
also balanced those priorities with the need to reduce congestion, 
improve mobility, protect our environment, and address inequities and 
injustices in our region.
    President Obama, Secretary Donovan, and Congress have all voiced a 
clear expectation that HUD can and must now step up to unprecedented 
levels of leadership in America's national recovery.
    The roles facing HUD today include stabilizing the housing market, 
alleviating homelessness, creating healthy housing stock and vibrant 
and sustainable urban and rural communities. To do this, HUD must take 
a collaborative approach and work to leverage Federal action in other 
agencies including Transportation, Treasury, Energy, and Health and 
Human Services as well as the Environmental Protection Agency.
    This interagency leadership will only be possible if HUD as an 
organization is fully functional and focused on meaningful and 
measurable outcomes.
    I am ready for the challenge put before me by President Obama and 
Secretary Donovan to bring transformational change to HUD. I believe 
that my management experience in King County, and our standing as a 
world-class regional government can serve as a relevant model for HUD.
    It has not always been easy, but with many large organizations 
dramatic reform in areas like information technology and human 
resources, is sorely needed. And by creating a cross-disciplinary team 
orientation, and providing managers with effective tools and support, 
we have worked together to set King County on the right course.
    More recently, King County has institutionalized a system of data-
driven management that brings evidence to decision makers when they 
need it most. We have published these results through an award-winning 
report that underscores our commitment to accountability and 
transparency.
    And, we have looked beyond the silos of our government organization 
to help us in achieving results. At King County, we have built 
strategic partnerships, similar to the ``national network of partners'' 
Secretary Donovan outlined in his confirmation testimony. I believe 
deeply in the power of this vision--working with a range of local 
governments, housing authorities, foundations, nonprofits, and private 
developers, who will join HUD in implementing its priorities.
    Like our departments in King County, HUD's organization must work--
and it must serve not simply as a pass-fail bureaucracy. It must be a 
creative engine of ideas, actions, and tools--in which employees, 
partners, and our customers are all empowered to implement a shared 
vision of the future.
    In sum, we must be ready with a smoothly running organization at 
all levels--from local to Federal leaders--to take on the challenges 
that are before us. HUD must be accountable, transparent, and effective 
as a major agent of oversight for TARP, and a primary decision maker in 
how Recovery Act funds will be spent. We must ease the foreclosure 
crisis and lay the foundation for homeownership affordability and 
stability. And we must chart a course for a new Sustainable Communities 
vision--one in which our urban and rural areas are more vibrant, 
sustainable, and resilient.
    Mr. Chairman, Senator Shelby, and Members of the Committee, thank 
you again for the opportunity to speak with you today. I firmly believe 
that under Secretary Donovan's leadership, and with ongoing input from 
Congress, we can transform HUD into a catalyst for economic opportunity 
and ensuring every American a decent, safe, and suitable living 
environment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                 PREPARED STATEMENT OF FRED P. HOCHBERG
                     To Be President and Chairman,
                           Export-Import Bank
                             April 23, 2009
    Chairman Dodd, Senator Shelby, Members of the Committee: I am 
honored to appear before you today to testify regarding my nomination 
to be President and Chairman of the Export-Import Bank of the United 
States. I am grateful to President Obama for the trust he has placed in 
me, and I want to thank the Committee for its prompt scheduling of this 
hearing. If confirmed, I will bring my 30 years of experience in the 
private sector, government, international affairs, and education to 
immediately begin working on the challenges facing Ex-Im Bank in 
particular and the U.S. economy in general.
    In preparing for this hearing, I have been able to develop an 
initial understanding of Ex-Im Bank policies and procedures. It is very 
clear Ex-Im Bank's mandate is to protect and sustain U.S. jobs. The 
Bank does this by meeting foreign competition from other export credit 
agencies, and stepping in when commercial financing is not available 
for otherwise viable transactions. The Bank keeps a watchful eye on 
taxpayer money by acting where it can find a ``reasonable assurance of 
repayment.''
    Mr. Chairman, I do not have to tell any Member of this Committee 
that these are not ordinary times. But the history of the Bank has 
shown that it is frequently at its best in times such as these. It was 
established 75 years ago by Franklin Roosevelt during the Great 
Depression. It played an integral role in the implementation of the 
Marshall Plan. It helped our country to meet the Latin American and 
Asian debt crises of the 1980s and 1990s.
    The past is prologue. I believe Ex-Im Bank can do even more in the 
months and years ahead. First, total Bank business is showing a 
significant increase, in the range of twenty per cent. As Secretary 
Geithner said yesterday, our country's economic recovery depends on 
reversing the decline in exports. Moreover, for the first time in its 
history the Bank has authorized over $1 billion for the support of 
small businesses in the first 6 months of the fiscal year.
    Second, I have had the opportunity to meet with several Ex-Im Bank 
career staff, and I have come away impressed with their dedication, 
expertise, and competence. Third, with my background, including Deputy 
and Acting Administrator of the Small Business Administration, Dean of 
Milano the New School for Management and Urban Policy, as well as 
experience as a Commissioner on the Port Authority of New York and New 
Jersey, I am prepared for this challenge.
    But I am also prepared because of my experience in the private 
sector and my personal life. I come to this position as a businessman. 
I have run a business founded by my mother, who came to this country at 
age 10 as a refugee from Nazi Germany. That business, Lillian Vernon, 
grew from our kitchen table into a public company, doing business 
around the world. I know first-hand what it takes to make a small, 
family owned enterprise succeed, and how difficult that can be. But I 
also know first hand that our economy relies on entrepreneurs for 
innovation and growth, and I want to provide them with all the tools of 
success Ex-Im Bank has to offer.
    If confirmed, I fully commit to:

  <bullet>  Actively search for new policy initiatives and solutions to 
        problems, in order to move the Bank forward;

  <bullet>  Streamling our services and eliminating bottlenecks; and

  <bullet>  Providing top-notch customer service to all our 
        constituents, be they American exporters or the banks that 
        support them.

    I will do this by:

  <bullet>  Consulting with our constituents in exporting, banking, and 
        labor;

  <bullet>  Working closely with our colleagues in the administration,

  <bullet>  Strengthening our support for small businesses and 
        environmentally sound exports; and of course

  <bullet>  Keeping in close contact with this Committee and the rest 
        of Congress as we navigate through these troubled times.

    Ex-Im Bank is the right agency in the right place for these times.
    In closing, I ask for your support for my nomination. Thank you. I 
will be happy to answer your questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                PREPARED STATEMENT OF HELEN R. KANOVSKY
                         To Be General Counsel,
              Department of Housing and Urban Development
                             April 23, 2009
    Mr. Chairman and distinguished Members of the Committee, thank you 
for considering my nomination and for the opportunity to appear before 
you today.
    I am honored to have been nominated by President Obama to be the 
General Counsel of The Department of Housing and Urban Development. I 
also want to thank Secretary Shaun Donovan for asking me to serve as 
General Counsel to the Department of Housing and Urban Development. 
Secretary Donovan is an extraordinary public servant and an 
extraordinary man. I would be thrilled to have the opportunity to 
advise him and his team.
    I am particularly honored to appear before you here in the Senate 
Banking and Housing Committee Hearing Room where my interest in Housing 
began a little more than 35 years ago. There were a number of 
interesting Hearings occurring the summer of 1973. There was no C-Span, 
no CNN, and, for good or ill, there were no televisions in the Senate 
offices. If a Senator wanted to know what was going on on the floor or 
at a Committee Hearing and could not be there personally, the Senator 
sent a staffer. I was the most junior staff member for the Senator 
100th in Seniority and a Member of this Committee, Joseph Biden of 
Delaware. Chairman Proxmire held a Hearing on manufactured housing--
mobile homes--and I still remember the film the Committee viewed 
showing people's homes blowing away in a storm. I went back to the 
Dirksen Building and told Senator Biden that the government needed to 
do something.
    Now 35 years later there is a stronger storm, a financial tsunami 
that threatens not just our housing finance system but our entire 
economy. Again the government needs to act. I hope to be a part of that 
government.
    I went from Senator Biden's staff to the Harvard Law School and 
after a short time in private practice I went to HUD as a special 
assistant to Secretary Patricia Roberts Harris and then I went with her 
to the Department of Health, Education and Welfare, which became the 
Department of Health and Human Services. After a stint in the private 
practice of law, in 1986 I went to work for Skyline Financial Services 
Corp, which was created by the U.S. Bankruptcy Court in Alexandria, 
Virginia, to workout the EPIC bankruptcy, part of the Maryland Savings 
and Loan collapse and a precursor to the Savings and Loan collapse 
nationwide. We were dealing with $1.5 billion in defaulted loans and 
20,000 properties nationwide. And we thought we had a big problem!
    We successfully wound down the inventory of homes and concluded the 
workout. In doing so we created an asset management company superbly 
situated to purchase and manage properties from the Resolution Trust 
Corporation. In 1990, GE Capital bought Skyline and created just such a 
company, of which I was the General Counsel. With much of that work 
completed, I left GE Capital Asset Management and joined the AFL-CIO 
Housing Investment Trust in 1995, as General Counsel there. I also 
began a long association with the National Housing Conference, of which 
I am currently honored to serve as Chair.
    In 1998-99 I was here as Senator John Kerry's Chief of Staff when 
he served on this Committee and as Ranking Minority Member of the 
Housing Subcommittee. I returned to the HIT in 1999 where I served in 
various capacities, currently Chief Operating Officer and General 
Counsel. I am proud of my many years at the HIT. The Trust is a 
registered investment company and operates pursuant to the rules and 
regulations of the Securities and Exchange Commission. We deploy our 
$3.4 billion in investments in housing. We do not employ leverage and 
we have never invested in subprime single family loans. Last year our 
gross return was 5.68 percent; 5.25 net to our investors. We are a 
conservative fund pursuing competitive returns for our investors, good 
union jobs in the construction industry, and economic development in 
communities across the Nation. Only government service would entice me 
to leave.
    I am a lawyer, a manager, a policy wonk, and a believer that more 
now than ever housing is where policy, regulation, financial 
institutions, capital markets, profit and nonprofit developers, 
builders, and workers join to provide not necessarily a house, but home 
for every American family. We celebrate this year the 60th Anniversary 
of the Housing Act of 1949. That Act set the goal of ``A decent home 
and a suitable living environment for every American Family.''
    The Senators and Representatives who wrote that language meant it. 
The housing crisis, the foreclosure crisis are enormous challenges to 
that goal, but they bring us to a new focus on housing and public 
policy and provide a forum to once more enunciate the goal and commit 
to its achievement. It would be an honor and a privilege to serve as 
General Counsel of the Department of Housing and Urban Development.
    Mr. Chairman, I want to thank you and the Committee once again for 
this opportunity to appear before you and I am prepared to answer any 
questions you may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                 PREPARED STATEMENT OF DAVID H. STEVENS
  To Be Assistant Secretary for Housing-Federal Housing Commissioner,
              Department of Housing and Urban Development
                             April 23, 2009
    I am honored to be here today and humbled by President Obama and 
Secretary Donovan's decision to nominate me as Assistant Secretary of 
Housing-FHA commissioner for the Department of Housing and Urban 
Development. This agency plays a critical role as it partners with so 
many in the Nation right now to overcome one of the greatest economic 
crises that we have faced in decades. I would also like to thank this 
Committee for scheduling this hearing so quickly after the recess as I 
am sure you all have extremely busy schedules and I appreciate the time 
you are committing to meet with me and share your thoughts and views 
regarding housing issues and particularly those facing FHA.
    Before I begin, please let me take a moment to introduce my wife of 
almost 25 years, Mary, my daughters Sara, a recent graduate from 
Virginia Tech, Alison, a 2nd year student at the University of 
Virginia, and Maggie, a freshman at Oakton High School, and my son 
Taylor, a senior at Oakton High School and a future freshman at the 
University of Colorado.
    For the past 26 years, I have dedicated my career to the business 
of helping support and working in the housing finance industry. My 
career has taken me from working directly with homebuyers for a savings 
and loan association during the early 1980s, to managing a nationwide 
loan operation. I have held an executive leadership role in the 
secondary market, as Senior Vice President at Freddie Mac, working with 
virtually every financial institution in the mortgage industry; 
mortgage insurance firms, technology providers, Wall Street and other 
third party providers, and industry trade organizations. Finally I have 
managed the wholesale mortgage banking business for one of the Nation's 
largest banks and am currently the President of the Nation's largest 
privately held real estate company.
    In virtually every position, I have gained critical knowledge of 
this housing industry and through these positions I have gained the 
most thorough and intimate understanding of the housing finance system 
from the point of sale through the ultimate distribution in the capital 
markets. If confirmed by this body, I would look forward to applying 
this experience and knowledge to help ensure that FHA addresses the 
critical issues facing it today and help work with you and others to 
build a long term framework that will protect the future of the housing 
finance market.
    While FHA's role has always been an important one, FHA has now 
become absolutely critical to the stabilization and recovery of the 
housing market. Today FHA accounts for almost a third of all mortgages 
created in this country, up from representing only 3 percent of the 
lending market at the end of 2006. This enormous surge in loan activity 
clearly highlights FHA's importance as a primary vehicle to restore 
stability to the housing market. At the same time, this pace of growth 
over such a short period of time has created pressure on FHA's 
operational environment, which is in need of both system enhancements 
and process changes to protect the quality of the program for the long 
term.
    FHA has not been immune to the adverse conditions of this market. 
Default rates and foreclosures exceed prior estimates. Unlike subprime 
mortgages, however, where these loans were built on unsafe features 
with high-risk credit characteristics, FHA losses are more the result 
of economic factors such as job loss. And while I would not expect 
losses like those in the subprime market, the impacts of loans 
originated in 2007 and 2008 with high loan-to-value ratios, combined 
with seller funded down payment assistance programs and, in some cases 
questionable lender behaviors, could cause some stress on the program 
in the months going forward.
    If confirmed, I will work tirelessly to make sure that we take this 
great program and enhance its risk management capabilities and 
proactively protect its future viability. Immediately, my top three 
priorities would be as follows:
    First, we must ensure the solvency of the fund and ensure that FHA 
does not require any taxpayer assistance. This can be done by balancing 
FHA's public purpose with prudent credit risk management. The effort 
here needs to start with a thorough review of the credit parameters of 
the FHA program and to identify characteristics of the program that are 
higher risk and could cause adverse impacts to the fund. Tightening 
guidelines on higher risk products would be the primary output of this 
effort. Additionally lender management must be enhanced to insure 
accountability for performance. Focusing on lenders with poor 
performance and removing them from the system is job one to protect 
newly insured business. Finally, system investments must be made to 
improve both automated underwriting quality as well as data integrity 
in order to manage incoming loan quality as well as existing insured 
business.
    Second, we will ensure HUD's Housing programs adequately support 
the implementation of the President's housing priorities--specifically, 
the Homeowner Affordability and Stability Plan and an updated Hope for 
Homeowners program.
    And, third, we need to restore FHA to a more respected position of 
leadership in the marketplace. The overall effort to modernize the core 
technology systems must be combined with enhancing FHA's best 
practices, possessing and utilizing fraud detection tools that work, 
finding more effective solutions to mitigate losses and market 
disruptions in future periods of adverse economic conditions, and 
focusing on longer term solutions like energy efficient mortgage 
products that will make FHA a proactive positive force in protecting 
the future strength of the Nation's housing system.
    FHA is creating a strong leadership team. Carol Galante, as Deputy 
Assistant Secretary for Multifamily Housing, brings enormous experience 
and leadership in her field. The ability to have stronger leadership at 
all levels of FHA, with practical business knowledge, will be of 
significant value to all as we face the current challenges and look to 
the future.
    As a real estate executive, I have witnessed firsthand, the 
importance and value of the FHA program. After the private label 
mortgage market collapsed in 2007, I can assure you that the Nation's 
economic problems would be even worse today if FHA had not been there 
to fill the void in our Nation's housing system. FHA has fulfilled its 
public purpose by helping hundreds of thousands of families either 
purchase a home or refinance their existing mortgage with lower 
interest rates and better terms for the homeowners. The challenge now 
is to ensure that this value is balanced with actuarial soundness and 
effective risk management. If confirmed, I will be committed to 
ensuring FHA's financial stability going forward. Thank you again for 
your time and interest today. I appreciate the opportunity to be here 
and, if I am honored with your confirmation, I look forward to working 
with you in the future.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   PREPARED STATEMENT OF PETER KOVAR
   To Be Assistant Secretary for Congressional and Intergovernmental 
                                Affairs,
              Department of Housing and Urban Development
                             April 23, 2009
    I would like to thank Chairman Dodd, Ranking Member Shelby, and the 
other Members of the Committee for giving me this opportunity to 
testify. As a Congressional staffer for over 25 years, I have often sat 
in the audience or behind the lawmakers in hearings, and it is an honor 
to sit today for the first time at the witness table.
    It is also an honor to be nominated by President Obama for the 
position of HUD Assistant Secretary for Congressional and 
Intergovernmental Relations. There are many people who have contributed 
to my being here, including numerous colleagues and friends who have 
offered encouragement. But, the most important has been my family, and 
I would like to acknowledge their presence here today and express my 
appreciation for their constant support: my wife Paula, my daughter 
Sarah, and my son Paul.
    I am grateful for those warm expressions of support from Senator 
Kerry and Congressman Frank. They are two members of Congress for whom 
I have great admiration, and it is a genuine professional and personal 
pleasure for me to be the beneficiary of their generous remarks. I am 
proud to have served on Senator Kerry's staff when he was first 
elected, and I have of course had the privilege of working in 
Congressman Frank's office for more than 25 years. If confirmed, I hope 
to match the example they have set for commitment to responsive 
government, public service and respect for Congress. And, as a 
Massachusetts native, having that thoughtful endorsement of my 
nomination by Senator Kennedy--a true hero in both my home State and in 
Washington--is something I will always treasure.
    If I am confirmed, I anticipate building strong relationships not 
only with Senators on this Committee, but with their colleagues 
throughout Congress, to advance the important housing goals that have 
been articulated by President Obama and Secretary Donovan. As someone 
who became involved in government largely out of a desire to provide 
help to those who are economically disadvantaged, I am pleased to be in 
line for a senior position in an agency with a primary mission along 
those lines.
    In the short term, the three key issue areas on which HUD will be 
focused are responding to the foreclosure crisis, implementation of the 
Recovery Act, and the 2010 budget. If confirmed, I will ensure that the 
sharing of information with Congress about all three initiatives on an 
ongoing basis is a top priority.
    As the Committee is aware, the Administration's response to the 
foreclosure problem includes working to reduce interest rates, helping 
4-5 million homeowners who can't take advantage of the current low 
rates to refinance, and providing funding to assist another 3-4 million 
homeowners in modifying their mortgages to avoid foreclosure. These 
efforts are still in their early stages, and it will be essential to 
provide periodic reports to Congress, as recommended by Senator Dodd 
during Secretary Donovan's confirmation hearing, so Congress will have 
a clear idea of the program's effectiveness.
    With the Recovery Act devoting over $13 billion to key HUD 
initiatives such as promoting energy efficiency and creating green 
jobs; unlocking the credit markets; making funding available for 
shovel-ready projects; and mitigating the effects of the economic 
crisis, it is crucial that Congress receives timely notification as 
grants under the various programs are made. More broadly, it will be 
vital to make sure that there is ready access to information about how 
the funds are being expended.
    While the details of the budget have not been released, the 
Secretary has announced that key components will include additional 
steps to help those who wish to purchase or refinance homes; promotion 
of affordable rental housing; curtailing mortgage fraud and predatory 
lending; expansion of green development; and increased funding for 
vouchers and programs like community development block grants that 
assist low income families and areas. HUD will undertake a major 
outreach effort to inform Congress about all of these programs when the 
budget is formally released.
    On all of these efforts, the watch words will be transparency and 
accountability. The Secretary mentioned in his confirmation hearing 
that Congress often hasn't received the information and data it needs 
to properly evaluate HUD's work, and he indicated that he would place a 
high priority on developing systems aimed at meeting those needs. If 
confirmed, I will play an important part in disseminating that 
information to Congress. And, I expect this commitment to information 
sharing to go beyond the three initiatives mentioned above. So, as we 
work on addressing the continuing needs of the Gulf Coast States 
affected by damaging hurricanes, preserving federally supporting multi-
family housing, or creating innovative programs in the ``Urban 
Development'' component of HUD's mission, I look forward to making sure 
Congress is as well informed as possible about the department's 
activities.
    In Congressman Frank's office, our top priority is serving the 
660,000 constituents we represent. As Chief of Staff, a central element 
of my job is making sure that the staff maintains a commitment to 
responsiveness in everything we do. If confirmed, I will be committed 
to ensuring that my staff and I are as responsive and accessible as 
possible to the Members of this Committee and to the full Senate and 
House.
    Our emphasis on communication with Congress will include not only 
sufficient advance notice of key initiatives, but thoughtful answers to 
Congressional correspondence, and of course appropriate notification of 
grants and local announcements. A key element of these efforts will be 
coordinating with HUD field offices to ensure that Congressional 
inquiries are appropriately handled. In addition, I plan to institute a 
program of ``listening sessions'' in which senior HUD staff would be 
available periodically for open, nonagenda meetings with key Hill staff 
and, if they wish, Senators and Representatives.
    President Obama and Secretary Donovan have outlined an ambitious 
agenda for HUD. While Congress and the Administration will not always 
agree, there are many policies on which effective collaboration is 
possible. And, I expect a hallmark of my office to be fairness toward 
all Senators and Representatives, regardless of party, and a 
determination to seek bipartisan solutions when possible.
    In closing I wanted to take a moment to touch on the key role 
played by my parents. As career public servants involved in nonprofit 
social service agencies, State government, and numerous local groups 
and causes, they instilled in me the value of community service, and I 
have followed their lead for much of my life. For the last quarter 
century Congress has, in a sense, been my community. As I move toward 
another community in the Obama Administration, I am confident that my 
enduring connection to the Hill will help me to be successful in my new 
position, and I am hopeful the Committee will support my nomination.
    Thank you again, Mr. Chairman, for the opportunity to testify. I 
would be pleased to answer any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                 PREPARED STATEMENT OF JOHN D. TRASVINA
   To Be Assistant Secretary for Fair Housing and Equal Opportunity,
              Department of Housing and Urban Development
                             April 23, 2009
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to come before you today with my prospective colleagues 
seeking to serve the Nation at the United States Department of Housing 
and Urban Development. It is a high honor to be nominated by President 
Obama to be Assistant Secretary of Fair Housing and Equal Opportunity 
and I am gratified by the assistance of this Committee in considering 
my nomination today during Fair Housing month and for your favorable 
recommendation to the full Senate.
    In America, civil rights begin at home. As Americans, we are proud 
of the progress we have made in civil rights--progress made possible by 
the energies and insights of Members of this Committee and your 
predecessors dating back 41 years ago to 1968 and the enactment of the 
Fair Housing Act and prior to that time. And progress made possible by 
the brave appeals to our true core principles as a Nation of fairness 
by countless individuals and institutions in communities from South to 
North, urban, metropolitan and rural from coast to coast to coast. The 
vital importance of carrying out the principles of fair housing for our 
communities remains today and I bring to the post of Assistant 
Secretary a career of civil rights leadership, Federal government and 
institutional management, and dedication to bring communities together.
    The principles of fair housing probably have the greatest impact on 
our Nation's children. If left ignored, the pain and shame of a parent 
whose family is denied an apartment or home because of race or national 
origin is felt by a child for a lifetime. But when fair housing is 
effectively addressed and, better yet, discrimination is prevented, we 
can provide a lifetime of recognition and understanding of the 
protection of the Constitution and our laws and the responsiveness of 
civil servants. Moreover, where one lives shapes opportunities for an 
equal education, preparation for the workplace, and access to 
transportation, culture, and myriad other elements of our daily life. 
Today, as the Obama Administration and Congress work together to 
provide stability to homeownership, the Office of Fair Housing and 
Equal Opportunity plays a meaningful role.
    From my own experience in San Francisco, I learned from an early 
age about the ugly denials of a home to accomplished African American 
men who could pay their way but were denied simply because of racism 
and the color of their skin. My mother would point out the house on 
Cedro Way that belonged to Cecil Poole, our United States Attorney, 
where burned crosses were found to intimidate his family. And a little 
farther away on Miraloma Way, it took our Republican Mayor George 
Christopher to intervene with a homeowner who refused to sell his home 
to San Francisco Giants star Willie Mays because he was black. These 
overt acts of discrimination have subsided and today our community has 
moved from almost all white to almost all black to heavily Chinese, 
Vietnamese, and immigrant.
    When I worked for the late Senator Paul Simon as his counsel at the 
Senate Judiciary Committee's Subcommittee on the Constitution, I was 
honored to play a staff role in the passage of the Fair Housing Act 
amendments of 1988 and speak to disability organizations about the 
application and extension of the law's important protections. As 
Special Counsel for Immigration Related Unfair Employment Practices at 
the U.S. Department of Justice from 1997 to 2001, I led the Federal 
government's only office devoted solely to immigrant workplace rights. 
There, we were successful in widespread education to employers and 
legally authorized workers about their rights and responsibilities 
under the immigration and employment laws. I am proud of the 
accomplishments of the career attorneys and legal staff in obtaining 
back pay for discrimination victims, fining employers to remedy 
violations, and ensuring that the Office was responsive to all 
stakeholders. Our work knew no party. During the 3 years I served as 
Special Counsel in a Democratic Administration, we built the foundation 
for strong performance that carried over into a Republican 
Administration in which we brought the largest lawsuit ever under our 
enforcement statute.
    I would apply these principles to the Office of Fair Housing and 
Equal Opportunity to ensure that our partners, whether they are at the 
Department of Justice, at State and local civil rights agencies, among 
public interest fair housing advocates, industry associations, or 
organizations in the housing and lending industries, can carry out 
their work in furtherance of the Fair Housing Act. In addition, I offer 
my commitment of cooperation and communication on your ideas and the 
Administration's on further steps to advance fair housing and equal 
opportunity.
    We have many weapons available to us to eradicate housing bias from 
our society. All must be used in a coordinated fashion to be effective. 
The mission goes beyond access to an apartment or house to the lending 
decisions and the ability to remain in one's home. If confirmed, I will 
work vigorously to guard against scams that prey upon people's race or 
ethnicity to thwart their well-laid plans for homeownership or block 
access to assistance for the same reasons.
    Again, I am grateful to President Obama for nominating me to be 
Assistant Secretary for Fair Housing and Equal Opportunity and giving 
me the opportunity to serve the Nation in this capacity. Similarly, I 
am highly appreciative of your consideration and consent to my 
nomination.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                  PREPARED STATEMENT OF DAVID S. COHEN
           To Be Assistant Secretary for Terrorist Financing,
                       Department of the Treasury
                             April 23, 2009
    Chairman Dodd, Ranking Member Shelby, and distinguished Members of 
this Committee: Thank you for the opportunity to appear before you 
today. It is truly an honor to be the nominee to serve as Assistant 
Secretary of the Treasury for Terrorist Financing. I want to thank 
President Obama for the confidence he has shown in me by nominating me, 
and Secretary Geithner for recommending me, to serve in this position.
    With your indulgence, I would first like to introduce my wonderful 
wife, Suzy, and our sons, Sam and Zeke. I am also very happy that my 
parents, Jordan and Carole Cohen, are here today. I know that this 
occasion fills them all with pride.
    As I sit before this Committee, I am keenly aware of the very 
significant responsibilities assigned to the Assistant Secretary for 
Terrorist Financing. As set out in the statute creating the position, 
the Assistant Secretary, working under the direction of the Under 
Secretary for Terrorism and Financial Intelligence, is ``responsible 
for formulating and coordinating the counterterrorist financing and 
antimoney laundering efforts of the Department of the Treasury.'' These 
efforts are critically important in maintaining the integrity of our 
financial system, combating illicit finance at home and abroad, and 
advancing the foreign policy and national security objectives of our 
great Nation. Having worked on antimoney laundering policy during my 
tenure several years ago in the General Counsel's Office of the 
Treasury Department, and having counseled many clients in my private 
law practice on their obligations to comply with Treasury's antimoney 
laundering and economic sanctions laws and regulations, I believe I am 
well prepared to undertake this responsibility.
    The variety and intensity of the challenges in this arena are, of 
course, ever-changing. Here at home, we need to continue the work of 
refining our antimoney laundering and counterterrorist financing 
regulatory regime, sensitive always to the need to carefully balance 
the burden that these rules impose on our citizens and our financial 
institutions against the value of the information obtained for law 
enforcement and counterterrorism purposes. If confirmed, I expect to 
work closely with the Congress, and my colleagues within the Treasury 
Department, in these efforts.
    Internationally, as the Obama Administration engages with 
governments around the world and confronts those who would do us harm, 
the many tools that the Treasury Department can deploy--including 
targeted financial measures focused on particular individuals and 
entities--will continue to play an integral role in our strategies for 
responding to the many challenges that lie ahead. To take just one 
example, in his recent address on nuclear nonproliferation in Prague, 
President Obama declared that ``we must ensure that terrorists never 
acquire a nuclear weapon,'' and made clear that we must ``use financial 
tools to disrupt'' their efforts to do so. Treasury's capacity to 
analyze financial intelligence, and to act on that intelligence by 
targeting the financial networks of terrorists, proliferators, and 
their supporters, will no doubt be employed as we undertake to meet 
this challenge. If confirmed, I pledge to dedicate myself to this 
mission, and, more broadly, to the use of all of Treasury's tools to 
advance our Nation's foreign policy and national security objectives.
    If confirmed, I very much look forward to working with the 
outstanding professionals who make up the Office of Terrorist Financing 
and Financial Crimes at the Department of the Treasury. I have deep 
respect for the knowledge, dedication and effectiveness of these 
professionals, led by Deputy Assistant Secretary Daniel Glaser. And I 
have great respect--both professionally and personally--for Under 
Secretary Stuart Levey, whom I have known well for almost 20 years, and 
who so ably leads the overall effort in the Office of Terrorism and 
Financial Intelligence.
    In closing, I want to thank the Committee for the attention it has 
given to my nomination. If confirmed, I intend to work closely with 
you, Mr. Chairman, the other Members of this Committee, and your staff 
to pursue our shared objective of protecting our national security and 
the integrity of the financial system. I have enormous respect for this 
institution, and I am deeply committed to maintaining the very 
productive and close relationship that exists between this Committee 
and the Office that I have been nominated to lead.
    Mr. Chairman, I would be pleased to respond to any questions that 
you or Members of the Committee may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR DODD
                        FROM RONALD SIMS

Q.1. HUD Management--Mr. Sims, as I said in my opening 
statement, if you are confirmed as General Deputy Secretary, 
you will be confronted with an enormous number of management 
challenges--from outdated accounting and information systems to 
a workforce nearing retirement. Traditionally, the person in 
your position has day-to-day responsibility for departmental 
management.
    What do you see as your primary management challenges at 
HUD and what are your priorities?

A.1. Dramatic reform in information technology and human 
resources is sorely needed at HUD. HUD must be a creative 
engine of ideas, actions, and tools--in which employees, 
partners, and our customers are empowered to implement a shared 
vision of the future.

Q.2. How do you balance the need to work with the public with 
the need to address the challenges that HUD confronts?

A.2. Transparency in government is conducive to both better 
serving the public's needs as well as enhancing HUD's internal 
management efficiencies. Transparency in government service 
should not be a mere phrase, but rather a transformational 
process by which both HUD's public support functions and 
internal management efficiencies will be improved.

Q.3.How can you coordinate various functions at HUD to make 
sure they work together?

A.3. As I stated in my earlier confirmation testimony, my 
experience in King County as County Executive, taught me the 
value of, and the need for, cross-disciplinary teams and 
solutions. As every manager or businessman or businesswoman 
knows, resources are always finite. Coordinating efforts from 
an enterprise-wide perspective which is inclusive of our non-
Federal partners, allows one to take advantage of certain 
economics-of-scale and collaboration synergies. Too often in 
government we manage by cylinders. That needs to change at HUD; 
that will change at HUD.

Q.4. DOT--We are currently facing many challenges: a deep 
recession, a housing crisis, a crumbling infrastructure, 
worsening metropolitan traffic congestion, global climate 
change, a growing and aging population, and a dangerous 
dependence on foreign oil. While these challenges are clearly 
connected, Federal policy dealing with each of these elements 
is too often developed in isolation. As you know, in February I 
sent a letter to President Obama encouraging him to create a 
White House Office of Sustainable Development to better 
coordinate housing, transportation, energy, and environmental 
policy to help us meet these challenges.
    Recently, HUD and DOT announced an interagency partnership 
to promote sustainable communities.
    Mr. Sims, could you please elaborate on the nature and 
goals of this interagency partnership, and discuss what has 
been done thus far and what will be done in the future to 
advance these goals?

A.4. The new partnership that Secretaries Donovan and LaHood 
announced last month between HUD and DOT is intended to create 
a new model of integrated housing and transportation planning, 
research and development in communities around the Nation. The 
partnership will work together to implement several new 
initiatives:
    First, we will set a goal to have every major metropolitan 
area conduct integrated housing, transportation, and land use 
planning in the next 4 years. To facilitate integrated 
planning, we propose to make planning grants available to both 
metropolitan and rural areas, and create mechanisms to ensure 
that those plans are carried through to localities. DOT will 
encourage Metropolitan Planning Organizations to conduct this 
integrated planning as part of their next long-range 
transportation plan, and HUD will work with its formula 
grantees (CDBO and HOME) to coordinate their Consolidated Plans 
with these regional housing and transportation plans. The goal 
of this effort will be to enable metropolitan areas to set a 
vision for growth and then apply Federal transportation, 
housing, and other investments in an integrated way in support 
of the broader vision. Coordinating these planning processes 
can result in improved use of Federal housing and 
transportation dollars, and expanded affordable housing 
opportunities near transit.
    Second, we will explore the feasibility of developing 
Federal housing affordability measures that include both 
housing and transportation costs. Although transportation costs 
now approach or exceed housing costs for many working families, 
Federal definitions of housing affordability do not account for 
the dual impact that high housing and transportation costs have 
on American families. The partnership will work to redefine our 
definitions of affordability to reflect these interdependent 
costs--so that the combined cost of housing and transportation 
expenditures is more transparent to working families.
    Third, HUD and DOT will work together to identify 
opportunities for coordinating their programs and encouraging 
``location efficiency'' in housing and transportation choices. 
HUD and DOT will identify ways to incentivize locating housing 
near transit and review processes to facilitate better-informed 
decisions and coordinated housing and transportation 
investments.
    Fourth, HUD and DOT will conduct research, data collection, 
development of information platforms, and analytic tools to 
track housing and transportation options and expenditures, 
establish standardized and efficient performance measures, and 
identify best practices.
    We will be submitting detailed proposals to support these 
efforts in our Fiscal Year 2010 budget that will be submitted 
to Congress next month. In the meantime, HUD is encouraging the 
adoption of energy efficient, green building and location 
efficient practices through the expenditure of our Economic 
Recovery Act funds.
    In addition, joint HUD-DOT efforts are already underway 
through a HUD-FTA Working Group. In September 2008, FTA and HUD 
submitted a joint report entitled, Better Coordination of 
Transportation and Housing Programs To Promote Affordable 
Housing Near Transit, to the House and Senate Committees on 
Appropriations. This report outlines the strategies developed 
by FTA and HUD to implement the recommendations of a jointly 
sponsored 2007 study, Realizing the Potential: Expanding 
Housing Opportunities Near Transit, authored by Reconnecting 
America's Center for Transit Oriented Development. Over the 
next few months, the Working Group will produce a Best 
Practices Manual, convene key housing and transportation 
stakeholders and produce a series of Policy Reports on key 
issues related to lowering the cost of housing near transit.

Q.5. How will this interagency partnership incorporate energy 
and environmental policies into your strategies for promoting 
sustainable communities?

A.5. The partnership with DOT, and a parallel partnership with 
the Department of Energy, will address critical energy needs 
and environmental challenges facing our cities, suburbs, and 
rural areas. The residential sector--and the built environment 
more generally--are major contributors to energy consumption 
and global warming. Residential buildings account for 20 
percent of U.S. carbon emissions. The transportation sector 
accounts for another one-third of carbon emissions, in part 
because current development patterns have created a mismatch of 
housing and jobs that, without adequate transit systems, have 
led to long commutes and increased dependence on car travel. 
The average American household now spends 34 percent of their 
annual budget on housing, and 18 percent on transportation, a 
combined total of 52 percent of their budgets wrapped up in 
these, the two largest single expenses.
    Many families that moved out to the exurbs to find 
affordable housing have discovered that their home savings were 
wiped out by high transportation costs. While there were many 
factors that contributed to high foreclosure rates, high 
gasoline costs last summer compounded the problem of high 
housing and energy costs, with the result that some of the 
highest foreclosure rates are to be found in places with the 
highest transportation costs.
    By addressing both location efficiency and energy 
efficiency as key goals, the partnership will hopefully result 
in more compact development and more affordable housing options 
for local communities, improved zoning and creative land use 
strategies to preserve open space and increase infill 
development using existing infrastructure, and more energy 
efficient and green construction practices. In combination, 
these strategies will contribute to lowering vehicle miles 
traveled, increasing energy efficiency of our buildings, and 
lowering greenhouse gas emissions in our cities, suburbs, and 
rural communities.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY
                        FROM RONALD SIMS

Q.1. HUD's Management Challenges--Mr. Sims, despite efforts at 
improvement by previous administrations, HUD continues to 
suffer from significant long-standing management and 
operational challenges.
    As Deputy Secretary, how do you intend to address HUD's 
management and operational challenges?

A.1. HUD, like many large organizations, requires dramatic 
reform in areas like information technology, space management, 
and human resources. What we achieved in King County when I was 
County Executive, was a cross-disciplinary team orientation 
which provided managers with effective tools and support, to 
implement and sustain effective and lasting change. Too often, 
organizational change merely scratches the surface; HUD needs 
to implement lasting change to meet their management and 
operational challenges. I am committed to working beyond simply 
creating a pass-fail bureaucracy. Employees need to be provided 
the necessary tools and incentives to affect real change.

Q.2. Federal Government Role in Housing--Mr. Sims, you are 
serving in your third term as County Executive of King County, 
a large urban government.
    As a County Executive, what are your views on the proper 
role of the Federal government in housing?

A.2. As an elected County Executive with over 12 years of 
experience, I feel strongly that the proper role of the Federal 
government in housing is one of partner to State and local 
governments. States and local governments, particularly during 
these times, welcome the funds provided by the Federal 
government to assist with new housing construction, housing 
rehabilitation, foreclosure prevention, and other important 
housing need areas. While States and local governments 
recognize the authority of the Federal government to impose 
requirements that must be adhered to with the provision of 
Federal funds, State and local governments also must have a 
voice in the expenditure of these Federal funds. State and 
local officials are at the forefront of dealing with the 
housing needs in their jurisdictions. In King County, we built 
strategic partnerships, similar to the ``national network of 
partners'' that Secretary Donovan outlined in his confirmation 
testimony. As I stated in my testimony, I believe deeply in 
partnerships and, as Deputy Secretary of HUD, I will work, as a 
partner, with State and local governments and housing 
authorities, nonprofit organizations, and private developers to 
help the States and localities meet their housing needs.

Q.3. To what degree should local governments be provided with 
the flexibility to meet their housing needs and how can it be 
done in a manner that ensures accountability?

A.3. All State and local governments recognize that by 
accepting Federal funds to address housing needs, Federal 
requirements will apply to the expenditure of those funds. 
However, as a County Executive, I believe that local 
governments should be provided with as much flexibility as 
possible within the parameters of the Federal law governing the 
funds. State and local government officials are in the best 
position to assess the specific housing needs in their areas, 
determine how these needs should be addressed and the priority 
in which these housing needs should be addressed. With respect 
to accountability, President Obama already has set the standard 
for all Federal agencies to be transparent in the allocation 
and expenditure of Federal funds, not only for Recovery Act 
funds, but for all funds. As Senator, President Obama was one 
of the sponsors of the Federal Accountability and Transparency 
Act, which establishes transparency and accountability 
requirements for all Federal funds.
                                ------                                


       RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                        FROM RONALD SIMS

Q.1. Last year I introduced legislation to reform the HUD 
Section 811 program. This bill, known as the Frank Melville 
Supportive Housing Investment Act (S. 3593), would reform 
Section 811 to make it a more effective program in developing 
permanent supportive housing options for nonelderly people with 
disabilities. The bill would reform the current capital advance 
program and allow for a new category of multifamily projects 
and end the flawed and ineffective mainstream tenant-based 
program. Most importantly, the bill would authorize a new 
project-based demonstration program that has the potential to 
triple the number of new units developed by Section 811--
without increasing the current appropriation. The House 
unanimously passed this bill in September 2008. I will soon 
reintroduce the bill in the 111th Congress. If confirmed will 
you work with me and Chairman Dodd to move this legislation 
forward?

A.1. Yes. HUD has expressed general support for the 
legislation. I understand that HUD indicated there were 
portions of the proposed legislation that could be amended to 
enhance the legislation. I look forward to the opportunity to 
work with you on this important legislation.

Q.2. Some critics of the Department have argued that too much 
low income housing has been concentrated in higher poverty and 
lower opportunity neighborhoods. What will HUD do to ensure 
that more assisted housing is located near high quality 
schools, job openings, and recreation opportunities? What kind 
of data will HUD use to measure its progress in this area?

A.2. President Obama is committed to addressing the needs of 
higher poverty neighborhoods. Secretary Donovan and I share 
your concern about reducing the concentration of assisted 
housing tenants in high poverty and low-opportunity 
neighborhoods. The President's 2010 budget proposal for HUD 
will include a request to adequately fund housing vouchers, a 
proven tool for giving families an opportunity to move to lower 
poverty neighborhoods, as well as funding for a new initiative 
called Choice Neighborhoods, that will focus on catalyzing the 
transformation of distressed neighborhoods with assisted 
housing into neighborhoods with high quality housing, schools, 
and opportunities for jobs and recreation. Data from the Census 
Bureau's American Community Survey will allow annual tracking 
of neighborhood change beginning in 2010. In addition, HUD will 
use other tools such as data from the Department of Education 
on school performance, data from the U.S. Postal Service on 
houses not receiving mail, data on the location of transit 
stations, and data collected for the Home Mortgage Disclosure 
Act on housing purchases to track neighborhood trends relative 
to where public and assisted housing tenants live.

Q.3. King County was known for its innovative ``Equity and 
Social Justice Initiative,'' which assessed certain budgetary 
and planning decisions from an equity perspective. Could you 
talk about how that approach could be applied to HUD programs--
and in particular the Making Home Affordable program?

A.3. The principles of King County's initiative are fundamental 
to HUD's core mission and easily adaptable to HUD's new 
leadership and commitment to transforming the agency. The goal 
of the Initiative is for all King County residents to live in 
communities of opportunity. To reach this goal, all communities 
must be equipped with the means to provide individuals with 
access to livable wage, affordable housing, quality education, 
quality health care, and safe and vibrant neighborhoods. King 
County is applying the principles of the equity and social 
justice in its actions, decisions, and policies.
    Equity and Social Justice Principles:

  <bullet>  Identify and address the conditions at the root of 
        inequities

  <bullet>  Actively seek out and promote decisions and 
        policies aimed at equity

  <bullet>  Empower communities

  <bullet>  Work across agencies and departments

  <bullet>  Recognize and honor cultural differences

  <bullet>  Raise and sustain visibility of equity and social 
        justice, and aim for long-term,

  <bullet>  permanent change

    These principles are incorporated into the policy 
development and decision-making to ensure that promoting equity 
is intentionally considered in the development and 
implementation of key policies and programs and in funding 
decisions. The Equity Impact Tool developed for the initiative 
is starting to be used by King County departments. Extensive 
internal and external communication is used to help drive the 
delivery of county services and empower and build the capacity 
of organizations and the community.
    In regard to the Making Home Affordable programs at the 
Department of Treasury, HUD shares the concern that principles 
of equity and social justice have been applied to the 
development and implementation of these programs. In 
particular, HUD has been working with the Treasury Department 
to gather data to review whether the Government Sponsored 
Entities (GSEs) and loan servicers administer the Making Home 
Affordable programs do so in a manner that is consistent with 
the Fair Housing Act.

Q.4. As you know, the Low Income Housing Tax Credit program is 
the largest assisted housing production program in the U.S. 
Because the program is administered by the Treasury Department, 
not by HUD, the program has not adopted any fair housing 
regulations. HUD has the authority to enforce the Fair Housing 
Act and the requirement that all Federal funding is used to 
affirmatively further fair housing. How will HUD use this 
authority with the LIHTC program?

A.4. HUD, the Department of Justice and the Department of 
Treasury's Internal Revenue Service entered into a memorandum 
of understanding (MOU) regarding the Low Income Housing Tax 
Credit Program and potential Fair Housing Act (Act) violations 
in August 2000. The MOU provides that HUD and DOJ will report 
to the appropriate State or local housing finance agency any 
charge of discrimination and any settlement agreement or 
consent decree under the Fair Housing Act that involves a tax 
credit property. In addition, HUD requires substantially 
equivalent State and local agencies to report such information 
to the housing finance agencies. The housing finance agencies 
then reports this potential noncompliance to the IRS, which 
then notifies the relevant property owners that they may lose 
their tax credits if found to have violated the Act. HUD will 
continue to work to ensure that persons who violate the Act do 
not benefit from tax credits. I note that the Internal Revenue 
Service has regulations concerning fair housing, 26 C.F.R. 
1.42-55 and -9.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR BENNETT
                        FROM RONALD SIMS

Q.1. Given President Obama's affirmation of faith-based 
offices, what is your vision for using the office to help 
implement HUD's priorities?

A.1. The HUD Center for Faith-Based and Community Initiatives 
(CFBCI) works to engage partners and stakeholders--both faith-
based and secular--around the agency's agenda and ensure their 
experience informs our work. The CFBCI also works to ensure 
that organizations rooted in the community are able to access 
and participate in HUD programs, while emphasizing the agency's 
standards of transparency, accountability, and efficacy. 
Through regular communication, events, and trainings, the CFBCI 
reaches thousands of organizations every month.
    Going forward, the CFBCI will work closely with the Office 
of Field Policy and Management (FPM) and program offices to: 
(1) play a lead role in outreach to faith-based and community 
organizations about the agency's priorities and opportunities 
to become involved in programs focused on economic recovery, 
support for homeowners, community development, homelessness, 
and the provision of affordable housing free from 
discrimination; (2) offer technical assistance to partners, 
including targeted grant trainings and capacity building; (3) 
foster new partnerships at the community level to identify 
needs and new approaches to addressing them.

Q.2. What personnel changes has HUD made so far this year to 
ensure that the faith-based office is able to meet its 
mandates?

A.2. HUD recently appointed a new Director of the CFBCI to 
oversee this work; and a new Staff Assistant. There are seven 
other career staff in the center and a nationwide network of 
field office liaisons who coordinate with the CFBCI. In 
consultation with the Deputy Secretary's office and the White 
House Office for Faith-Based and Neighborhood Partnerships, the 
Director is engaging in a department-wide review and planning 
process to ensure that in the short term the CFBCI is meeting 
the objectives set out in the FY2009 APP; and setting new 
objectives to support HUD's priorities.

Q.3. What program areas are likely to be enhanced by greater 
faith-based office involvement?

A.3. We envision more robust outreach, technical assistance, 
and support to groups who would participate in HUD programs 
focused on economic recovery, support for homeowners, community 
development, homelessness, and the provision of affordable 
housing free from discrimination.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR CRAPO
                        FROM RONALD SIMS

Q.1. As FHA reserves continue to dwindle, what solutions do you 
propose to restore the reserves so that FHA continues to 
operate on a sound financial basis? Will you advocate for an 
appropriation? Will you increase premiums? If so, will they be 
front-end increases or annual during the life of the loan?

A.1. Financial stability of the FHA's Mutual Mortgage Insurance 
Fund not only is a matter of sound fiscal management but also 
is the subject of statutory requirements under the National 
Housing Act. FHA reserves in the Mutual Mortgage Insurance Fund 
currently satisfy program requirements, but I share the concern 
expressed about the recent reduction in the amount of those 
reserves. If confirmed, I will work closely with the FHA 
Commissioner in his review of the fund's current and 
anticipated activity and in the development of any proposals 
that may be needed to ensure that operations of FHA's single 
family mortgage insurance programs are done in a fiscally sound 
manner and in conformity with statutory requirements.

Q.2. The HUD Hope for Homeowners program has received very few 
applications and few banks have signed up to participate. What 
are your objectives with this program going forward?

A.2. The current very low activity in the HOPE for Homeowners 
Program is disappointing, but a bill (H.R. 1106), entitled the 
``Helping Families Save Their Homes Act of 2009,'' was passed 
by the house and is pending before the senate. There are 
several HOPE for Homeowners provisions in this bill which would 
address issues raised by potential participants in the program, 
including incentives for loan servicers and less onerous 
requirements for borrowers. If confirmed, I will work with the 
FHA Commissioner and his program officials to ensure 
implementation of these changes, if enacted, as soon as 
possible in order to increase program activity.

Q.3. Are you intending to make additional changes to the RESPA 
rule?

A.3. The Real Estate Settlement Procedures Act (RESPA) is 
intended to reduce unnecessary and excessive settlement costs 
for home purchasers by ensuring that necessary information is 
available to them as they prepare to purchase a house with a 
mortgage loan, and to eliminate abusive practices like 
kickbacks and referral fees. The recent RESPA rulemaking 
process has been an effort by HUD to improve a home purchaser'S 
ability to shop by providing for more timely and clearer 
disclosure of information.
    HUD issued its RESPA reform regulation in November of 2008. 
Under the new rule, home purchasers will receive disclosure of 
pertinent information regarding their mortgage loans and 
related settlement charges earlier in the shopping process 
through a standardized Good Faith Estimate (GFE) and revised 
HUD-1 form. The most significant provisions of the new rule 
would go in effect on January 1, 2010. If confirmed, I will 
assist HUD officials in their evaluation of the new rule in 
order to assess the need for any additional changes in the 
future.
    I understand that HUD is in litigation that challenges two 
aspects of the RESPA rule: the ``required use'' provision and 
the mandatory disclosure of mortgage broker compensation. I 
understand that HUD is considering withdrawing the ``required 
use'' provision as drafted, and is defending the litigation 
concerning mortgage broker compensation vigorously consistent 
with its belief that transparency is essential to protect 
consumers in making what is among the most significant 
purchases in their lives.

Q.4. How do you plan to use FHA authorities as well as working 
with Ginnie Mae to address the dramatic evaporation of 
warehouse credit line availability to FHA lenders?

A.4. Discontinued, I will work closely with HUD officials in 
their effort to respond to this situation in a manner that is 
consistent with their statutory authority. I also will work 
with other agencies, such as the Treasury Department, to 
determine whether FHA and Ginnie Mae could provide assistance 
in the operation of a credit facility that would provide 
liquidity support for nondepository Ginnie Mae approved 
issuers, or to warehouse lenders supporting nondepository 
Ginnie Mae issuers, in connection with FHA insured or VA 
guaranteed loans.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR VITTER
                        FROM RONALD SIMS

Q.1. How long do you want and plan to keep Disaster Housing 
Assistance Program available to affected families in the Gulf 
Coast Region?

A.1. As you may know the Disaster Housing Assistance Program is 
a FEMA program administered by HUD pursuant to an MOU. The 
program was to terminate March 2009, and funds have been 
appropriated to provide vouchers for eligible families that 
continue to require ongoing housing assistance. However, the 
program has been extended until August 2009 to allow for a 
transition period for the affected families. At this time there 
is no intent to extend the program beyond August 2009.

Q.2. Do you have any plans to change the program?

A.2. As you are aware, any discussion to change the program for 
future disasters must be had with FEMA. I understand that HUD 
and FEMA have made some systems and procedural changes to DHAP-
Ike based on their experience with DHAP. However, I am not 
aware of any intention to make substantive changes, but look 
forward to learning more about the program and to discuss with 
my counterpart at FEMA issues that may require changes to the 
program.

Q.3.The White House Web site reads: My Administration is 
committed to creating an unprecedented level of openness in 
Government. We will work together to ensure the public trust 
and establish a system of transparency, public participation, 
and collaboration. Openness will strengthen our democracy and 
promote efficiency and effectiveness in Government.
    Yet, on March 22, 2009, news reports indicate that there 
has been a protracted, 12-year legal battle involving 
government documents relating to Qwest Field. This legal bill 
will be approximately $1 million. Is this the standard that 
this Committee and the American people can expect from HUD? How 
will you work to ensure that you will be open and transparent 
with the American people in your new role at HUD?

A.3. I am aware of the President's Executive Order on 
Transparency, Openness, and Collaboration in Government. As I 
stated in my testimony at my confirmation hearing, HUD must be 
an accountable, transparent, and effective organization--ready 
to embrace the new era of management oversight so that program 
activities and outcomes, contracts, grants, and loans satisfy 
these transparency and accountability provisions, and also 
mitigate fraud, waste, and abuse. I am committed to the 
challenge put forth before me by President Obama and Secretary 
Donovan to bring transformational change to HUD and further 
ensure the integrity of HUD programs.
    With regard to the litigation involving Qwest Field, since 
that matter is involved in active litigation, I am regrettably 
unable to comment upon that case.

Q.4. Section 108 is the loan guarantee provision of the 
Community Development Block Grant (CDBG) program that provides 
communities with a source of financing for economic 
development, housing rehabilitation, public facilities, and 
large-scale physical development projects. Clearly, this is a 
very important tool for both HUD and local governments.
    You gave a low-interest-rate HUD loan to build a four-star 
hotel at the Seattle-Tacoma International Airport. Those loans 
are intended to clean up blighted areas and typically go to 
nonprofits, low-income housing developers, or social service 
agencies. Do you think that that loan, to an upscale hotel and 
casino owner, was an appropriate use of taxpayer funds? Was 
there no other, more worthy project?
    Would you allow localities to make such loans?

A.4. Section 108 loans are not limited to cleaning up blighted 
areas. The loans can be used for economic development projects 
that benefit low and moderate income persons by creating jobs. 
The hotel in question was not undertaken. Had it been 
undertaken, however, it would have met the national objectives 
criteria and would have exceeded the minimum public benefit 
standards. Also, it is worth noting that HUD-guaranteed Section 
108 loans are not funded with taxpayer funds. HUD arranges a 
public offering of securities backed by the guaranteed notes. 
Private investors provide the actual funding, not the 
taxpayers.
    Under the Section 108 program, like CDBG, the local 
government--not HUD--decides which eligible projects to fund. 
Like CDBG, the local government must undertake citizen 
participation in preparing its Section 108 application. It is 
appropriate that local governments who know the needs of their 
communities decide which projects are worthy.
    If the loan will be used for an eligible activity which 
meets a national objective (and the guarantee is not an 
unacceptable financial risk), the local governments may decide 
which projects to fund.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR DODD
                     FROM FRED P. HOCHBERG

Q.1. Export-Import Bank's Role in the Current Economy--The 
current COO of Export-Import Bank (Ex-Im Bank) recently 
summarized the economic situation at Ex-Im Bank's Annual 
conference by paraphrasing Dickens by saying, ``In our case, it 
is the worst of times for the global economy BUT the best of 
times for Ex-Im Bank . . . .''
    The extraordinary situation occurring in the U.S. financial 
sector has created enormous challenges but it also highlights 
the incredible opportunity facing Ex-Im Bank as it tries to 
fulfill its core mission of supporting U.S. exporters and their 
workers by providing financing for exports that would otherwise 
not go forward.
    One of those opportunities would be to utilize Ex-Im Bank's 
authority to do direct lending. Do you foresee Ex-Im Bank doing 
more direct lending? What other new programs or ideas do you 
think should be pursued?

A.1. While it is too early for me to comment on new programs, I 
am committed to seeking new and innovative tools and products 
to help exporters and commercial banks in supporting U.S. 
exports. However, Ex-Im Bank is already doing much more direct 
lending over last year. Staff at the Bank believes this trend 
will continue until the commercial banks here and around the 
world recover. In the first half of FY09, Ex-Im has authorized 
15 direct loans. The Bank authorized two in FY08.

Q.2. Inspector General's Report Concerning Fraud in Medium Term 
Program--In the last Congress, this Committee confirmed the 
inaugural Inspector General. It appears to have been a very 
timely exercise, as that office has identified fraud in over 
$100 million in medium term transactions. Some estimate, that 
up to $300 million in fraud has been committed in that program 
since 2002.
    The Inspector General recently released a report detailing 
the fraud and the report also highlighted a number of specific 
steps Ex-Im Bank should take to address this problem. Are you 
committed to working with the IG to implement those 
recommendations, particularly concerning the strategic planning 
for the medium term program and for Ex-Im Bank in general?

A.2. As a businessman for over 20 years, the one thing I don't 
like to do is to lose money to fraud. Therefore, I am fully 
committed to working with the Inspector General to review his 
recommendations and, where prudent, implement them.

Q.3. Small Business--Congress has mandated that Ex-Im Bank use 
20 percent of its annual authorizations on small business 
transactions.
    Given your background at SBA, do you have any ideas on how 
to further expand Ex-Im Bank's role with small business 
exporters so that 20 percent can become a floor, not a ceiling?

A.3. One of the reasons that President Obama nominated me to be 
President and Chairman of Ex-Im Bank was my small business 
background.
    While I would like to make the 20 percent a floor, Ex-Im 
Bank needs to support ALL exporters, small and large, in these 
difficult economic times. What I can commit to is to focus on 
small business and work to ensure that Ex-Im Bank encourages 
small business exports in all ways possible. This is something 
I firmly believe in.
    Furthermore, it is my understanding that for the first time 
in its history, the Bank has authorized over $1 billion for the 
support of small businesses in the first 6 months of the year. 
Given my dedication and interest in small business, I hope to 
see this number increase.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY
                     FROM FRED P. HOCHBERG

Q.1. Expansion of Ex-Im Financial Support--Mr. Hochberg, over 
the past few months, Ex-Im has responded to the ongoing 
financial crisis by enhancing and modifying some of its 
programs to provide more liquidity in the trade finance market. 
Ex-Im has increased its direct lending and short-term finance 
programs, and modified its direct lending program to cover a 
wider range of transactions. While it is important that Ex-Im 
support trade finance in this difficult time, it is also 
important that Ex-Im not water-down its underwriting criteria 
and expose itself to losses.
    How do you plan to balance the increased demand for trade 
financing with Ex-Im's need to maintain sound underwriting 
standards?

A.1. Reasonable assurance of repayment guides all Ex-Im Bank 
transactions. The Bank's job is to take reasonable risk. Our 
mandate is to help correct market imperfections. If confirmed, 
I will ensure that our rigorous underwriting standards are 
maintained. At the same time, we need to keep in mind that Ex-
Im Bank exists to sustain and create U.S. jobs in this 
difficult economy.

Q.2. Small Business Lending--Mr. Hochberg, the Ex-Im Bank is 
required to allocate 20 percent of its authorizations to small 
businesses. While Ex-Im has allocated more than 20 percent of 
its authorizations to small business during the past 3 years, 
it previously had difficulty meeting the 20 percent mandate.
    What steps do you think Ex-Im can take to ensure that it 
continues to meet the needs of small businesses and satisfy the 
20 percent mandate?

A.2. I look forward to working with Karen Mills the new SBA 
Administrator and finding ways for our two agencies to work in 
greater concert to increase small business exports. This was a 
finding that Karen and I reached when we both worked on the SBA 
transition team this past fall. Ex-Im may need some new loan 
and insurance products. I also look forward to working with 
members of Congress to convene town hall meetings throughout 
the country to better engage small business owners. As I stated 
in my testimony, I also want to review our customer service to 
ensure that Ex-Im Bank provides top notch service to all 
customers, especially small business customers. I have already 
consulted Ex-Im Bank's senior vice president for small business 
on how we can improve our outreach to small businesses.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR BUNNING
                     FROM FRED P. HOCHBERG

Q.1. Recently, the Export-Import Bank came under Congressional 
scrutiny when it became known that Ex-Im provided $900 million 
in loan guarantees to benefit Reliance Industries Limited, an 
Indian company which has been supplying some 10 percent of 
Iran's gasoline needs. Over $500 million of these loan 
guarantees were to help finance expansion of Reliance's 
Jamnagar refinery complex, the very refinery complex at which 
this gasoline for Iran is refined. Some portion of these loan 
guarantees to Reliance has apparently not yet been disbursed. 
Letters from several members of Congress called on Ex-Im to 
cease disbursement of these loan guarantees until Reliance 
halts its supply of gasoline to Iran. Indian newspapers 
recently reported, without direct confirmation from Reliance, 
that Reliance has responded to Congressional concerns by 
deciding to halt further gasoline exports to Iran.
    Can you confirm that Reliance has agreed to halt its 
provision of gasoline to Iran? If not, do you support halting 
further disbursement and any new loan guarantees to Reliance 
until they stop supplying gasoline to Iran? If so, can you tell 
us what your response would be if Reliance resumes supplying 
gasoline to Iran while Iran continues to be a state sponsor of 
terrorism and continues to advance its illicit nuclear program?

A.1. General Statement Preceding Specific Answers--I want to 
assure you that as a private citizen I share your concerns 
regarding state sponsors of terrorism, including Iran. These 
are foreign policy concerns of the utmost importance to the 
United States and its allies.
    I have been informed that when foreign policy concerns are 
part of Ex-Im Bank transactions, the Bank consults closely with 
the Department of State and the Department of Treasury. This is 
because the Bank is limited to considering transactions on the 
basis of finance and adherence to the Bank's environmental 
guidelines. I am also informed that there is a mechanism by 
which the State Department can direct the Bank to consider 
nonfinancial factors when deciding on whether to approve a 
transaction. If confirmed, I commit to follow the requirements 
of Ex-Im Bank's charter on this and all other matters.
    Since I was not involved in this matter, I cannot confirm 
whether or not Reliance has agreed to halt its provision of 
gasoline to Iran. I also cannot make judgments as to what 
future relations between the Ex-Im Bank and Reliance, or any 
other Bank customer, should be, regarding state sponsors of 
terrorism. These are foreign policy issues, so the Bank will 
consult closely with the Departments of State and Treasury on 
such matters. If confirmed, I will keep you informed of 
developments.

Q.2. Are you aware of any future Ex-Im loan guarantees which 
involve Reliance Industries?

A.2. I am not aware of any future Ex-Im transactions which 
might involve Reliance or any other specific buyer. If 
confirmed, I will keep you informed of any such transaction.

Q.3. JP Morgan is one of the banks which have benefited from 
U.S. bank-share purchase program (or bailout). It is also the 
bank which has been contracted to provide the loans associated 
with Reliance's Jamnagar refinery. Are you aware of discussions 
with JP Morgan where it has been asked and the Ex-Im Bank has 
been assured that no loans backed by Ex-Im will be provided to 
companies that have business dealings with Iran? This includes 
the loans involving Reliance that have not yet been dispersed.

A.3. I am in no position to know what discussions have taken 
place. If confirmed, I will pay particular attention to any 
matters dealing with Reliance.

Q.4. What should the Bank's policy be with regard to providing 
loan guarantees to companies whose projects benefit directly or 
indirectly state sponsors of terrorism or do business with 
state sponsors of terrorism?

A.4. This is a complex issue of utmost importance to U.S. 
foreign policy. If confirmed, I will consult closely with the 
Departments of State and Treasury regarding issues of state 
sponsors of terrorism.

Q.5. As Chairman of the Ex-Im Bank, what mechanisms would you 
put in place to ensure that, as a matter of Ex-Im policy, all 
interaction and correspondence between the Bank and prospective 
loan guarantee beneficiaries be shared with the Bank's board 
prior to approval of the loan guarantees?

A.5. If confirmed, I will assure that as a matter of Bank 
policy Board members will be kept fully informed of all 
materials relevant to their responsibilities to make sound 
decisions regarding transactions before them, including issues 
of state sponsors of terrorism.

Q.6. Should language be inserted in standard Bank loan 
applications committing loan recipients to halting business 
dealings with state sponsors of terrorism?

A.6. I cannot comment on this issue at this time. However, if 
confirmed, I will consult with our Office of General Counsel 
and work closely with the Departments of State and Treasury 
regarding this very important matter of U.S. foreign policy.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY
                     FROM HELEN R. KANOVSKY

Q.1. Fraud and Lending--On several occasions, HUD's Inspector 
General has raised concerns regarding FHA's lax approach to 
reducing fraud in its mortgage insurance programs. For 
instsnce, the IG reported last year that FHA does not 
consistently refer potentially fraudulent loans to the 
Inspector General's Office.

  <bullet>  What efforts can be taken to eliminate fraud in FHA 
        programs?

  <bullet>  Do you have any perspective on steps that can be 
        taken to reduce or eliminate fraud?

A.1. I strongly support any steps government can take to reduce 
or eliminate fraud in HUD programs. The Office of General 
Counsel aggressively prosecutes fraud and malfeasance in HUD 
programs through its enforcement authorities, such as the 
Program Fraud Civil Remedies Act (PFCRA) and Civil Money 
Penalty statutes. HUD is the lead agency in the Federal 
govermnent in its use of the PFCRA to combat fraud.
    It is my intention to fully support and expand, where 
possible, pursuit of fraud cases under any enforcement 
mechanism available to the Department. If confirmed, I will be 
committed to increasing and enhancing HUD's enforcement 
abilities. I will work with HUD's Mortgagee Review Board (MRB) 
to sanction FHA-approved lenders for failing to comply with HUD 
requirements.
    I look forward to working with HUD's Inspector General, 
HUD's Home Ownership Centers, Mortgagee Review Board, and other 
government agencies, including the Department of Justice, to 
incresse enforcement against FHA-approved mortgagees and others 
who commit fraud in HUD programs.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR CRAPO
                     FROM HELEN R. KANOVSKY

Q.1. As FHA reserves continue to dwindle, what solutions do you 
propose to restore the reserves so that FHA continues to 
operate on a sound financial basis? Will you advocate for an 
appropriation? Will you increase premiums? If so, will they be 
front-end increases or annual during the life of the loan?

A.1. Financial soundness of the FHA Mutual Mortgage Insurance 
Fund is required by section 205(h) of the National Housing Act. 
If confirmed, I will work closely with the Secretary and the 
FHA Commissioner to implement whatever steps they determine, on 
the basis of their review of present and anticipated program 
activity, to preserve the financial soundness of the Mutual 
Mortgage Insurance Fund.

Q.2. The HUD Hope for Homeowners program has received very few 
applications and few banks have signed up to participate. What 
are your objectives with this program going forward?

A.2. Pending legislation, entitled ``Helping Families Save 
Their Homes Act of 2009'' (H.R. 1106), was passed by the House 
and currently is pending in the Senate. The bill has several 
specific improvements to the HOPE for Homeowners program that 
include simplification of the process and incentives for the 
loan servicers. If confirmed and if this bill is enacted, I 
would take all necessary steps to assist the Secretary and the 
FHA Commissioner to implement the statutory amendments so that 
program participants can benefit from them as soon as possible.

Q.3. Are you intending to make additional changes to the RESPA 
rule?

A.3. As you know, the Real Estate Settlement Procedures Act 
(RESPA) is a major consumer protection statute intended to 
provide protection to consumers in the home mortgage settlement 
process through increased disclosure and the elimination of 
abusive practices such as kickbacks and referral fees. With the 
current mortgage crisis, and the Department's interest in 
eliminating all forms of mortgage fraud which may have 
contributed to the crisis, RESPA has taken on even more 
importance.
    HUD's issuance of its RESPA reform regulation in November 
of 2008 was a major revision of HUD's RESPA regulations, 
including the disclosures that are required to be provided to 
borrowers with regard to their mortgage loans and the 
associated settlement charges that are disclosed on the Good 
Faith Estimate (GFE) and the HUD-1. The intent of the new rule 
is to make these RESPA disclosures more timely and effective, 
with the ultimate goal of reducing mortgage costs for 
consumers. The most significant provisions of the new rule are 
not required to be used until January 1, 2010. HUD will 
continue to evaluate the new rule during this 12 month 
implementation period to assess the need for any additional 
changes going forward.
    Two aspects of the RESPA rule are being currently 
challenged. In National Association of Home Builders, et al. v. 
Preston, No. 08-1324 (E.D. Va.), plaintiffs have challenged 
HUD's required use provision under the Administrative 
Procedures Act. HUD has issued a notice proposing to withdraw 
the required use provision from the rule and is considering 
comments to this proposal. The court has stayed the litigation 
until May 8, 2009, to provide HUD an opportunity to respond to 
the comments. The second suit, National Association of Mortgage 
Brokers, Inc. v. Preston, No. 08-2208 (D.D.C), challenges HUD's 
requirement that mortgage brokers disclose their compensation. 
HUD is vigorously defending this suit and anticipates a 
decision prior to the rule's January 1, 2010, implementation 
date.

Q.4. How do you plan to use FHA authorities as well as working 
with Ginnie Mae to address the dramatic evaporation of 
warehouse credit line availability to FHA lenders?

A.4. If confirmed, I would carefully review the statutory 
authorities for FHA and Ginnie Mae programs to determine what 
options, if any, may be available under current law with regard 
to warehouse lines of credit, and consult with program 
officials to ensure all options are thoroughly considered. I 
would also consult with other agencies, such as the Treasury, 
to determine if FHA and Ginnie Mae could provide assistance in 
the operation of a credit facility that would provide liquidity 
support for nondepository Ginnie Mae approved issuers, or to 
warehouse lenders supporting nondepository Ginnie Mae issuers, 
in connection with FHA insured or VA guaranteed loans.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR DODD
                     FROM DAVID H. STEVENS

Q.1. Viability of FHA--One of the few bright spots in the 
current housing economy has been the role being played by the 
Federal Housing Administration. Just a year or two ago, many 
people were asking whether or not the FHA program was a vestige 
of another era--its market share had dropped 3 percent. Today, 
that market share has expanded to between 20 percent and 30 
percent; without FHA, millions of Americans would have no 
access to mortgage credit at all.
    At the same time, the very housing market that has wreaked 
such havoc with so many mortgage lenders is also hurting FHA. 
For example, FY08 capital ratio is estimated to be 3 percent, 
down from 6.4 percent last year.
    To a certain extent we want FHA to be this kind of counter-
cyclical force in the market, able to absorb losses while 
continuing to lend, even in the bad times. But we also have to 
be mindful of the solvency of the fund.
    What steps can be taken to enure the ongoing financial 
health of FHA?

A.1. As indicated in my statement to the Committee, maintaining 
actuarial soundness of the fund is priority number one and 
would involve the following steps. First, if confirmed, I will 
immediately begin looking at specific product terms of the FHA 
program against performance data to identify potential areas of 
adverse selection in order to create changes that may be needed 
to the program. Second, we will look to immediately impact the 
quality of the seller pool by identifying outliers in the 
program and eliminating those with questionable capital or 
performance levels as a means to protect the fund from fraud or 
other adverse impact from low performers. Third, if confirmed, 
we will assemble a team to analyze revenues from the new 
business against loan loss data and work to create options, as 
needed, to strengthen the capital reserves of the fund. Please 
let me reiterate, as I stated in my comments to the Committee, 
that solvency of the fund for the short and the long term is a 
priority. The short term questions are ones that I cannot 
answer until I am confirmed and able to engage with the 
organization to assess the risk profile of the portfolio.

Q.2. Career--You were Senior Vice President at Freddie Mac. 
Please describe your role specifically regarding Freddie Mac's 
purchase of subprime and high-risk products?

A.2. Freddie Mac was essentially two businesses prior to its 
restructuring. The primary business that was at the core of its 
mission was providing a guarantee on the flow deliveries of 
standard business, primarily 30 and 15 year fixed-rate 
mortgages, from mortgage sellers throughout the Nation into TBA 
securities. It was this business for which I was largely 
responsible, along with several other Senior Executives. The 
other business was in the portfolio in which Freddie Mac was a 
buyer of nonstandard products in the market with shareholder 
returns as the primary objective. It was in the portfolio that 
the purchase of the subprime and the other high risk products 
occurred. I did not manage or have responsibility for this side 
of the company in any way. One of the areas that did report to 
me for a time included our expanding markets organization which 
was tasked with helping to expand homeownership with low/mod, 
special affordable, and underserved markets. In this area 
Freddie Mac did offer a program under its ``home possible'' 
product menu that was designed to match the Fannie Mae ``My 
Community'' product. This product had a high loan to value 
ratio and a lower FICO score requirement, but it had primary 
mortgage insurance that covered the top 40 percent of the value 
and had credit guidelines that were far superior to anything in 
the subprime market. This was perhaps the most risky product on 
the flow side of the business, but it was a very small volume 
and was heavily insured from a risk perspective. I left Freddie 
Mae in early 2005, while their financial health was still very 
strong, and both loan performance and company profits were 
high.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY
                     FROM DAVID H. STEVENS

Q.1. Fraud and Lending--On several occasions, HUD's Inspector 
General has raised concerns regarding FHA's lax approach to 
reducing fraud in its mortgage insurance programs. For 
instance, the IG reported last year that FHA does not 
consistently refer potentially fraudulent loans to the 
Inspector General's Office.
    Mr. Stevens, what efforts can be taken to eliminate fraud 
in FHA programs?

A.1. If confirmed, I will directly address this issue. 
Unfortunately, without specific data or access, I would only be 
able to speculate. The OIG concerns need to be looked at and 
aggressively addressed. Let me state clearly that fraud is 
absolutely not tolerated in the mortgage market and cannot be 
tolerated in FHA programs. I believe that the OIG should be an 
area of close cooperation with FHA to root out fraud and 
eliminate and/or prosecute as it occurs. System enhancements 
with stronger risk oversight in FHA can be a significant impact 
to protect against fraud and misrepresentation, and this is an 
area of priority for me, if I am confirmed.

Q.2. Financial Health of FHA--The crisis in our mortgage 
markets has not been confined to solely the sub-prime market. 
The last 2 years have witnessed increasing delinquencies in 
FHA's single family business. In FY08 alone, the economic value 
of FHA's insurance fund fell by over $14 billion, a decline of 
almost 70 percent of the fund's value in FY07. At the same 
time, FHA's presence in the market has increased dramatically.
    Mr. Stevens, is it possible that we could see a continued 
decline in FHA's health, potentially wiping out the fund's 
remaining value?

A.2. At this point the FHA insurance fund is actuarially sound 
and should be sound through FY2010. As expressed in my 
statement to the Committee, this would be job number one to 
address. If confirmed, I will immediately look into the 
portfolio strength, current performance trends by book year, 
State, product, lender, and program characteristic to determine 
if, and where, we can make substantive changes to protect the 
current and future state of the fund. I pledge that I will 
evaluate and report back to this body our findings if I am 
confirmed.

Q.3. Do you believe FHA has sufficient resources, in terms of 
staff and technology, to safeguard the taxpayer from loss?

A.3. I have not had the opportunity to assess the full capacity 
of the FHA resources and will do so quickly, if confirmed, 
since the ability to address these complex issues requires 
effective people, funding, and tools. I do know that FHA has a 
strong, dedicated employee base of long-term career talent that 
will be depended upon to help in this effort. I also know that 
the FHA systems have significant deferred maintenance. A 
business of this size cannot operate over so many years without 
systems investment. The fact that FHA has grown from such a 
small business relative to market size to one that approximates 
one-third of the mortgage market is a testament to the existing 
organization that they can manage this kind of incremental 
change with limited incremental funding to support the growth. 
If confirmed, an area that I intend to look for enhancement in 
resources is the overall credit risk management area in order 
to determine how best to manage and control risk across all off 
FHA.

Q.4. FHA's Multifamily Program--Mr. Stevens, most of the focus 
on our mortgage market has been solely on the single-family 
side. However, over the last year we have seen increasing 
delinquencies on multifamily mortgages. Among securitized 
multifamily mortgages, delinquency rates have tripled over the 
last year.
    What is your view of the health of the multifamily mortgage 
market, and in particular, the financial health of FHA's 
Multifamily Programs?

A.4. Just as with the single family and commercial markets, the 
multifamily market is not immune to the stresses of this 
economic environment. With the appointment of Carol Galante as 
the Deputy Assistant Secretary for Multifamily Programs, FHA 
will have the best leadership to help evaluate the current 
state of the multifamily mortgage market. Providing safe and 
available housing in the market depends on both a sound single 
family mortgage finance system and a strong multifamily market. 
If confirmed, I will work closely with Carol Galante to 
evaluate the current state of the market and identify areas of 
focus and opportunity in order to protect and improve the 
program going forward.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR BAYH
                     FROM DAVID H. STEVENS

Q.1. As Assistant Secretary for Housing, HUD's manufactured 
housing program will fall under your jurisdiction. Can you 
assure the Committee that the full and proper implementation of 
the Manufactured Housing Improvement Act of 2000 will be a 
priority for you?

A.1. The Manufactured Housing Improvement Act of 2000 provides 
valuable protections for consumers, and I will work hard to 
make sure that it is properly implemented. It is my 
understanding that the Act requires HUD to create the 
Manufactured Housing Consensus Committee, and to develop 
national programs for installation and dispute resolution. It 
is also my understanding that these key elements of the Act 
have been implemented. The Consensus Committee has been 
established, and the installation and dispute resolution 
programs are in place. The continued protection of consumers 
under the National Manufactured Housing Construction and Safety 
Standards Act of 1974 and the Manufactured Housing Improvement 
Act of 2000 will be a priority for me.

Q.2. The Manufactured Housing Consensus Committee (MHCC) is the 
centerpiece reform of the Manufactured Housing Improvement Act 
of 2000. It was established to serve as an intermediary between 
the industry, consumers, and HUD. It has come to my attention 
that the independence of this committee is being adversely 
affected by restrictions placed on its functions, as well as 
the ability of its members to communicate and interact with 
program stakeholders and the public. Will you take steps to 
ensure the independence of the MHCC in fulfilling its statutory 
duties and purpose, as intended by the Congress?

A.2. The MHCC is an advisory committee, subject to the 
protections and transparency requirements of the Federal 
Advisory Committee Act, and established to provide independent 
recommendations to the Secretary on certain aspects of the 
Manufactured Housing Program. I understand that the MHCC has 
participated in over 100 meetings since its creation and has 
provided valuable expertise and assistance to the Secretary on 
manufactured housing issues. I am not familiar with the details 
of any policies to restrict the committee's function, but 
nevertheless I would be concerned by any efforts to threaten 
its independence. If confirmed, it is my intention to ensure 
that the MHCC will continue to operate to fulfill its statutory 
duties and purpose and in accordance with the protections of 
the Federal Advisory Committee Act.

Q.3. The Manufactured Housing Improvement Act of 2000 provides 
for the appointment of a noncareer official to serve as 
Administrator of HUD's manufactured housing program. However, I 
understand that this key position has often remained vacant, 
undermining the intent of Congress in establishing this role to 
serve as a liaison between the Department and the Manufactured 
Housing Consensus Committee. Upon your confirmation, will you 
commit to filling this position as quickly as possible?

A.3. The Act provides funding for a noncareer Administrator to 
administer the manufactured housing program. This position has 
been filled in the past. While the appointment of an 
Administrator is not required by the Act, I feel that it is an 
important position and I will take a close look at this matter.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR CRAPO
                     FROM DAVID H. STEVENS

Q.1. As FHA reserves continue to dwindle, what solutions do you 
propose to restore the reserves so that FHA continues to 
operate on a sound financial basis? Will you advocate for an 
appropriation? Will you increase premiums? If so, will they be 
front-end increases or annual during the life of the loan?

A.1. As stated in my statement during the hearing, the first 
priority is to look into both the FHA product terms and lender 
behaviors in order to quickly identify areas of weakness in the 
program. At the present time, the FHA fund is solvent and meets 
actuarial requirements. Based on HPI (House Price Index) data, 
I do not see a short term need for any appropriation, and I am 
hopeful that this will be true for full year 2010. In terms of 
specific responses to improve the reserve, it will take three 
steps to occur in order to provide a more thorough answer. 
First, my confirmation will allow me to access all of the 
current risk data and the ability to assess staff capabilities 
and current mitigation efforts. Second, I will be able to 
assess loss expectations and incoming revenues from the newly 
insured business in order to quantify the net financial impacts 
to the fund. Third, we then will be prepared to make 
recommendations related to questions about premium increases, 
front-end increases, or other options. Please understand that 
credit risk management and actuarial soundness are my top 
priorities, and I pledge to focus here immediately, assuming I 
am confirmed.

Q.2. The HUD Hope for Homeowners program has received very few 
applications and few banks have signed up to participate. What 
are your objectives with this program going forward?

A.2. It is clear that Hope for Homeowners has not been 
successful to date. The core reasons for this relate to the gap 
in meeting the needs of homeowners and investor/servicers. 
Between the complex process requirements and the fairly strict 
restrictions in the initial program, it was unlikely from the 
outset that implementation would meet expectations from those 
who crafted the initial program. Pending legislation entitled 
``Helping Families Save Their Homes Act of 2009'' (H.R. 1106), 
which was passed by the House and currently is pending in the 
Senate, has several specific improvements to the program that 
include simplification of the process and incentives for the 
servicers. This bill is a key part of improving the process. I 
believe also that servicers' motivation for solutions has grown 
with time, so the enactment of H.R. 1106 will meet a more eager 
and willing market to participate in this program as an option. 
At this time, I cannot formally engage in the dialogue with 
industry lenders to gauge the success of these changes, but I 
am confident that they are significant and will go a long way 
to improving performance of the program.

Q.3. Are you intending to make additional changes to the RESPA 
rule?

A.3. At this point the RESPA rule is something I support 
pending the resolution of concerns about a provision called 
``required use.'' I believe the rule is a significant 
improvement in creating a more transparent disclosure process 
and set of documents that will protect consumers in the process 
of obtaining a mortgage loan for their home. Over time, there 
may be more changes needed, and I was very involved in the 
rulemaking process, having testified to a House committee in 
the fall of 2008, and promise to look closely at the current 
rule as well as any additional changes that may be needed in 
the very short term.
    I understand that HUD currently is in litigation 
challenging two aspects of the RESPA rule, the required use 
provision and the mandatory disclosure of broker compensation. 
I also understand that HUD is defending this litigation 
vigorously and believes that transparency is essential to 
protect consumers in making what is among the most significant 
purchases in their life.

Q.4. How do you plan to use FHA authorities as well as working 
with Ginnie Mae to address the dramatic evaporation of 
warehouse credit line availability to FHA lenders?

A.4. The issue of warehouse lines is significant and one that 
would affect the ability of this Nation to have a fully 
functioning, highly competitive mortgage market. In the absence 
of private market solutions, there needs to be consideration of 
a public solution as a minimum stop gap measure to protect 
hundreds of otherwise well-capitalized and responsible lenders 
in the market. I believe that FHA and Ginnie Mae should be more 
closely aligned within their respective authorities since the 
insurance and the financing of mortgage products are directly 
related to the ability to provide a liquid and competitive 
financing vehicle for consumers. Warehouse lending is a 
priority of Secretary Donovan, and I will be directly involved 
to help find a solution, if I am confirmed.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR CORKER
                     FROM DAVID H. STEVENS

Q.1. Mr. Stevens, due to the challenges in the financial 
sector, hospitals that are looking to expand their facilities 
or construct new facilities that are needed in certain areas 
are unable to get the financing necessary for these projects. A 
HUD program commonly referred to as a Section 242 mortgage loan 
provides needed assistance to acute care hospitals. Currently, 
Section 242 loans are not available to psychiatric hospitals or 
physical rehabilitation hospitals that also serve important 
health care functions in Tennessee and around the country. I 
would appreciate your thoughts on the possibility of expanding 
these section 242 loans to hospitals beyond traditional acute 
care facilities.

A.1. The authority for FHA's hospital mortgage insurance 
program is found in section 242 of the National Housing Act. 
The answer to your question may depend upon the extent to which 
section 242 provides authority for insuring mortgages secured 
by psychiatric hospitals and physical rehabilitation hospitals. 
If confirmed, I will review that authority with HUD attorneys 
and consult with hospital program administers in order to 
provide you with an informed response to your question.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR VITTER
                     FROM DAVID H. STEVENS

Q.1. What checks and balances should be present between the 
Ginnie Mae functions and FHA?

A.1. In virtually any mortgage investment business, the ties 
between the asset acquisition side and the securitization side 
are extremely close. The performance of the Ginnie Mae 
securities depends on the quality and duration of the assets 
that are pooled to form the security. Ginnie Mae needs to have 
a voice in the dialogue around programs and polices of 
mortgages used to back the securities simply to ensure that 
decisions are made on the best information available as FHA 
moves forward. If confirmed, I pledge to work much closer with 
Ginnie Mae to make sure that open and transparent information 
is available in order to make the most effective decisions.

Q.2. Do you think TARP money should be used to facilitate Hope 
for Homeowners, including compensating subordinate lien holders 
so that they may be extinguished?

A.2. The TARP funding guidelines are prepared by the Treasury 
Department, but I will look seriously at this issue, if 
confirmed, and would promise to respond to this question after 
that review.

Q.3. Do you believe Hope for Homeowners should be terminated? 
If no, what should be the goals of a new program in its place? 
If yes, what actions will you take to ensure Hope for 
Homeowners works?

A.3. No. The reasons for the low participation in the current 
program are due to complexity of process to the investors/
servicers, confusing qualification guidelines to consumers, and 
adverse incentives. The program enhancements need to address 
these issues.
    Enactment of program improvements in H.R. 1106 would 
simplify the process, remove hurdles to consumers, and provide 
incentives to servicers. In addition, with more stress on 
portfolios, I believe servicers desire for the improvements 
will be higher now than perhaps when the program was first 
introduced, especially if H.R. 1106 is enacted.

Q.4. How quickly do you plan to implement all aspects of last 
year's FHA modernization initiatives as well as the related 
systems and technology improvements?

A.4. Assuming appropriations for technology enhancements are 
approved and assuming confirmation, I will work with all 
deliberate speed to evaluate and implement all improvements as 
quickly as possible, with prudent judgment and process.

Q.5. Currently there is a moratorium on the implementation of 
risk-based pricing. How do you plan to implement risk-based 
pricing? How will the implementation of risk-based pricing 
affect the health of the FHA fund? How will the implantation of 
risk-based pricing affect the need for the FHA to request a 
credit subsidy from Congress?

A.5. If confirmed and the statutory moratorium is not extended, 
I would review the data on which FHA based its decision to 
implement risk-based mortgage insurance premiums in order to 
determine what is the most prudent course of action, going 
forward, to expand participation in these programs while 
protecting the financial soundness of the mortgage insurance 
funds.

Q.6. How do you plan to ensure that the multifamily group 
streamlines approvals for new loans, refinancing of old loans, 
and prepayments?

A.6. If confirmed, I will work very closely with Carol Galante, 
FHA's new Deputy Assistant Secretary for Multifamily Programs, 
to evaluate the current state of the market and to identify 
areas of focus and opportunity in order to protect and improve 
the programs, including those involving loan prepayments as 
well as new loans and refinancing of existing loans.

Q.7. On March 8, 2009, a Washington Post investigation led many 
observers to view the FHA as a ticking time bomb. The article 
reports, ``There has been a spike in quick defaults that seems 
to follow the pattern that preceded the collapse of the 
subprime market as some of the same flawed lending practices 
that contributed to the mortgage crisis are now eroding one of 
the main Federal agencies charged with addressing it.''
    According to the same article, ``more than 9,200 of the 
loans insured by the FHA in the past two years have gone into 
default after only no or only one payment.'' That is three 
times the rate of instant redefault as last year.
    How do you view the health of the FHA fund?
    As you know Congress has never had to appropriate money for 
the FHA insurance fund. Do you anticipate having to ask 
Congress for a credit subsidy? If so, how much would you expect 
to ask for?
    How do you view the affect of reverse mortgages (HECMs) on 
the program?

A.7. At the present time, the FHA fund is solvent and meets 
actuarial requirements. Maintaining that solvency would be a 
top priority for me. If confirmed, I would immediately look at 
specific product terms of the FHA program against performance 
data to identify potential areas of adverse selection in order 
to create changes that may be needed for the program. Second, I 
would look into the quality of the seller pool by identifying 
outliers in the program and eliminating those with questionable 
capital or performance levels as a means to protect the fund 
from fraud or other adverse impact from low performers. Third, 
if confirmed, I would assemble a team to analyze revenues from 
the new business against loan loss data and work to create 
options, as needed, to strengthen the capital reserves of the 
fund. With respect to the HECM program with its increased 
volume of loans insured by FHA, I would ensure that steps 
described above would be taken to ensure program integrity 
while its benefits are made available to an increasing number 
of senior citizens.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR DODD
                        FROM PETER KOVAR

Q.1. Improved Communications With Congress--Mr. Kovar, as you 
may recall from your time working with Mr. Frank, one of the 
hallmarks of the last HUD Administration was their lack of 
communications and transparency to Congress. This was very 
disappointing, because thoughtful oversight depends on having 
access to accurate and timely information about these programs. 
Can you assure us that you will be responsive to the Congress 
so that we can carry out our duties to the American public?

A.1. One of my key responsibilities as the Assistant Secretary 
for Congressional and Intergovernmental Affairs is to ensure a 
commitment of responsiveness to Congress, State, and local 
governments and the American public. My emphasis on improved 
communications with Congress will not only include responsive 
and timely answers to Congressional inquiries and 
correspondence, but sufficient advance notice of key 
initiatives, and appropriate notification of grants and other 
HUD announcements that may affect members' districts and 
States. To achieve this objective, I plan to coordinate with 
HUD offices to ensure that Congressional inquiries are 
appropriately assigned and properly handled. In addition, as I 
mentioned in my testimony before the Committee, I would like to 
institute ``listening sessions'' in which senior HUD staff 
would make themselves available periodically to House members 
and Senators to discuss subject matters of interest to our 
Congressional partners.
    Fundamentally, I view the position for which I have been 
nominated as being focused on facilitating communication in 
both directions: from the Administration to Congress in order 
to ensure that the President's policies are fully understood by 
those who will be responsible for developing legislation to 
implement them, and from Congress to the Administration so that 
the views and concerns of the lawmakers are appropriately taken 
into account in developing those policies. As HUD's liaison to 
Congress, I will do everything I can to ensure the timely and 
responsive flow of information in both directions.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY
                        FROM PETER KOVAR

Q.1. HUD's Role in Disaster Relief--In the past decade, we have 
witnessed two devastating disasters inflicted upon our Nation: 
the terrorist attacks on 9/11 and Hurricane Katrina. In both 
instances HUD has been tasked with helping to rebuild. I know 
the rebuilding efforts in Alabama have been mixed, at best. 
Often funds have not reached those most in need nor have been 
distributed in a fair, timely, and equitable manner.
    Mr. Kovar, please share with the Committee your insights on 
improving HUD's efforts to assist in rebuilding after 
disasters.

A.1. In the past few years, through the efforts of Federal, 
State, and local government staff, the groundwork has been laid 
for a sustained recovery in Louisiana, Mississippi, Texas, 
Alabama, and Florida. The State and City of New York, in 
concert with the Department, continue to address the 
devastation caused by the terrorist attack on 9/11. Yet, many 
challenges remain.
    I believe the most significant challenge is improving 
coordination of disaster response between Federal agencies and 
among the various levels of government: Federal, State, and 
local. Recent experiences have show how critical it is that 
roles be established to prevent duplication of efforts which 
often leave essential needs unmet. To the extent that there 
have been deficiencies in the response to disasters in the past 
in Alabama and elsewhere, I believe that has to some extent 
been a result of the challenges inherent in merging the 
activities of two or more agencies that have overlapping 
responsibilities. With this in mind, it will be important for 
HUD's future disaster response efforts to stress heightened and 
more efficient interagency cooperation, starting at the 
Secretarial level. Facilitating this improved coordination will 
be a key focus of mine if I am confirmed. This will include 
making certain that HUD staff maintain contact with their 
counterparts at other agencies, and that will also be a high 
priority of mine. If confirmed, I will also reach out to our 
partners at the State and local level to ensure that disaster 
responses are coordinated, and I pledge to work with your staff 
to help ensure that the agency carefully reviews any concerns 
you have specifically with regard to rebuilding in Alabama.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR DODD
                     FROM JOHN D. TRASVINA

Q.1. The foreclosure crisis is wreaking havoc on communities 
across the country. Unfortunately, there is some evidence that 
minority communities were particularly targeted with predatory 
lending practices that are now contributing to threatened or 
actual foreclosures. If past is prologue, many of these 
communities may also be affected by mortgage rescue scams. In 
the FY2009 appropriations bill, Congress recently provided $2 
million to HUD's FHEO to combat mortgage rescue scams.
    What role can FHEO play in combating predatory practices 
that are continuing to affect our communities?

A.1. Prosecuting lenders that prey on borrowers in this 
economic crisis is a high priority for this Department. 
Predatory scams continue to plague minority communities. 
Previously, predatory lenders would convince minority 
homeowners to obtain a high-cost subprime loan that the 
borrower could not afford or to refinance for home 
improvements. These scams have changed with the economic times, 
and predatory lenders now target borrowers in foreclosure or in 
danger of foreclosure, but the result is the same: minority 
homeowners lose their equity and often their homes, and 
minority communications are stripped of wealth. The Department, 
through its internal work force and fair housing programs, has 
the ability to combat these practices.
    The Department has the ability to bring these predatory 
lenders to justice. Within the Office of Fair Housing and Equal 
Opportunity, the Fair Lending Division is devoted to 
investigating cases of systemic discrimination by lenders. When 
its team of fair lending specialists and an economist has 
reason to believe that a lender may be discriminating, either 
through complaint patterns, HMDA data, or reports from the 
public, this Division also proposes Secretary-initiated 
investigations into discriminatory lending practices. When the 
Department finds a violation of the law, it will charge the 
lender in order injunctive relief and damages for the borrower.
    As Assistant Secretary, I will further enhance the capacity 
of the Fair Lending Division to investigste and bring fair 
lending cases. Investigators will communicate with consumer 
counselors and fair lending advocates and use their authority 
to investigate lenders that may be targeting mortgage abuse 
schemes to minority neighborhoods. At the same time, the Fair 
Lending Division will monitor and take appropriate action 
against conventionl lenders to ensure that their foreclosure 
and refinance procedures do not discriminate on the basis of 
race or national origin. A recent study by the Federal Reserve 
of San Francisco found that even after controlling for credit 
score and financial characteristics, an African American 
borrower was 3.3 times as likely as white borrowers to face 
foreclosure. Another study found that white borrowers were 
twice as likely as African American homeowners with similar 
financial characteristics to be approved for a refinance, even 
when they went to the same lender.
    Under my leadership, this Division will analyze foreclosure 
and refinance data to address discrimination in the refinance 
and modification of mortgages. As part of this effort, HUD has 
authorized the collection of data on race, ethnicity, and 
gender under the Administration's Home Affordable Modification 
Plan (``HMP''). Under HMP, servicers agree to alter the terms 
of existing mortgage loans in certain circumstances by a 
variety of means, including lowering interest rates, reducing 
principal, and extending repayment schedules. These data, 
together with information about the HMP benefits borrowers 
receive, will enable HUD and other government agencies to 
evaluate fair lending compliance of loan servicers.
    As you are aware, Congress provided the Department with an 
additional $2 million in FY2009 to address discriminatory 
foreclosure rescue scams through the Department's Fair Housing 
Initiatives Program (FHIP). This funding will assist 
organizations to combat mortgage rescue scams that target 
minorities or minority communities. The Depattment will seek 
additional resources in FY2010 to continue this effort and to 
combat other mortgage lending abuses. This effort will address 
both the fair lending violations and deceptive trade practices 
to provide the greatest possible relief for the borrower.
    The Department also takes seriously the necessity to 
increase consumer awareness in this area. All too often, 
binding legal documents are executed before consumers know 
their rights, making correction of the problems all the more 
difficult. HUD educates consumers regarding the dangers of 
predatory lending and how to avoid them, as well as the legal 
remedies available to those who have fallen (or may fall) prey 
to predatory lending. HUD's webpage, Public Service 
Annoucements, and brochures provide information on how to file 
a fair lending complaint, HUD fair lending studies, subprime 
lending, predatory lending, and minority homeownership. As 
Assistant Secretary, I will continue the production of the 
materials and expand their availability in languages other than 
English.
    I am keenly aware that the Office of Fair Housing and Equal 
Opportunity is not working in a vacuum. As Assistant Secretary, 
I will emphasize greater communication with the other HUD 
offices and improve coordination with entities outside of the 
Department, including banking regulatory agencies, the 
Department of Justice and the Federal Trade Commission, and 
State Attorneys General. This will not only allow us to 
coordinate our investigations, but also share tactics and 
techniques for bringing these lenders to justice. I will also 
emphasize the importance of open communication with fair 
housing organizations. The front-line assistance provided by 
these organizations makes them an invaluable resource for 
referrals and information regarding discriminatory lenders in 
their communities.
    In this economic climate, it is critical that the 
Department not simply wait for the homeowners to come to us. We 
will call upon fair housing organizations and other trusted 
organizations within minority communities for their assistance 
and expertise to reach those most affected by the foreclosure 
crisis. I plan to conduct extensive outreach across the country 
to inform homeowners of the resources and relief available to 
them in FHEO and throughout the Department. But we will do more 
than inform them; I hope to be able to provide on the spot 
assistance and referrals for homeowners in one location, to 
ease what is without a doubt a complicated process of 
navigating the different assistance available to them.
    Through these various efforts, the Department can provide 
assistance and justice to minority homeowners who are targeted 
for predatory mortgage abuse schemes.
                                ------                                


       RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                     FROM JOHN D. TRASVINA

Q.1. Improving Enforcement of the Fair Housing Act--Forty years 
after the passage of the Fair Housing Act, our Nation remains 
highly segregated and housing discrimination continues almost 
unchecked. Of the more than 4 million estimated fair housing 
violations annually, only 29,300 complaints were processed in 
2008. Of these, HUD's Office of Fair Housing and Equal 
Opportunity (FHEO) handled 2,123 cases, charged only 48 cases 
and has not addressed continuing systemic discrimination 
nationwide. These numbers are tragically low. HUD has the 
primary responsibility of enforcing our fair housing laws.
    What is your position on HUD's complaint processing load? 
What steps would you take to bolster FHEO's investigative 
strategies so that it addresses all types of discrimination and 
works toward developing systemic cases that effectively combat 
discrimination and promote inclusive communities?

A.1. The Office of Fair Housing and Equal Opportunity (FHEO) 
must provide the leadership in a coordinated effort to promote 
fair housing and to combat housing discrimination. The 
complaint processing system is but one measure of the success 
and effectiveness of this effort. I agree with your view, and 
that of leaders among fair housing and civil rights experts, 
that 48 charges on an annual basis is disappointingly low. At 
the same time, it is important to note that the statutory 
requirement to promote conciliation--which is successful in 
approximately 30 percent of complaints--often obviates the need 
to file a charge in order to provide relief to a discrimination 
victim. As Assistant Secretary, I will examine this area 
thoroughly, including the vital work conducted by FHEO and its 
partners among nonprofit fair housing groups and Fair Housing 
Assistance Program agencies and others to prevent housing 
discrimination. As Assistant Secretary, I will undertake an 
evaluation of the effectiveness of current procedures and seek 
ways to promote vigorous enforcement of the laws.
    It is important to note that the share of housing 
discrimination cases handled by HUD will remain comparatively 
small compared to the caseload of State and local agencies. As 
you know, the Fair Housing Act requires that HUD refer 
complaints to State and local agencies in jurisdictions that 
enforce State and local laws that are substantially equivalent 
to the Federal Fair Housing Act. It is a reflection of the 
national commitment to eliminate discriminatory housing 
practices that 110 jurisdictions enforce substantially 
equivalent fair housing laws that cover 39 States and more than 
85 percent of the population. As a result, the number of 
complaints received by FHEO does not fully reflect its impact 
on combating housing discrimination.
    Another measure of HUD's effective use of the tools to 
combat housing discrimination is Secretary-initiated actions. 
Secretary-initiated investigations and complaints may result 
from matters that were otherwise resolved by the parties 
through the required conciliation process but where 
conciliation does not adequately advance the public interest to 
combat discrimination. Information received through complaint 
investigations or otherwise can and should lead to Secretary-
initiated actions where appropriate. I will work to strengthen 
the Department's existing and new relationships with private 
nonprofit fair housing organizations whose community 
involvement and innovative techniques can help the Department 
develop more cases with strong evidence.
    Finally, in order to address the full extent of harm to 
victims of discrimination, I hope to improve FHEO's 
coordination with Federal, State, and local agencies, such as 
the Department of Justice, the Federal Trade Commission, the 
Federal Deposit Insurance Corporation and other banking 
regulators, and State Attorneys General.

Q.2. Promoting Public-Private Partnership--A recommendation of 
the bipartisan National Commission on Fair Housing and Equal 
Opportunity report is that funding for the Fair Housing 
Initiatives Program (FHIP) should begin at $52 million. And in 
order to create a strong presence in our Nation's communities, 
FHIP eventually should support full funding of private fair 
housing organizations to conduct enforcement activity in each 
of the 363 Metropolitan Statistical Areas, at a cost of 
approximately $109 million per year.
    In addition to funding, FHIP should fund, as required by 
Congressional mandate, an annual comprehensive national media 
campaign to educate consumers about how to recognize and report 
housing discrimination, and to promote inclusive communities 
and an understanding of the benefits of neighborhood diversity. 
FHIP should also incorporate a regional or national systemic 
investigation component in addition to the systemic work done 
on the local level.
    Do you support these recommendations? What steps will you 
take as Assistant Secretary of FHEO to address the needs of 
local fair housing organizations and promote a meaningful 
partnership with local fair housing groups in order to create 
thoughtful, creative actions to address long-entrenched 
patterns of segregation and new forms of discrimination in the 
housing, lending, and insurance marketplaces?

A.2. The National Commission on Fair Housing and Equal 
Opportunity provided national attention and nonpartisan 
expertise to the cause of fair housing. I have enormous respect 
not only for the contributions of its co-chairs, former HUD 
Secretaries Jack Kemp and Henry Cisneros, but for the day-to-
day and sustained efforts of the many fair housing and civil 
rights organizations and leaders that were involved with the 
development of the report. I was pleased to have hosted the 
Commission's hearing in Los Angeles at the headquarters of the 
Mexican American Legal Defense and Educational Fund. Thus, I 
can assure you that I have and will continue to review closely 
the recommendations of the Commission and those of the many 
experts who testified before it.
    The public interest is greatly benefitted when trusted and 
established local and other organizations are in a position to 
assist victims of housing discrimination in learning about 
their rights and responsibilities under the law and the process 
to file a fair housing complaint. The Department's Fiscal Year 
2010 budget for the Fair Housing Initiatives Program (FHIP) 
will reflect the Administration's commitment to FHIP and its 
position on an appropriate level of funding for FHIP.
    As part of its FHIP funding for fair housing organizations, 
the Department makes available approximately $7,000 to each 
organization to defray its costs in pursuing training to 
promote creative and innovative investigative techniques. The 
Department has encouraged the FHIP organizations to enroll in 
courses at the Department's National Fair Housing Training 
Academy. FHIP groups may also use those funds to pursue other 
training opportunities. Additionally, every 2 years, the 
Department hosts a fair housing policy conference that brings 
together fair housing organizations and State and local fair 
housing agencies to exchange thoughtful and creative approaches 
to addressing housing discrimination. Under my leadership, FHEO 
will continue to partner with FHIP organizations to promote 
greater innovation in combating housing discrimination as the 
nature of discrimination evolves, and I will seek their 
valuable expertise in assisting the Department in education, 
outreach, and other roles.

Q.3. Promoting Fair Housing Across the Federal Government--In 
order to build, sustain, and grow strong, stable, diverse 
communities, we need leadership that coordinates fair housing 
policy and practice across all Federal programs. One of the 
basic principles in the Fair Housing Act is that the Federal 
government, and all of its programs and activities, must take 
proactive steps to advance fair housing, not just to avoid 
discriminating.
    How do you see FHEO's role in advancing fair housing? How 
would you work within FHEO and HUD to promote diverse inclusive 
communities and advance fair housing throughout the Federal 
government's programs?

A.3. Affirmatively furthering fair housing is a critical 
priority of the Department. And, as you well know, Senator, the 
Fair Housing Act charges all executive departments and agencies 
to carry out and administer their programs and activities 
relating to housing and urban development in a manner 
affirmatively furthering the Act's purposes. Secretary Donovan 
has declared his commitment to affirmatively further fair 
housing in several public addresses. For example, at the April 
1, 2009, opening event at HUD observing the 41st anniversary of 
the Fair Housing Act, Secretary Donovan set clear priorities 
for HUD to build diverse and inclusive communities and to 
advance fair housing in all Federal programs. He said that, 
``Our successes in ensuring equal housing opportunity for all 
Americans demand an unprecedented level of collaboration, 
cooperation, and communication between HUD, other Federal 
agencies, State and local government, and community agencies.''
    I support this position, and if confirmed, I will carry out 
these goals by working closely with the leadership of other HUD 
programs, recipients, and other Federal agencies to see that 
the Department in its programs and the States and localities 
that receive Federal funds go beyond mere compliance and take 
proactive steps to further the goals of fair housing.
    One important strategy to deploy is formally partnering 
with Federal agencies to promote fair housing. The seed of 
partnership was planted when Secretary Donovan signed a 
Memorandum for Understanding with Secretary LaHood of the 
Department of Transportation to help American families gain 
better access to affordable housing, more transportation 
options, and lower transportation costs. The average working 
American family spends nearly 60 percent of its budget on 
housing and transportation costs, making these two areas the 
largest expenses for American families. Secretaries Donovan and 
LaHood want to find ways to cut these costs by focusing their 
efforts on creating affordable, sustainable communities. 
Secretary Donovan stated that, ``This partnership furthers fair 
housing goals by taking steps to remedy the problems caused by 
concentrations of poverty across the country, and to give all 
Americans equal housing choice.''
    I also will review Executive Order 12892, ``Leadership and 
Coordination of Fair Housing in Federal Programs: Affirmatively 
Furthering Fair Housing,'' to determine whether the President's 
Fair Housing Council should be convened to coordinate cross-
agency collaboration to support fair housing.

Q.4. The Fair Housing Act's statutory obligation to act 
affirmatively to further fair housing that applies to Federal 
programs and activities has not been enforced to promote strong 
and diverse communities. The Federal government's three largest 
Federal housing programs (Section 8, public housing, and the 
Low Income Housing Tax Credit) serve more than 4.5 million 
families and yet do very little to further fair housing and, in 
some cases, work to create and/or maintain segregated housing 
patterns.
    As Assistant Secretary of FHEO, would you support issuing a 
new regulation giving HUD more authority to address failures in 
affirmatively furthering fair housing by recipients of its 
funding?

A.4. I believe that this is an important issue that requires 
serious thought and consideration. Currently, HUD regulations 
require recipients to sign certifications to affirmatively 
further fair housing. These regulations provide HUD the 
authority to question the certifications if the recipients do 
not show evidence that they have promoted fair housing. HUD 
also has the authority to take adverse legal action against 
jurisdictions that are directly involved in discrimination and/
or fail to affirmatively further fair housing.
    If confirmed, I will explore what steps would best 
implement the Department's mandate to affirmatively further 
fair housing.

Q.5. Fair Housing and the Foreclosure Crisis--The current 
mortgage crisis has its roots in decades of discriminatory 
housing and lending practices. When traditional lenders would 
not lend in communities of color, exploitative predatory 
lenders filled the gap, causing an unprecedented loss of wealth 
to those communities.
    Given this, it is critical that the solutions that have 
been proposed to address our current mortgage crisis comply 
with the mandate that all government housing and lending 
programs affirmatively promote fair housing. In the foreclosure 
context, this means assessing the racial impacts of alternative 
plans and seeking approaches that are racially and ethnically 
inclusive--approaches that do not further segregate and isolate 
low-income communities of color, but rather promote diverse 
neighborhoods.
    What role do you think FHEO should play in addressing 
discrimination and segregation as part of its response to the 
foreclosure crisis? More specifically, what steps will you take 
to ensure that the Troubled Assets Relief Program (TARP) for 
which HUD is on the oversight board and Neighborhood 
Stabilization Program that is administered by HUD will be 
implemented with full attention to the requirement to 
affirmatively further fair housing? As Assistant Secretary of 
FHEO, how would you reform HUD's fair lending programs to 
assure that discrimination in lending is addressed?

A.5. Prosecuting lenders that prey on borrowers in this 
economic crisis is a high priority for this Department in 
general and the Office of Fair Housing and Equal Opportunity 
(FHEO) in particular. Predatory scams continue to plague 
minority communities. Previously, predatory lenders would 
convince minority homeowners to obtain a high-cost subprime 
loan or refinance for home improvements that the borrower could 
not afford. These scams have changed with the economic times, 
and predatory lenders now target borrowers in foreclosure or in 
danger of foreclosure. Nevertheless, the result is the same: 
minority homeowners lose their equity and often their homes, 
and minority communities are stripped of wealth. The 
Department, through its internal work force and fair housing 
programs, has shared responsibility to combat these practices.
    If confirmed, I will seek to enhance the capacity of the 
Fair Lending Division to investigate and identify fair lending 
cases. Moreover, regarding the Neighborhood Stabilization 
Program (NSP), HUD is ensuring that the requirement to 
affirmatively further fair housing is fully incorporated into 
the notices and notices of funding and availability carrying 
out its operations NSP and NSP II are likely to operate in 
neighborhoods targeted by mortgage fraudsters on the basis of 
race, national origin, or age. Mortgage fraud schemes have 
evolved to take advantage of new funding sources and avoid 
detection, and it is likely that the perpetrators will seek to 
exploit programs like the NSP and the persons who would benefit 
from such programs. HUD and its grantees must remain vigilant 
to investigate and prosecute such frauds, and FHEO will 
undertake outreach and education to prevent exploitation and 
bring vigorous enforcement actions against acts of illegal 
discrimination where they may occur.
    Furthermore, as you are aware, Congress provided the 
Department with an additional $2 million in FY2009 to address 
discriminatory foreclosure rescue scams through the 
Department's Fair Housing Initiatives Program (FHIP). This 
funding will assist organizations to combat mortgage rescue 
scams that target minorities or minority communities.
    The Department also takes seriously the necessity to 
increase consumer awareness in this area. All too often, 
binding legal documents are executed before consumers know 
their rights, making correction of the problems all the more 
difficult. HUD educates consumers on the dangers of predatory 
lending and how to avoid them, as well as the legal remedies 
available to those who have fallen (or may fall) prey to 
predatory lending. HUD's webpage, Public Service Announcements, 
and brochures provide information on how to file a fair lending 
complaint, HUD fair lending studies, subprime lending, 
predatory lending and minority homeownership. As Assistant 
Secretary, I will continue the production of these materials 
and expand their availability in languages other than English.
    I am keenly aware that the Office of Fair Housing and Equal 
Opportunity is not working in a vacuum. If confirmed, I will 
emphasize greater communication with the other HUD offices and 
improve coordination with entities outside of the Department, 
including banking regulatory agencies, the Department of 
Justice, the Federal Trade Commission, and State Attorneys 
General. This will not only allow us to coordinate our 
investigations, but also share tactics and techniques for 
bringing these lenders to justice. I will also emphasize the 
importance of open communication and collaboration with fair 
housing organizations. The front-line assistance provided by 
these organizations makes them an invaluable resource for 
referrals and information regarding discriminatory lenders in 
their communities.
    Through these various efforts, the Department can provide 
meaningful assistance and justice for minority homeowners whose 
fair housing rights have been violated.

Q.6. Limited English Proficiency Issues--In the Summer of 2007, 
a coalition of multifamily industry stakeholders, and civil 
rights advocates agreed to legislative language which would 
allow HUD to better serve persons with limited proficiency in 
the English language by providing technical assistance to 
recipients of Federal funds. This language was included in both 
of the Section 8 Voucher Reform Act (SEVRA) bills introduced in 
the House and Senate (H.R. 1851, S. 2684). I also introduced 
this legislation as a free standing bill (S. 2018). Some of the 
key parts of this authorization bill would have:

  <bullet>  Created a task force of industry and civil rights 
        stakeholders to identify vital documents (to include 
        both official HUD forms and unofficial property 
        documents);

  <bullet>  Required HUD to translate the vital documents 
        within 6 months;

  <bullet>  Created a HUD-administered 1-800 hotline to assist 
        with oral interpretation needs; and

  <bullet>  Authorized appropriations.

    Although these bills were not enacted before the 110th 
Congress adjourned, I anticipate they will be reintroduced in 
this Congress.
    As Assistant Secretary of Fair Housing and Equal 
Opportunity, would you recommend that the Administration 
support legislation identical to S. 2018 (from the 110th 
Congress)? Please explain the rationale you would offer to 
support your recommendation.

A.6. If confirmed, I would like to work closely with you and 
your staff to ensure full protection of the law for all 
individuals without regard to their level of proficiency in 
English and to ensure meaningful access for such individuals to 
HUD programs and the programs of HUD funding recipients. This 
is an area of the law I have worked on for the past 30 years 
and will continue to do so.

Q.7. Please explain where HUD stands in its effort to translate 
important documents to support the multifamily housing and 
public housing programs. I am interested to know:

  <bullet>  Which documents has HUD already provided to support 
        these programs?

  <bullet>  Which documents are in the process of being 
        translated, which languages are being provided and when 
        will HUD make them available to the public?

  <bullet>  Which documents does HUD plan to translate, which 
        languages will be provided, and what is the expected 
        timeframe for completing action on these documents?

  <bullet>  As Assistant Secretary of Fair Housing and Equal 
        Opportunity, what actions will you take to ensure HUD 
        makes translated documents available for use in a 
        timely manner?

A.7. As Assistant Secretary, I will work to ensure that 
language service requirements are coordinated within HUD, 
industry groups, and recipients, on a timely basis. HUD has 
translated a total of 27 vital documents into 15 different 
languages. Each of the documents has been translated into one 
or more of the following languages: Amharic, Arabic, Armenian, 
Chinese, Farsi, French, Hmong, Khmer, Korean, Portuguese, 
Russian, Somali, Spanish, Tagalog, and Vietnamese. More 
specifically, HUD has translated four separate model leases for 
the Multifamily Housing Program into 13 languages; the 
``Resident Rights and Responsibilities'' brochure into 13 
languages; the ``Protect Your Family From Lead in Your Home'' 
brochure into 10 languages; and the ``Housing Discrimination 
Complaint Form'' into seven languages.
    I understand that HUD is reviewing what other vital 
documents should be translated and what target languages are 
most urgently needed.
    The translated documents will be available on the HUD Web 
site (www.hud.gov/lep) by mid-May.
    HUD will continue to support the LEP Initiative by 
continuing to provide written translations of vital documents, 
continuing to provide oral interpretation phone services, and 
collaborating with other Federal agencies.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR VITTER
                     FROM JOHN D. TRASVINA

Q.1. The previous Administration succeeded in forcing the 
Philadelphia Housing Authority to commit to a plan that would 
bring its buildings closer to compliance with the Fair Housing 
laws. Are you aware of whether or not the Housing Authority has 
already breached that agreement? If they have breached the 
agreement, or breach it in the future, how do you plan to 
address this high-profile fair housing issue?

A.1. It is critical that recipients of Federal funds ensure 
that their programs, facilities, and housing are available 
without regard to diasbility.
    I am not in a position to know whether the Philadelphia 
Housing Authority (PHA) is in breach of its October 2008 
agreement with HUD. However, in order to ensure compliance, I 
plan to work with PHA in a cooperative manner, in that FHEO 
would not wait to take action until full breach or default has 
taken place. Instead, as with any housing authority with whom 
there is an agreement under Section 504, I will see that FHEO 
reviews the periodic submissions for any action, anticipated or 
unanticipated, that could lead to a later breach or default, 
and immediately works cooperatively to avoid an actual breach 
or default. I plan to continue this method with PHA.
    If the Department is not satisfied with the housing 
agency's efforts to cure a default, under the terms of the 
agreement, the Department may impose a schedule of actions and/
or a management plan to complete the activities specified in 
the agreement, take appropriate action under HUD's regulations, 
or impose sanctions as specified in the agreement.
                                ------                                


         RESPONSE TO WRITTEN QUESTIONS OF SENATOR DODD
                      FROM DAVID S. COHEN

Q.1. Iran--Mr. Cohen, our Iran policy is currently framed by 
three layers of sanctions--(1) a trade embargo; (2) targeted 
financial measures, shutting off the global banking system to 
specific persons; and (3) the threat of penalties against 
foreign companies that do energy business in Iran.
    Even as the Administration explores possible diplomatic 
channels, how should Treasury continue to maintain pressure to 
combat Iran's terrorist support and nuclear proliferation?

A.1. In my view, enhanced vigilance of Iranian financial 
institutions remains critical in our effort to prevent Iran 
from making further progress on its nuclear program and 
preventing its support of terrorism. If confirmed, I would be 
assisting in holding Iran responsible for its actions by 
joining Treasury's efforts to conduct intensive public and 
private sector outreach to warn governments and global 
financial institutions of the risks of doing business with 
Iran; maintaining the close dialogue established with our key 
partners in Europe, Asia, and the Middle East; extending our 
outreach to less traditional financial centers that may be 
increasingly vulnerable to Iran's illicit financial activities; 
and coordinating Treasury's policy around efforts to detect, 
disrupt and prevent the financing of terror and nuclear 
proliferation.

Q.2. How would you characterize current U.S. policy toward 
Iran? What is the Department of the Treasury's appropriate role 
in formulating and enforcing such a policy?

A.2. I understand that the Administration's policy review on 
Iran is ongoing, so it would be difficult to comment in any 
detail about the current U.S. policy. However, the President 
has been clear that the U.S. is pursuing engagement with Iran 
and, at the same time, will continue to hold Iran responsible 
for its actions. Within this context, I look forward, if 
confirmed, to working vigilantly to ensure that Treasury 
applies the full range of its authorities as necessary to 
address Iran's illicit conduct and protect the international 
financial system from Iranian abuse, and encourage our 
international partners to remain vigilant and take steps 
necessary to guard against the risks posed by Iran.

Q.3. Are additional authorities needed to strengthen U.S. 
sanctions on Iran?

A.3. The Treasury Department has a robust set of authorities to 
combat illicit activity by Iran. If confirmed, I will 
concentrate on ensuring that those authorities are used in the 
most effective and appropriate way to advance our national 
security and foreign policy objectives. I am not in a position 
at the this time to assess whether any additional authorities 
are needed, but if I am confirmed I will work with Congress to 
consider the utility of new or enhanced authorities to combat 
the financing of terrorism, weapons proliferation, narcotics 
trafficking, or other threats to the national security and 
foreign policy interests of the United States, whether 
emanating from Iran or elsewhere.

Q.4. Transnational Threats--Some of the most egregious 
international crimes are funded via the least advanced 
financial networks. America's adversaries--from al Qaeda 
terrorists and Somali pirates to Mexican smugglers and 
launders--exploit informal ``value transfer systems'' such as 
Hawalas. This Committee modernized the 1970 Bank Secrecy Act to 
arm Treasury with additional intelligence-sharing tools, in 
part, to target these networks under Title III of the 2001 USA 
PATRIOT Act.
    Please describe how these additional tools may be used to 
combat threats posed by ``transnational'' organizations that 
are transmitting funds throughout the world outside of the 
traditional international financial system?

A.4. I agree that many of our most dangerous adversaries 
develop or exploit informal financial networks to fund their 
operations and finance their organizations. The modernization 
of the Bank Secrecy Act has provided Treasury with authorities 
that continue to be essential to their ongoing efforts to 
combat such illicit use of informal financial networks. In 
general, I believe that these authorities have proven to be 
essential by strengthening and expanding Bank Secrecy Act 
regulatory requirements to promote transparency and 
accountability across the financial system, including across 
informal value transfer systems that operate as money services 
businesses; and providing new information-sharing channels 
between and among financial institutions and law enforcement 
about persons, accounts and transactions of particular concern, 
including those related to informal financial networks. In 
addition, the USA PATRIOT Act strengthened Treasury's ability 
to designate terrorist financiers--including those operating 
informal financial networks--by clarifying our authority to 
protect classified information required to support designation 
from public disclosure.
    If confirmed, I will support the use of these and other 
critical tools that the Congress has provided in order to 
protect the international financial system from all forms of 
illicit finance and to identify and disrupt illicit financing 
networks through targeted action.

Q.5. What would be your goals for promoting greater 
international cooperation in this area?

A.5. If confirmed, I would seek to promote greater 
international cooperation in this area by following through on 
the existing strategies of promoting a greater understanding of 
how terrorist organizations and other transnational criminal 
groups develop or exploit informal financial networks to 
finance their operations; strengthening implementation of 
international standards that subject informal value transfer 
systems to financial regulation and supervision; and targeting 
transnational illicit financing networks that evade or attempt 
to operate within applicable financial regulatory frameworks 
for enforcement action.

Q.6. Bank Reporting--Under the Bank Secrecy Act, banks are 
required to file with the Department of the Treasury suspicious 
activity reports (SARs) on customers possibly engaging in 
illegal activity and Currency Transaction Reports (CTRs) for 
certain large cash transactions.
    Many businesses are exempt from having banks file CTRs on 
them. Are these exemptions adequate? Is regulatory relief 
needed in this area? If so, what approach should the Department 
take, without compromising our efforts to combat money 
laundering and terrorist financing? Do you share law 
enforcement's concerns over certain proposals for regulatory 
relief?

A.6. In December, FinCEN issued a rule that simplified the 
requirements for financial institutions to exempt their 
eligible customers from currency transaction reporting. The new 
rule introduced a number of changes designed to make it easier 
for depository institutions to exempt low-risk customers from 
the CTR filing requirement. I understand that these changes are 
consistent with the recommendations of the GAO's February 2008 
report on CTRs. At present, I believe it would be prudent to 
monitor the impact of these simplified requirements before 
concluding that additional regulatory relief is needed in this 
area, but, if confirmed, I will be especially attentive to the 
need to carefully weigh the cost imposed by the recordkeeping 
and reporting rules against the benefit of the information 
obtained by law enforcement.

Q.7. How should the Department of the Treasury prevent banks 
from stripping identifying information from international wire 
transfers to avoid U.S. government scrutiny?

A.7. The Treasury Department is working with the law 
enforcement, regulatory, and intelligence communities, as well 
as with international counterparts and the international 
banking industry, in a coordinated effort--including outreach, 
the development of international standards, and, when 
necessary, law enforcement action--to prevent banks from 
stripping identifying information from international wire 
transfers. If confirmed, I would work to continue these 
efforts.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY
                      FROM DAVID S. COHEN

Q.1. Compliance Penalties/TARP--To address significant 
weaknesses in their financial condition, hundreds of financial 
institutions have received billions of dollars through 
government programs.
    Mr. Cohen, do you believe firms could use TARP funds to pay 
compliance fines?

A.1. Funds provided to institutions under the TARP program are 
designed to strengthen TARP recipients' balance sheets, so that 
they are in better position to extend credit to American 
families and businesses. I understand that determining 
precisely which funds a TARP recipient might use to pay 
compliance fines would be difficult.

Q.2. In the case of institutions in weak financial condition, 
will Treasury reduce a fine or even agree to put it off?

A.2. The responsibility to assess civil money penalties or 
other fines for violations of regulations issued by the 
Treasury Department's Financial Crimes Enforcement Network 
(FinCEN) and the Office of Foreign Assets Control (OFAC) has 
been delegated to Directors of those organizations. In the 
normal exercise of their enforcement discretion, the Directors 
of OFAC and FinCEN take into account a variety of factors, 
including the financial condition of the violator, in imposing 
a sanction. Nevertheless, I am confident that the Directors of 
OFAC and FinCEN expect that all persons and entities subject to 
these rules fully comply with the law irrespective of their 
financial condition, and will not excuse noncompliance by firms 
encountering financial distress.

Q.3. Cross-Border Wire Transfers--Mr. Cohen, I understand that 
an OMB hold was placed on a proposed FinCEN regulation 
requiring reporting on Cross-Border Electronic Funds 
Transmittals.
    What can you tell us of the status of that proposed 
regulation and of the broader concept itself, today?

A.3. My understanding is that FinCEN, responding to direction 
from Congress, prepared an October 2006 study entitled 
``Feasibility of a Cross-Border Electronic Funds Transfer 
Reporting System Under the Bank Secrecy Act,'' that concluded 
that it is feasible to require the reporting of information 
that is currently required to be recorded. The next step, 
including whether to issue a notice of proposed rulemaking, is 
subject to internal review by the Department of the Treasury. 
If confirmed, I will promptly turn my attention to that review.

Q.4. General Terrorist Designations--Mr. Cohen, in your 
opinion, what is Treasury's most effective tool for dealing 
with terrorist activity?

A.4. In my opinion, Treasury's most effective tool for dealing 
with terrorist activity, as with all illicit threats to our 
national security, will continue to be the Office of Terrorism 
and Financial Intelligence (TFI), which integrates and marshals 
Treasury's authorities, resources, and expertise against the 
national security threats that we face. The tools that I expect 
to assist in deploying, if I am confirmed, include:

  <bullet>  Targeted action against terrorist organizations or 
        their support networks, such as through designation 
        pursuant to Executive Order 13224 or through sensitive 
        dissemination of targeted information requests to U.S. 
        financial institutions pursuant to Section 314(a) of 
        the USA PATRIOT Act;

  <bullet>  Systemic action against terrorist financing risks, 
        such as designation and the imposition of protective 
        measures pursuant to Section 311 or the issuance of 
        advisories to U.S. financial institutions;

  <bullet>  International engagement with jurisdictions of 
        particular importance in combating terrorist financing; 
        and

  <bullet>  Outreach to the private sector, including the 
        financial community and charitable sector, especially 
        when operating in high risk regions where terrorist 
        organizations are particularly active.

Q.5. How effective are sanctions, and sanctions lists against 
terrorists?

A.5. In my opinion, sanctions--and particularly targeted 
financial sanctions against designated or listed parties--have 
proven to be an increasingly important tool in combating the 
full range of illicit national security threats that we face, 
including not only terrorism, but also threats such as WMD 
proliferation, rogue regimes such as in Zimbabwe and the Sudan, 
and drug trafficking kingpin organizations. Targeted financial 
sanctions have successfully disrupted and deterred terrorists 
and other threats to our national security by raising the 
costs, risks, and difficulties associated with the targeted 
illicit activity.
    I believe that targeted financial sanctions have become an 
increasingly effective tool primarily because:

  <bullet>  Sanctions have evolved from broad-based, 
        jurisdictional programs to targeted ones that focus 
        specifically on the illicit conduct at issue. This 
        evolution has allowed Treasury to focus on the specific 
        threats faced by the United States, while reducing 
        negative collateral consequences to innocent third 
        parties, which in turn facilitates greater support from 
        financial institutions, partner countries, and the 
        general public.

  <bullet>  Many of the national security threats that we 
        face--including WMD proliferation, money laundering, 
        drug trafficking, corruption, and transnational 
        criminal activity more broadly--are motivated by profit 
        or financial greed. Targeted financial sanctions can be 
        highly effective in attacking the financial gains of 
        such illicit activity, and as such, they can have a 
        highly disruptive and deterrent effect.

  <bullet>  All of the national security threats we face--
        including terrorist organizations, criminal 
        organizations, and corrupt or rogue regimes--depend 
        upon the financial system to raise, move, and use funds 
        to support their nefarious interests. Targeted 
        financial sanctions give us a tool to attack this 
        common vulnerability by identifying and shutting down 
        illicit actors that attempt to access the international 
        financial system.

Q.6. What is your general take on terrorist or ``black lists?''

A.6. For fighting terrorism, lists comprised of persons and 
entities subject to sanction are essential to making targeted 
financial sanctions work. Without such lists, U.S. persons--
including our financial institutions--would not know which 
particular individuals and entities are subject to sanction.
    For operational and compliance purposes, Treasury's Office 
of Foreign Assets Control (OFAC) has consolidated and maintains 
a current list (the list of Specially Designated Nationals, or 
SDN list) of all persons publicly designated pursuant to our 
targeted sanctions programs, including our counterterrorism 
sanctions program pursuant to Executive Order 13224. If 
confirmed, I will work with OFAC to ensure that we continue to 
maintain the integrity of the SDN List.
                                ------                                


       RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                      FROM DAVID S. COHEN

Q.1. The Treasury Department has played a key role over the 
past several years in ratcheting up the financial pressure on 
Iran over its illicit nuclear program and support of terrorism. 
For many years, the State Department has named Iran not only as 
the world's leading state sponsor of terror, but as the 
``central bank for terrorism.'' President Obama has committed 
the United States to use all diplomatic, political, and 
economic steps--including direct engagement backed by the 
threat of tougher sanctions--to persuade Iran to turn away from 
its dangerous course.
    If Iran rejects offers to engage with the U.S. regarding 
its nuclear program or if that engagement fails to bear fruit, 
do you believe the Treasury Department will look to impose 
increased financial sanctions on Iran? What might those 
sanctions be?

A.1. It is, of course, very difficult for me, as a nominee, to 
predict what course our policy will take if Iran rejects offers 
to engage with the U.S. regarding its nuclear program, but I 
note that during her recent testimony before the House Foreign 
Affairs Committee, Secretary of State Clinton said that the 
Obama Administration is ``laying the groundwork for . . . very 
tough . . . sanctions that might be necessary in the event that 
our offers are either rejected or the process is inconclusive 
or unsuccessful.'' Such sanctions, of course, would likely be 
administered by the Treasury Department, but it would be 
inappropriate for me to speculate on what the specific 
sanctions might be.

Q.2. If confirmed will you fully enforce those sanctions 
already imposed related to Iran? If foreign banks continue to 
conduct business with Iranian banks sanctioned by the U.S. do 
you believe they should be held liable to sanctions?

A.2. If confirmed, I plan to fully enforce the sanctions 
currently in place against Iran and those persons and entities 
affiliated with the Iranian government that are subject to 
sanctions for supporting terrorism, weapons proliferation, 
destabilizing the region, or otherwise. Moreover, if confirmed, 
I will work to ensure that any foreign bank that breaches our 
sanctions laws (whether with respect to Iran or otherwise) are 
subject to an appropriately severe penalty.

Q.3. Do you believe the Obama Administration will sanction the 
Iranian Central Bank, an act that the Bush Administration never 
got off the ground?

A.3. With all respect, I do not believe it is appropriate for 
me to speculate on any particular sanction that may be imposed. 
I can assure the Senate, however, that if confirmed, I will 
consider all appropriate sanctions.

Q.4. What more can the U.S. do to cut off the financial 
assistance that Iran provides to Hamas and Hizballah?

A.4. Iranian support for terrorism, including support for Hamas 
and Hizballah, is completely unacceptable, and has resulted in 
a number of designations of Iranian entities, including Bank 
Saderat. Although it would be inappropriate for me to speculate 
on what additional steps the Treasury Department might take to 
cut off Iranian financial assistance to Hamas and Hizballah, I 
can assure the Senate that, if confirmed, I will carefully 
assess what appropriate additional steps can be taken.

Q.5. During the campaign, then-Senator Obama voiced support for 
sanctioning the export of refined petroleum products to Iran. 
This has always been an Achilles' heel for Iran because they 
are forced to import 40 percent of their natural gas supply. 
Does the administration intend to support such efforts and can 
these sanctions work in hitting Iran where it will hurt the 
most?

A.5. With all respect, I do not believe it is appropriate for 
me to speculate on any particular sanction that may be imposed. 
I can assure the Senate, however, that if confirmed, I will 
consider all appropriate sanctions.
    Since the end of the 2006 Lebanon War, Hizballah has not 
only built up its power within the Lebanese government, but 
also rearmed itself well beyond the capabilities they had 
during the war. Iran and Syria continue to provide financial 
support for Hizballah, as well as assist with smuggling efforts 
to ensure that Hizballah is armed to attack Israel.

Q.6. Can you discuss U.S. efforts to prevent the illicit arming 
and financing of Hizballah by Iran and Syria? What more do you 
think we should be doing to stop Hizballah?

A.6. Since Hizballah's initial designation as a terrorist 
organization in 1995, the Treasury Department has been engaged 
in a wide-ranging effort to identify and disrupt its financial 
and material support networks, including its sources of support 
in Iran. Similarly, Treasury has used a variety of authorities 
to hold the Syrian regime accountable for its destabilizing 
behavior in the Middle East, including its support for 
terrorist groups such as Hizballah. If confirmed, I look 
forward to continuing Treasury's efforts to target Hizballah's 
global financial network and to holding states that support 
terrorist activity, such as Iran and Syria, accountable for 
their actions.

Q.7. Hizballah has a very active fundraising network in South 
America, largely tied to the trade of illegal narcotics. If 
confirmed will you make it a priority to target Hizballah's 
activities in South America?

A.7. Hizballah's efforts to raise funds in South America, and 
its connection to the illegal narcotics trade, are a cause for 
considerable concern. If confirmed, I will make Hizballah's 
activities in South America a priority.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR BUNNING
                      FROM DAVID S. COHEN

Q.1. Mr. Cohen, are you aware of allegations that imports of 
stainless steel from China contain Cuban nickel, in violation 
of the United States' trade embargo with Cuba? In your 
potential role overseeing the Office of Foreign Assets Control, 
would you enforce U.S. law in this matter? Would you support 
requiring China to certify that there is no banned Cuban nickel 
in its stainless steel exports to the United States?

A.1. I am aware of concerns that Cuban nickel is incorporated 
into stainless steel that is manufactured in third countries 
and subsequently exported to the United States. It is my 
understanding that the Office of Foreign Assets Control, as 
well as U.S. Customs and Border Protection, have been 
considering how best to address this issue to ensure that our 
Cuba trade sanctions are effectively enforced. If confirmed, I 
look forward to working with my colleagues in OFAC and Customs, 
as well as with the Congress, to address this issue.
                                ------                                


        RESPONSE TO WRITTEN QUESTIONS OF SENATOR VITTER
                      FROM DAVID S. COHEN

Q.1. Are you aware of Shariah Compliant Finance (SCF)? Please 
explain your understanding of what it is.

A.1. Shariah Compliant Finance, which is also referred to as 
Islamic Finance, is a form of finance in which transactions are 
designed to avoid payment of interest, which I understand is 
prohibited by Islamic law. Islamic finance permits investors to 
receive profits in return for bearing specific commercial 
risks.
    Zakat is the Islamic principle of giving a percentage of 
one's income to charity. It is an obligation in the Qur'an that 
Muslims pay 2.5 percent of their yearly earnings to zakat. 
Every financial institution offering Islamic products appears 
required to donate 2.5 percent of revenue generated from them 
to zakat (charity). It is the norm that the shariah advisory 
board determines which charity should receive the donation, 
which means it is likely to be a Muslim charity.

Q.2. Are there risks associated with zakat? It has been proven 
in cases like the Holy Land Foundation trial that radical 
Muslims use charities that are fronts for terrorist 
organizations. What is the risk of American dollars funding 
terrorism directly when American Muslims engage in zakat?

A.2. Zakat, as I understand it, is the term used for the Muslim 
obligation to give alms to the poor through charitable giving. 
My understanding is that zakat is an obligation of individual 
Muslims, but not specifically a corporate obligation. Some 
Islamic financial firms, like many non-Islamic financial firms, 
also engage in charitable giving.
    Combating the misuse of charitable giving to fund terrorism 
or other illicit activity has been a key focus of the work of 
the Treasury Department, and it will remain so if I am 
confirmed. The Treasury Department has worked extensively with 
law enforcement to take action against those who would divert 
charitable contributions, of any kind, to fund terrorism or 
other illicit activities. The Treasury Department has an 
ongoing dialogue with the American Muslim community, working 
with the community to prevent abuse of charitable contributions 
collected by the community.

Q.3. There is concern that Islamic finance will and is being 
used as a vehicle for sidestepping U.S. and international 
economic sanctions. For example, the Sudanese government 
reportedly issued Islamic bonds to Gulf investors in order to 
circumvent U.S. sanctions. Given the current situation with 
Iran and the push for economic sanctions, this would be a huge 
loophole and render any enforceable economic sanctions useless. 
How would you suggest Congress and the Administration address 
this issue?

A.3. I am not familiar with what considerations may have driven 
Sudanese government to issue bonds in the fashion that it did, 
or whether an effort to sidestep U.S. and international 
sanctions imposed on Sudan motivated its actions. In any event, 
financial institutions that comply with Islamic law are subject 
to the same rules and regulations that govern any other 
financial institution, including the sanctions programs 
administered by OFAC and the antimoney laundering rules of 
FinCEN, the Federal banking regulators, and the securities 
regulators.

Q.4. As you may have heard, the Treasury Department has been 
studying Shariah Compliant Finance (SCF) as a way to help ease 
the pain of the world financial crisis. Taking it a step 
further, the Treasury has hosted informational sessions on SCF 
to staff and the Presidential transition team. Do you believe 
that this was an appropriate practice for the U.S. Treasury 
Department? Do you plan on continuing the practice?

A.4. I understand that the Treasury Department held a seminar 
in November 2008, in which industry practitioners and academics 
briefed regulators, policymakers, and members of the academic 
community about current developments in the Islamic finance 
industry. Treasury monitors developments in all sectors of the 
financial services industry on an ongoing basis, and routinely 
hosts seminars and attends industry events.

Q.5. Zakat donations have recently decreased because observant 
Muslims in the U.S. do not know what charities they can trust 
and do not want to mistakenly fund terrorism. What 
recommendations would you make to the Treasury Department 
regarding this problem? How can the Treasury Department 
advocate this practice when Muslims trying to exercise freedom 
of religion are skeptical of the risks?

A.5. The Treasury Department has worked closely with the 
Muslim-American community to educate the community about the 
risk that charitable donations may be misdirected to fund 
terrorism. It is a terrible tragedy when well-meaning Muslim 
Americans, who simply want to provide charity to those in need, 
are victimized by having their donations diverted to fund 
terrorists. I understand that as part of Treasury's 
comprehensive strategy to combat terrorist abuse of charities, 
Treasury has issued guidance, including the Anti-Terrorist 
Financing Guidelines: Voluntary Best Practices for U.S.-Based 
Charities, to assist all donor and charitable communities in 
understanding how terrorist organizations abuse the charitable 
sector and in adopting appropriate practices to protect against 
such terrorist abuse. If confirmed, I intend to work with my 
colleagues in the Treasury Department in advancing these 
efforts.

Q.6. If there is a legitimate concern that American investors 
will unknowingly fund zakat resulting from SCF--what steps can 
Treasury take to educate investors of that fact? Would 
legislation that amends the money and finance section of the 
U.S. code to include the types of financial institutions that 
practice SCF and requires that all the businesses covered in 
that section be required to submit a list to the Financial 
Crimes Enforcement Network (FinCEN) of all charitable 
contributions made by the financial institution, during the 
preceding year for review by FinCEN provide additional, useful 
information to both law enforcement and investors? What would 
be problematic about such an approach?

A.6. I am not aware of any particular concerns that American 
investors may be unknowingly funding zakat resulting from 
Shariah Compliant Finance, nor am I aware of charitable 
contributions from any U.S. financial institution presenting 
terrorist financing or other illicit financing concerns. If 
confirmed, however, I will be interested in learning more about 
this issue and will recommend action, if it appears warranted.

Q.7. Shouldn't Shariah-Compliant financial institutions be 
required to disclose the destination of zakat payments?

A.7. I am not aware of any unique problem that has been 
encountered with terrorist financing by the zakat practices of 
Shariah-Compliant financial institutions within the 
jurisdiction of the United States. If confirmed, however, I 
look forward to studying this issue and working with Congress 
to determine whether any special rules should be imposed.

Q.8. Shouldn't Shariah-Compliant financial institutions be 
required to disclose the full and true nature of shariah, the 
basis of their business?

A.8. Transparency is the touchstone of our antimoney laundering 
and counterterrorist financing programs, and thus I support the 
general proposition that U.S. financial institutions should be 
transparent about the products and services they offer to their 
customers. For Shariah-Compliant financial institutions, this 
transparency would include appropriate disclosure that the 
financial products and services it offers are specifically 
tailored to comply with shariah principles.

Q.9. Shouldn't Shariah-Compliant financial institutions be 
required to disclose who the shariah scholars/advisors are and 
their associations and backgrounds?

A.9. As noted in response to the prior question, I am a strong 
proponent of transparency in financial transactions. If 
confirmed, I will explore carefully the question whether the 
Treasury Department should require any additional disclosure of 
Shariah-Compliant financial institutions.
              Additional Material Supplied for the Record
   STATEMENT OF EDWARD M. KENNEDY, A U.S. SENATOR FROM THE STATE OF 
                             MASSACHUSETTS
    Chairman Dodd and Members of the Committee: I appreciate this 
opportunity to offer my strong support for President Obama's nomination 
of Peter Kovar to be Assistant Secretary for Congressional and 
Intergovernmental Relations at the Department of Housing and Urban 
Development.
    I've known Peter for many years through his service in the office 
of Congressman Barney Frank, where he currently serves as Chief of 
Staff. Peter has a deep commitment to public service. He has a thorough 
understanding of the legislative process, and he is willing to go the 
extra mile in seeking common ground in discussions with other 
Congressional offices. These are some of the very qualities that 
attracted so many people to the message that Barack Obama put forth 
during his campaign, and they are, I believe, qualities that will 
enable Peter to perform very effectively as a direct link between 
Congress and HUD.
    We face a serious housing crisis, and we need to be prepared to 
work closely across party lines and with HUD in the effort to minimize 
the impact of foreclosures on our communities. I believe Peter is 
someone who will make valuable contributions to that vital effort, and 
to many other key HUD initiatives, by helping to keep Congress well 
informed about the Department's activities and ensuring that there will 
be a constructive exchange of ideas in the development of policies.
    I know that Congressman Frank is proud of the work that Peter has 
done on his staff over the years, and, as a fellow Bay State native, I 
share that view. Though Peter's departure to the Administration would 
deprive Congressman Frank and the rest of the Massachusetts delegation 
of his valuable work, I'm convinced that it will serve the greater 
interests of Congress and the Nation as a whole. I urge my colleagues 
to support Peter Kovar's nomination.
                                 ______
                                 
     STATEMENT OF JOHN F. KERRY, A U.S. SENATOR FROM THE STATE OF 
                             MASSACHUSETTS
    Mr. Chairman: It isn't often that a Senator gets to appear before a 
committee to recommend confirmation for not one but two former members 
of their staff.
    But I have that rare opportunity today, with Peter Kovar and Helen 
Kanovsky, both of whom have been nominated by President Obama to 
positions at the Department of Housing and Urban Development.
    When Helen and Peter worked for me I promised them one day they 
would be working for a Democratic president in his administration. Of 
course at the time I said that I thought the president would be me.
    Many of you know Peter. He has been involved in Massachusetts 
politics since 1982 and he has worked for members of Congress from 
Massachusetts for the last two decades. Since 1991, he has been Chief 
of Staff to Representative Barney Frank, a job that obviously took on 
new importance 2 years ago when Barney took over the chairmanship of 
the House Financial Services Committee.
    In 1985, my first year in the Senate, Peter was the correspondence 
manager in my Senate office. That means that he got the first look at 
all those wonderful cards and letters that came in from constituents, 
some of whom may have been a little upset about something the 
government was doing--or not doing.
    Come to think of it, that may have been perfect training for 
someone who has been helping Barney get Wall Street back in working 
order. Or maybe it was his work as a wine importer before deciding on a 
career in public service.
    During his years on the Hill, Peter has been involved in a number 
of important issues, including immigration, Medicare reimbursement, 
environmental protection, and government ethics. His years on the Hill 
make Peter a perfect choice to serve as HUD assistant secretary for 
congressional and intergovernmental affairs.
    Helen was my chief of staff from 1998 to 1999. And all of you know 
that a job like that prepares you for just about anything. In addition, 
she has skills as a lawyer, an adviser, and a leader, all of which she 
will need as the General Counsel to HUD.
    Most recently, Helen has been General Counsel to the AFL-CIO 
Housing Investment Trust (HIT), which, since its inception, has 
invested more than $5 billion to finance more than 85,000 units of 
housing nationwide, generating more than 58,000 union jobs.
    Housing will be at the forefront of our economic recovery, so it is 
fortunate that the President has chosen someone with Helen's experience 
to assist Secretary Donovan at HUD.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
From: Roussell, Melanie N
Sent: Wednesday, April 22, 2009 2:01 PM
To: Gilkey, Eureka N
Subject: Fw: support for David Stevens

FYI.

Melanie Roussell
Press Secretary
U.S. Department of Housing and Urban Development
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d994bcb5b8b7b0bcf797f78bb6acaaaabcb5b599b1acbdf7beb6af">[email&#160;protected]</a>
Blackberry: 571-423-8796
Direct: 202-402-6605

From: Martin Eakes
To: Roussell, Melanie N
Sent: Wed Apr 22 14:00:08 2009
Subject: support for David Stevens

    Hello Ms. Roussell,
    As CEO of Self-Help and the Center for Responsible Lending, I want 
to register my support for the nomination of David Stevens for FHA 
Commissioner. Mr. Stevens has a very strong background in mortgage 
finance and has a well-deserved reputation for integrity. He will be a 
great leader for the FHA during this time of unparalled challenge and 
opportunity.
    If I can be of assistance, or provide further support, please let 
me know. Thank-you.

Martin Eakes, CEO
Self-Help
919-956-4437

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
